<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF COMMERCE AND THE CONSUMER PRODUCT SAFETY COMMISSION</title>
<body><pre>[Senate Hearing 111-489]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-489
 
                           NOMINATIONS TO THE
                       DEPARTMENT OF COMMERCE AND
                 THE CONSUMER PRODUCT SAFETY COMMISSION

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 5, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION



                  U.S. GOVERNMENT PRINTING OFFICE
53-265                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
              Brian M. Hendricks, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 5, 2009...................................     1
Statement of Senator Pryor.......................................     1
Statement of Senator Hutchison...................................     3
    Prepared statement...........................................     3
Statement of Senator Begich......................................    19
Statement of Senator Thune.......................................    22
Statement of Senator Wicker......................................    56
Statement of Senator Klobuchar...................................    58

                               Witnesses

Hon. Mitch McConnell, U.S. Senator from Kentucky.................     4
Dennis F. Hightower, Deputy Secretary-Designate, U.S. Department 
  of Commerce....................................................     6
    Prepared statement...........................................     8
    Biographical information.....................................    10
Robert S. Adler, Commissioner-Designate, U.S. Consumer Product 
  Safety Commission..............................................    24
    Prepared statement...........................................    26
    Biographical information.....................................    28
Hon. Anne M. Northup, Commissioner-Designate, U.S. Consumer 
  Product Safety Commission......................................    41
    Prepared statement...........................................    43
    Biographical information.....................................    45

                                Appendix

Response to written questions submitted to Dennis F. Hightower 
  by:
    Hon. Frank R. Lautenberg.....................................    63
    Hon. Tom Udall...............................................    63
    Hon. Kay Bailey Hutchison....................................    66
Response to written questions submitted to Robert Adler by:
    Hon. John D. Rockefeller IV..................................    67
    Hon. Tom Udall...............................................    67
    Hon. David Vitter............................................    69
Response to written questions submitted to Hon. Anne M. Northup 
  by:
    Hon. John D. Rockefeller IV..................................    69
    Hon. Tom Udall...............................................    70
    Hon. David Vitter............................................    71


                           NOMINATIONS TO THE



                     DEPARTMENT OF COMMERCE AND THE



                   CONSUMER PRODUCT SAFETY COMMISSION

                              ----------                              


                       WEDNESDAY, AUGUST 5, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Mark L. Pryor, 
presiding.

           OPENING STATEMENT OF HON. MARK L. PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. I would like to like to call our hearing to 
order, and I want to welcome everyone to the Commerce Committee 
here today and thank everyone for attending. We are going to 
have a few Senators coming and going. This is a nominations 
hearing.
    The President has nominated Mr. Dennis F. Hightower to be 
Deputy Secretary of the Department of Commerce. Mr. Hightower 
possesses extensive business management experience after 
working for more than 30 years in global marketing, 
international management, and strategic planning as the recent 
CEO of Europe Online Networks and a former senior executive of 
the Walt Disney Company. Mr. Hightower is well qualified to 
serve at the Department of Commerce.
    In academia and the military, Mr. Hightower also has 
excelled. He is a former professor of management at Harvard 
Business School and has spoken as a guest lecturer around the 
world. He has served on innumerable industry boards of 
directors. His dedication to the defense of our country cannot 
be overstated. I look forward to hearing his testimony, and I 
welcome him to this hearing.
    The President has also nominated Mr. Robert Adler and Ms. 
Anne Northup to be Commissioners on the Consumer Product Safety 
Commission. I want to welcome you both to the Commerce 
Committee. I look forward to hearing your testimony.
    And I also want to thank Chairman Rockefeller for asking me 
to chair this hearing this morning.
    The CPSC is a critically important agency over which this 
Committee has jurisdiction. I think we all take the agency's 
mission very seriously of preventing injuries, saving lives, 
and protecting children, in particular. I am confident that the 
two nominees before us recognize the vital role this agency 
plays in protecting the public from public safety risks. If 
confirmed, I expect that both these nominees, these 
Commissioners, to execute the CPSC's responsibilities with the 
diligence that the American consumer deserves.
    Mr. Adler comes to us with much experience and vast 
knowledge of the law, product safety, consumer protection, and 
the Commission itself. He is a former Attorney Advisor to two 
Commissioners at the CPSC, a former Counsel on the House Energy 
and Commerce Committee, and a Professor of Legal Studies at the 
University of North Carolina. At Chapel Hill, Mr. Adler is the 
Luther H. Hodges, Jr. Scholar in Law and Ethics. He also has 
served as an Associate Dean of the MBA program and has won many 
awards for excellence in teaching. We recognize his expertise 
and knowledge, and we welcome his commitment to protecting 
consumers.
    Ms. Northup has much experience working with Congress and 
advocating for children. She represented Kentucky's 3rd 
Congressional District in the U.S. House of Representatives for 
10 years. She was instrumental in promoting child literacy and 
education reform. As a Member of the House, Ms. Northup also 
actively promoted adoption legislation. She serves as a member 
of the Congressional Coalition on Adoption.
    Before her tenure on Capitol Hill, Ms. Northup served in 
the Kentucky House of Representatives for 10 years.
    We welcome her knowledge of child protection and advocacy. 
We know that she will take very seriously the Commission's 
responsibility to protect consumers, if confirmed.
    For years, the CPSC was a neglected and broken agency, 
significantly understaffed, underfunded, and lacking the 
authorities to carry out its safety mission. Unsafe and 
defective products swarm the marketplace. In 2007 and 2008, 
millions of children's toys and other products were recalled 
because they were dangerous. The Commission could not 
effectively police the marketplace and protect consumers from 
harm.
    In response to this unacceptable situation, the Congress 
acted last year and passed a landmark overhaul of consumer 
product safety law. This Committee took a lead role in that, 
and I appreciate all my colleagues for their contributions to 
making that a very good bill which passed by overwhelming 
majorities in both houses. I think the new law will protect 
thousands of lives and prevent millions of injuries.
    Where there have been some issues with the implementation 
of the new law, I believe that the Commission has the 
enforcement discretion and the leadership to overcome these 
challenges and work through them. We do not want to punish 
businesses who comply with the law, but we want to protect 
consumers and children from dangerous and defective products.
    I am confident that if we confirm Mr. Adler and Ms. 
Northup, they will work very hard to resolve any implementation 
issues through a common sense approach. I am also confident 
that they will do this while promoting the primary mission of 
the agency, and that is to protect consumers and keep them 
safe.
    With that, I would like to turn to our Ranking Member, 
Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Mr. Chairman. I will 
not give my opening statement in full, but I would like for it 
to be included in the record.
    I think you have covered the nominees very well. I think it 
is very important that we move expeditiously on all the 
nominees, but especially for the Consumer Product Safety 
Commission where we have passed a law that should have the full 
Commission strength in order to implement the law. I, for one, 
believe that we need to look at the status of the law since we 
passed it because there have been concerns raised and a 
question of whether there is enough flexibility for the 
Commission to deal with the sometimes unintended consequences 
of the law.
    I think it is important that we have the full Commission to 
look at it, and I would agree that a common sense approach is 
what is needed right now in order to have the best results. And 
I think the bipartisanship that we showed in passing that law 
was to try to ensure that our consumers are protected.
    So with that, I will submit my comments for the record and 
just say that I have met with the nominees for the Consumer 
Product Safety Commission. I think both of them are very well 
qualified, and I look forward to having, I hope, a very 
expeditious markup this afternoon in Committee and then be able 
to get them confirmed so they can take their seats at the 
Commission next week.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Thank you, Mr. Chairman, for holding this hearing. And thank you to 
the nominees for being here today. I hope that we will be able to get 
them through this Committee and on to the full Senate for confirmation 
before we recess for August.
    I first want to welcome Mr. Hightower, who has been nominated to be 
Deputy Secretary of the Department of Commerce. The Commerce Department 
has a very broad and diverse jurisdiction; it encompasses NOAA, 
international trade, and our domestic telecommunications network, among 
other matters.
    The functions of the Commerce Department are important to Texas. We 
rely on NOAA to provide coastal and underwater mapping and marine 
debris removal to keep our ports open and functioning. NOAA's weather 
prediction and coastal storm recovery programs are also vital to 
minimizing loss of life when hurricanes hit.
    Broadband, which plays an essential role in job creation and our 
economic recovery, is also a key area of activity for the Commerce 
Department. The NTIA is currently working to administer more than $4 
billion in broadband grants. I hope that as NTIA proceeds with its 
broadband policy, it will maintain a commitment to unserved areas as 
its highest priority.
    I look forward to hearing from Mr. Hightower and hearing his views 
on these and the many other important programs administered by the 
Department of Commerce.
    I would also like to welcome our two nominees to the Consumer 
Product Safety Commission, Mr. Adler and Congresswoman Northup. I am 
very pleased that the CPSC will be restored to a full quorum later this 
month. It is a small agency with a daunting task and it needs all of 
its Commissioners to properly carry out its charge.
    Although having a full quorum is important for the CPSC to continue 
its implementation of last year's CPSIA, I would like to reiterate what 
I said during the hearing for the agency's current Chair Inez 
Tenenbaum.
    I believe this Committee should hold a hearing to examine 
implementation of that law. There has been a difference of opinion 
about the intent of some of the language; what authority and how much 
flexibility is granted to the Commission by the law, and who has the 
responsibility to fix what is broken. An opportunity for all parties to 
openly discuss the issue would be tremendously helpful.
    Especially now, as many businesses are suffering during these tough 
economic times, we should see what can be done to lessen that burden, 
especially on small businesses and home crafters.
    Besides implementation of the CPSIA, there are a number of other 
challenges facing the Commission, and even with the extra resources 
provided by Congress, it is a balancing act to keep up with the 
requirements of last year's law while still remaining alert to possible 
hazards that may make their way into the stream of commerce.
    Everyone can agree that we want to protect consumers, and 
especially children, from harmful products. I look forward to hearing 
from both nominees today and hearing their ideas on how best to advance 
the Commission.

    Senator Pryor. Thank you.
    And it is our honor to have the Senate's Republican Leader 
this morning. Senator McConnell, we welcome you and we look 
forward to your statement.

              STATEMENT OF HON. MITCH McCONNELL, 
                   U.S. SENATOR FROM KENTUCKY

    Senator McConnell. Thank you, Chairman Pryor, Senator 
Hutchison, Members of the Committee.
    It is my honor to be here today to present someone to you 
who you are already familiar with and probably does not need a 
lengthy introduction, and that is Anne Northup of Louisville, 
Kentucky. Anne is a longtime friend of mine. She also is 
accompanied by her husband Woody who is a successful 
businessman in Louisville. We have known each other for longer 
than either of us would particularly care to admit. Throughout 
that time, I have been a great admirer of all she has 
accomplished in both her professional and her personal life.
    She sits before you today as the President's nominee to be 
a Commissioner of the Consumer Product Safety Commission, which 
has a lifesaving mission to protect Americans from hazardous 
products. I want to thank the President for his confidence in 
Anne in selecting her for this position. I fully appreciate his 
desire to see the mission of the CPSC fulfilled and his 
understanding that good people on both sides of the aisle want 
to make that happen and have a lot to contribute.
    Anne is very much one of those people. Anne's gift is that 
she can easily see where and why a problem exists and what the 
best solution is. She has proven she has that ability over a 
very long public career. If her track record does not convince 
you that she is a great fit for this job, then take it from me. 
She is smart, thorough, persistent, insightful, and an 
extremely hard worker. Every American will have reason to be 
thankful that she is once again dedicating herself to public 
service. We in Kentucky are certainly glad of it.
    As the Chairman indicated, Anne represented the 3rd 
District of Kentucky in Congress for 10 years from 1997 to 
2006. The 3rd District includes virtually all of the City of 
Louisville, which happens to be my hometown, and so I was one 
of Anne's constituents. She was recognized as a leader by her 
peers in the House from her very first term. House leadership 
trusted her with important legislative appointments dealing 
with issues as varied as free trade, education, and drug abuse. 
And we in Louisville were grateful time and time again for her 
efforts on our behalf and her grace and civility on the public 
stage.
    Anne also, as the Chairman indicated, served in the 
Kentucky House of Representatives for 10 years and served her 
community for many years before that as an active citizen and 
community volunteer.
    But I do not think she would disagree when I say what is 
the most important to her and what she has had the most success 
at in a very successful life is her wonderful family. Anne and 
Woody have been married for 40 years and have six children. 
Woody is a small business owner. As I indicated, he is with her 
today. I am sure he is proud of everything that he and Anne 
have built together over this time period. Anne puts her family 
at the center of her life. She comes from a very large family 
herself. She is the second of 11 children, and she is the 
mother of a large family. I would suspect dealing with so many 
kids prepared her to deal with a lot of Members of Congress.
    [Laughter.]
    Senator McConnell. But as a mom, Anne knows how important 
it is to have confidence in the safety of consumer products. 
She knows that we must look out for consumers, especially kids. 
She will bring that perspective to this job, and I know she 
will take the responsibilities of the CPSC very seriously. She 
understands that the health and safety of a lot of Americans, 
especially children, depends on it.
    As a Commissioner of the CPSC, Anne also will not forget 
that she is there not to create more red tape but to serve 
ordinary Americans. She understands all too well the 
frustrations many of us have in dealing with government 
bureaucracies. And as a former Member of Congress, Anne 
understands that regulatory agencies must respect the 
legislation Congress passes. Agencies like the CPSC have an 
important role to play, but they must never confuse their role 
with Congress' role which is to make the law.
    No matter which way you look at it, Mr. Chairman, the 
President has made a wonderful choice for this nomination, and 
the American people are going to gain the services of a fighter 
and a thinker on the CPSC as a result. Most of all, they will 
gain the common sense touch of a concerned mother and a proud 
American.
    I could not recommend her more strongly to this Committee 
and look forward to her confirmation.
    I thank each of you for the opportunity to be here today 
and to speak on Anne's behalf. Thank you so much, Mr. Chairman.
    Senator Pryor. Thank you, Senator McConnell. Thank you for 
being here. We are going to do this in two panels today, and I 
want to thank you for your time and your willingness to be here 
today.
    Also, I want to point out that Senator McConnell set a good 
example by staying within his 5 minutes.
    [Laughter.]
    Senator Pryor. So we are hoping that our other panelists 
will follow that lead.
    What we would like to do now is call up the first panel, 
which is Dennis Hightower. Mr. Hightower, if you could come 
forward and take your seat, we will let you make your opening 
statement. We are asking that you keep that to 5 minutes, and 
then we will ask some questions. Mr. Hightower?

 STATEMENT OF DENNIS F. HIGHTOWER, DEPUTY SECRETARY-DESIGNATE, 
                  U.S. DEPARTMENT OF COMMERCE

    Mr. Hightower. Thank you very much.
    Chairman Pryor, Ranking Member Hutchison, and other 
honorable Members of the Committee, I come here today with an 
enormous sense of humility and a deep sense of honor as the 
President's nominee to be the Deputy Secretary of Commerce.
    I want to thank President Obama for nominating me, 
Secretary Locke for his enthusiastic support of my nomination, 
and the Members of the Committee and your staffs who were 
gracious enough to meet with me during the past week.
    At this time, I would like to introduce the Members of the 
Committee to my son, Dennis F. Hightower, Jr.; my fiancee, Dori 
Bye, and her parents, Mr. and Mrs. Melvin Bye; my cousins, 
other relatives, close friends and business colleagues, many of 
whom have traveled great distances to support me today. My 
brother, unfortunately, was not able to be here but he is 
certainly here in spirit.
    My family has long taken pride in our service to America. 
My uncle, James Daniel Fowler, was the second African American 
in the 20th century to graduate from the United States Military 
Academy. His daughter is here today. He was one of three 
members of my family who had the honor to attend West Point. 
The other three are graduates of the United States Naval 
Academy, including the only African American four-star admiral, 
Paul Reason, who is also here with us today.
    My own career began with 8 years as a regular Army officer 
in the United States Army, decorated for service in the Vietnam 
War.
    I believe that serving as the Department of Commerce's 
Deputy Secretary would be a fitting bookend to my 40-year 
career in the private and public sectors. I am proud of the 
work I have done, but also conscious of the extraordinary role 
that my forbearers played in making this day possible.
    My family's commitment to excellence and education can be 
traced back to my maternal grandfather and his oldest sister 
and my paternal grand aunt attending Atlanta University and 
Morris Brown College and Spelman College in Atlanta, Georgia 
prior to the start of World War I.
    My mother received her elementary, secondary, and college 
education here in Washington, D.C. and went on to teach for 40 
years, starting in a one-room schoolhouse in Huntley, Virginia, 
then as the founder and principal of the Army's GED program at 
Fort Belvoir for returning World War II veterans, followed by 
teaching adult and elementary education during her final 27 
years in the then-segregated D.C. school system.
    I, along with several of my friends seated here today, are 
products of that system. We became the first full 3-year class 
to graduate from high school following the historic Brown v. 
Board of Education decision, and we know that without the 
nurturing, caring, and demand for excellence by the many great 
African American teachers of our day, I would not be sitting 
here before you. Their indelible lessons to prepare, perform, 
and persevere guided me during my matriculation at Howard 
University and Harvard Business School, throughout my military 
and business career, and finally, leading to this hearing 
today.
    During my public and private sector careers, I have lived 
and worked in Asia, Latin America, and Europe. My work has 
taken me to 87 countries at last count, many with multiple 
visits. I have run multi-billion consumer products and 
technology-based companies with activities spanning more than 
50 countries. I have negotiated business deals at the highest 
levels with representatives of governments and companies in 
Eastern and Western Europe, the former Soviet Union, the Middle 
East, post-apartheid South Africa, and throughout Asia and 
Latin America.
    This experience deeply informed my teaching at Harvard 
Business School and my service on the boards of some of 
America's leading corporations and startup technology 
companies.
    In short, I think I have developed the necessary skills to 
help make the Department of Commerce effective in its 
interactions with American companies, both large and small.
    The Department of Commerce, with thousands of dedicated 
employees working on everything from climate change to patents 
to international trade, has one of the broadest mandates of any 
Federal agency. But I believe one issue in particular demands 
our foremost attention. We must reestablish the primacy of the 
United States as the leader in innovation, creativity, and 
excellence across the global economic spectrum.
    There are projections that place the United States in 
fourth place over the next 20 years in terms of consumerism, 
manufacturing capacity, and the growth of an entrepreneurial 
base that keeps pace with new global delivery systems and 
developments. This forecasted outcome, to my way of thinking, 
is unacceptable.
    Countries such as Brazil, Russia, India, and China, often 
referred to as the BRIC countries, are now employing aggressive 
industrial policies reminiscent of Japan's strategic commitment 
to the electronics industry in the 1960s. Today, we find 
ourselves competing not only with companies of great capacity, 
but countries intent on establishing dominance in the growth 
areas of the 21st century.
    During recent business travels in India, I was floored by 
the country's commitment to reinvesting in technology and its 
implications for the United States. In Bangalore, you find that 
the technological inroads are often being created and sustained 
by young people under the age of 27.
    If we expect to lead, we must put our best minds on the 
toughest problems, reforming the way America uses health care, 
consumes energy, and educates our children. These reforms, 
which are being pursued relentlessly by the Administration, are 
absolutely necessary to create long-term and sustainable 
economic growth and jobs. I believe that the Department of 
Commerce is uniquely positioned to lead and support the 
American companies that create those jobs.
    I will make sure that I stay within the 5 minutes, Senator, 
so I am going to skip a few things which perhaps will come out 
in the questioning.
    But I think despite the challenges facing America's 
economy, we can be confident, thanks to the Administration's 
aggressive response and the resiliency of our workers and 
business, that this too shall pass.
    Earlier in my career as a McKinsey strategy consultant, the 
best companies I worked with always looked upon economic 
uncertainty as an opportunity to reset, to right-size, to 
retool, to innovate, and to reinvest. I think that this is the 
opportunity that we have right now. And I think we must act 
with a renewed sense of urgency because our global competitors 
are neither standing still nor shy about taking action to exert 
their global economic ambitions. America must demonstrate not 
only a willingness to take action, but we must put in place the 
appropriate metrics to help us know when we have achieved the 
intended results.
    As I look at the challenges facing America and the 
Department of Commerce, I am reminded of a saying that defined 
the mission of one of the elite fighting forces I was a member 
of, and that is: ``Rangers lead the way.'' Today, the 
Department of Commerce must lead the way to improved economic 
growth, enhanced job creation, and a future that is brighter 
than our past.
    In conclusion, Mr. Chairman and Members of the Committee, 
if confirmed as Deputy Secretary of Commerce, it is my intent 
to work with you in a collaborative manner to develop practical 
and timely solutions to our Nation's economic challenges and, 
in the process, help rebuild and reinvigorate our position in 
the world.
    I thank you for your consideration of my nomination and the 
opportunity to address this Committee, and I look forward to 
any questions you might have. Thank you.
    [The prepared statement and biographical information of Mr. 
Hightower follows:]

              Prepared Statement of Dennis F. Hightower, 
        Deputy Secretary-Designate, U.S. Department of Commerce
    Chairman Rockefeller, Ranking Member Hutchison, and honorable 
Members of this Committee, I come here today with an enormous sense of 
humility and a deep sense of honor, as the President's nominee to be 
Deputy Secretary of Commerce.
    I want to thank President Obama for nominating me; Secretary Locke 
for his enthusiastic support of my nomination; and the Members of this 
Committee and your staffs who were gracious enough to meet with me over 
the past week.
    At this time, I would like to introduce the members of the 
Committee to my son, Dennis F. Hightower, Jr.; my fiancee, attorney 
Dori Bye and her parents, Mr. and Mrs. Melvin Bye; and other relatives, 
close friends and business colleagues--several of whom traveled great 
distances to support me here today. My brother, Marvin, was not able to 
be here today, but he is here in spirit.
    My family has long taken pride in our service to America. My uncle, 
James Daniel Fowler, Jr., was the second African American in the 20th 
Century to graduate from the United States Military Academy. He was one 
of three members of my family who had the honor to attend West Point. 
Two other family members are graduates of the United States Naval 
Academy, including the only African American four-star admiral--my 
cousin, Paul Reason--who is here today.
    My own career began with 8 years as a regular army officer that 
included decorated service in the Vietnam War.
    Serving as the Department of Commerce's Deputy Secretary would be a 
fitting bookend to my 40-year career in the private and public sectors.
    I am proud of the work I have done, but also conscious of the 
extraordinary role my forebears played in making this day possible.
    My family's commitment to excellence and education can be traced 
back to my maternal grandfather and his older sister attending Atlanta 
University and Morris Brown College, in Atlanta, Georgia, before the 
start of World War I.
    My mother received her elementary, secondary and college education 
here in Washington, D.C. and went on to teach for 40 years. Her career 
began in a one-room school house in Huntley, Virginia. She later served 
as a founder and principal of the U.S. Army's GED programs at Fort 
Belvoir, Virginia for returning World War II veterans; before 
concluding her career with 27 years teaching adult night school and 
elementary school in the then segregated Washington, D.C. school 
system.
    I, along with several of my friends seated here today, are products 
of that school system.
    We became the first full three-year class to graduate from high 
school following the historic Brown v. Board of Education decision. 
Without the nurturing, caring and demand for excellence from the many 
great African American teachers of our day, I would not be sitting here 
before you.
    Their indelible lesson to ``prepare, perform and persevere'' guided 
me during my matriculation at Howard University and Harvard Business 
School, throughout my military and business career--and finally to this 
hearing today.
    I believe the work I have done over the last 40 years has equipped 
me to meet the various demands the Commerce Department requires of all 
its leaders.
    During my public and private sector careers, I have lived and 
worked in Asia, Latin America and Europe. My work has taken me to 87 
countries at last count--many with multiple visits. I have run multi-
billion dollar consumer products and technology-based companies with 
activities spanning more than 50 countries. I have negotiated business 
deals at the highest levels with government representatives and 
corporate leaders in Europe, the former Soviet Union, the Middle East, 
post-apartheid South Africa and throughout Asia and Latin America.
    This experience deeply informed my teaching at Harvard Business 
School and my service on the board of directors of some of America's 
leading corporations and start-up technology companies.
    In short, I think I have developed the necessary skills to help 
make the Department of Commerce effective in its interactions with 
American companies large and small.
    The Department of Commerce--with thousands of dedicated employees 
working on everything from climate change, to patents, to international 
trade--has one of the broadest mandates of any Federal agency.
    But I believe one issue in particular demands our foremost 
attention.
    We must re-establish the primacy of the United States as the world 
leader in innovation, creativity and excellence across the global 
economic spectrum.
    There are projections that place the United States in fourth place 
over the next 15-20 years in terms of consumerism, manufacturing 
capacity, and the growth of an entrepreneurial base that keeps pace 
with new global developments and delivery systems. This forecasted 
outcome, to my way of thinking, is unacceptable.
    Countries such as Brazil, Russia, India and China--often referred 
to as the ``BRIC'' countries--are now employing aggressive industrial 
policies reminiscent of Japan's strategic commitment to the electronics 
industry in the 1960s.
    Today, we find ourselves competing not only with companies of great 
capacity, but countries intent on establishing dominance in the growth 
areas of the 21st Century.
    During recent business travels in India, I was floored by that 
country's commitment to reinvesting in technology and the implications 
for the United States. I spent time in Bangalore visiting a veritable 
who's who of global technology giants. I was struck not only by the 
technological inroads being made in newly designed, avant-garde 
factories and laboratories, but also by the fact that this 
technological revolution was often being led by young men and women 
under the age of 27. By and large, these young people were not educated 
in the United States like many of their fathers--at MIT, Cal Tech, or 
Rennselaer, for example--but at the Indian Institutes for Technology.
    If America expects to lead, we must put our best minds on the 
toughest problems--reforming the way America uses healthcare, consumes 
energy and educates our children. These reforms, which are being 
pursued relentlessly by the Administration, are absolutely necessary to 
create long-term and sustainable economic growth and jobs.
    I believe that the Department of Commerce is uniquely positioned to 
lead and support the American companies that create those jobs.
    As its name implies, the Department of Commerce plays a crucial 
role in implementing the Administration's bold economic agenda. America 
depends on the Department for:

  <bullet> The expeditious granting of patents and intellectual 
        property protection for our established and fledgling 
        companies;

  <bullet> Bringing broadband and emerging telecommunications 
        applications to underserved and unserved communities throughout 
        America;

  <bullet> Understanding the effects of climate change on our air, 
        oceans and fisheries and promoting green technologies that 
        could mitigate our climate challenges;

  <bullet> Identifying where the country's human capital resides 
        through the accurate conduct of census surveys, particularly 
        the 2010 census;

  <bullet> Ensuring American companies compete on a level playing field 
        around the globe; and

  <bullet> Ensuring emerging American companies have the resources they 
        need to become the global leaders of tomorrow.

    These are but a few of the ways the Department of Commerce is an 
indispensable ally for America's businesses.
    Despite the challenges facing America's economy, we can be 
confident, thanks to the Administration's aggressive response and the 
resiliency of our workers and business, that ``this too shall pass.''
    Earlier in my career as a McKinsey strategy consultant, the best 
companies I worked with looked at economic uncertainty as an 
opportunity to re-set, to right-size, to re-tool, to innovate, and to 
re-invest in our economy.
    That is the opportunity we have right now.
    America must now act with a renewed sense of urgency. Our global 
competitors are neither standing still nor shy about taking action to 
exert their global economic ambitions. America must demonstrate not 
only a willingness to take action, but we must put in place the 
appropriate metrics to help us know when we have achieved the intended 
results.
    As I look at the challenges facing America and the Department of 
Commerce, I am reminded of a saying that defined the mission of one of 
the elite fighting forces I was a member of, and that is: ``Rangers 
lead the way!''
    Today, the Department of Commerce will lead the way to improved 
economic growth, enhanced job creation and a brighter future than our 
past.
    Mr. Chairman and Members of the Committee, if confirmed as Deputy 
Secretary of Commerce, it is my intent to work with you in a 
collaborative manner to develop practical and timely solutions to our 
Nation's economic challenges; and in the process, help rebuild and 
reinvigorate our position in the world.
    I thank you for your consideration of my nomination, and the 
opportunity to address this Committee. I look forward to any questions 
you might have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Dennis Fowler Hightower.

    2. Position to which nominated: Deputy Secretary of Commerce.
    3. Date of Nomination: July 24, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

    5. Date and Place of Birth: 28 October 1941; Washington, D.C.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Children: Son--Dennis Fowler Hightower, Jr., age 43; Daughter--
        Dawn Denise Hightower, age 41.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Harvard University Graduate School of Business, MBA--1974.

        Howard University, BS--1962.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
    I have had management responsibilities in all of my jobs.

        1962-70--U.S. Army, Regular Army Officer.

                Resigned in June 1970 with the rank of Major. Served in 
                Airborne Infantry (Platoon Leader, Company Commander 
                Air Operations Officer) and strategic and operational 
                intelligence positions in the U.S. and abroad 
                (counterintelligence, field operations intelligence, 
                Defense Intelligence Agency, Army General staff--
                intelligence); Army Ranger and Senior Parachutist; 
                Decorated Vietnam Veteran (Intelligence Command and 
                staff in combat unit).

        1970-1972--Xerox Corporation, Manager of Organizational 
        Planning--Research and Engineering Group.

        1974-1978--McKinsey and Company, Inc., Management Consultant--
        Senior Associate and Engagement Manager.

                Strategy consultant to companies in the auto, consumer 
                goods, industrial goods, and technology sectors.

        1978-1981--General Electric Company, Manager of Operational 
        Planning.

                Lighting Components division, Asian and Latin American 
                sourcing, Acquisitions and New Business development.

        Vice President and General Manager.

                GE Lighting Business in Monterrey, Mexico (vertically 
                integrated supplier of complete range of lighting 
                products to Mexico, Venezuela, Brazil, and the U.S. 
                Auto Industry).

        1981-1984--Mattel, Inc., Vice President, Corporate Planning.

                Global Business Development, Acquisitions and 
                Divestitures.

        1984-1987--Russell Reynolds Associates, Inc., Managing Director 
        and Los Angeles Office Manager.

                Recruited senior executive talent for global companies.

        1987-1996--The Walt Disney Company.

                President of Walt Disney Television & Communications 
                (1995-1996); senior executive responsible for 
                profitable managing mufti-billion dollar global 
                enterprises in over 50 countries.

                President of Consumer Products, Europe/Middle East and 
                Africa (1992-1995).

                Executive Vice President of Consumer Products, Europe/
                Middle East (1990-1992).

                Senior Vice President of Consumer Products, Europe 
                (1989-1990).

                Vice President of Consumer Products, Europe (1987-
                1989).

        1996-2000--Harvard Business School, Professor of Management.

                First year MBA program with a focus on leadership, 
                managing change, building emerging markets, and global 
                general management from the perspective of the general 
                manager; helped develop course curriculum and taught in 
                senior executive programs in South Africa and the 
                Middle East to train future leaders in those regions.

        2000-2001--Europe Online Networks, S.A., Chief Executive 
        Officer.

                A privately-held broadband interactive entertainment 
                company based in Luxembourg.

        1996-Present--Board of Directors of leading publicly-held and 
        privately-held companies and trustee of non-profit and 
        educational institutions.

        (Also paid in recent years for speeches through Big Speak 
        Bureau and National Association of Corporate Directors).

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        2007-Present--Member of the Defense Business Board.

                Consists of advisors to the Secretary of Defense and 
                the Chairman of the Joint Chiefs on the application of 
                best practices in business to the defense community.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Accenture, Ltd.--Independent Director.

        Brown Capital Management Company--Independent Director, 
        Investment Management Advisor.

        Casey Family Programs--Trustee.

        Domino's Pizza, Inc.--Independent Director.

        Lightfleet Corp.--Independent Director.

        Bert King Foundation--Board Member.

        Camp Atwater Advisory Council--Co-Chair.

        Gillette Company--Independent Director.

        Northwest Airlines--Independent Director.

        TJX Companies--Independent Director.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        1960-Present--Kappa Alpha Psi Fraternity (Life Membership)--
        African American fraternal organization.

        1987-2005 The Jonathan Club, Los Angeles, CA.

        1987-2007 Le Cercle Foch, Paris, France.

        1993-2005--The French Heritage Society Board.

        1995-2005--The California Club, Los Angeles, CA.

        1996-1998--National Association of Guardsmen, Los Angeles 
        Chapter--social organization for African American men.

        1996-2003--Howard University Board of Trustees.

        1997-2005--Andrew Young Center for International Affairs, 
        Morehouse College, Chair.

        1997-2009--Ron Brown Scholar Program Selection Committee, 
        Founding Member.

        1997-Present--Bert King Foundation Founding Board Member.

        1999-2001--The Corcoran Gallery of Art Board.

        2004-Present--Sigma Pi Phi Fraternity, Epsilon Boule, Member--
        African American fraternal organization.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        2008--Hillary Clinton--$1,000.

        2008--Barack Obama--$1,000.

        No political office held on any level and no services rendered 
        to a state or national political party or election committee.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        1960-1966--Kappa Delta Pi--National Education Honor Society; 
        Scabbard & Blade--National Military Honor Society; Pi Sigma 
        Alpha--National Political Science Honor Society.

        1962-70--U.S. Army Officer (2Lt To Major): Awarded 2 Bronze 
        Stars, Purple Heart, 3 Air Medals, Joint Service Commendation 
        Medal, 5 Army Commendation Medals (1 For Valor), Vietnamese 
        Honor Medal First Class, Vietnamese Cross Of Gallantry, 
        Meritorious Unit Citation, Vietnamese Civic Action Medal, 
        Combat Infantryman Badge, Expert Infantryman Badge, Army Ranger 
        Tab, Senior Parachutist Badge, Expert Weapons Designation 
        (Rifle, Bayonet Grenade).

        1972-74: COGME Fellowship to Study at Harvard Business School.

        1974: Charter Member, National Military Intelligence 
        Association.

        1976: Outstanding Young Men of America.

        1984: Howard University Los Angeles Alumni Chapter, Outstanding 
        Alumni Award for Achievement In Business.

        1985: Proclamation by Mayor of Washington, DC ``Dennis F. 
        Hightower Day--1 April 1985.''

        Presidential Citation, National Association of Equal 
        Opportunity in Higher Education.

        1986: Howard University Alumni Award for Distinguished 
        Postgraduate Achievement in Business and Administrative 
        Service.

        1988: Black Enterprise Magazine--``Top 25 Hottest Black 
        Managers in Corporate America.''

        1989 and 1995: Howard University School of Business Awards--
        Chair Of Visiting Committee and 25th Anniversary Award.

        1992: Harvard Business School Alumni Achievement Award.

        Edges Group ``Breaking the Corporate Ceiling'' Award.

        1993: Black Enterprise Magazine: ``40 Most Powerful Black 
        Executives.''

        1993, 2006, 2008: Who's Who in the World; Leading Business 
        Professionals; Executives and Professionals.

        1995: Harvard Business School African American Alumni 
        Association Alumni of the Year--International Achievement.

        Cover of Black Enterprise Magazine: ``A Whole New World at 
        Disney.''

        1996: Howard University--Honorary Doctor of Humane Letters.

        Charles R. Drew Medical School, Los Angeles, CA Lifetime 
        Achievement Award.

        U.S. Department of Commerce Pioneer Award (Minority Business 
        Development Agency).

        1997: Morehouse College ``Candle in Business'' Award.

        Howard University Athletic Association Buffalo Soldier Award: 
        ``Athlete to Business Leader.''

        2002: U.S. Military Academy Bicentennial Recognition Tray; 
        Friend of West Point.

        2003: The Tuxedo Ball Award for Corporate Leadership.

        2004: U.S. Military Academy Preparatory School Recognition 
        Plaque.

        Founding Sponsor--U.S. Army National Museum.

        2005: Institute for the Advancement of Minority And Multi-
        Cultural Medicine--``Eagle Fly Free'' Cancer Survivor Award.

        2006: ``Camp Atwater 85'' Anniversary--``Dr. William N. Deberry 
        Legacy Award.''

        2008: ``Harvard Business School African American Alumni 
        Association--``Bert King Award for Service.''

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    From 1965 to 1970, I wrote articles for classified intelligence 
community publications (none of these were in the public domain).
    I do not believe I have given speeches on topics directly related 
to the position for which I am nominated, i.e. On programs for which 
the Department is responsible. More generally, over the years, I have 
given numerous speeches at management conferences and academic lectures 
on global leadership, building emerging markets, and infusing 
innovation and creativity into global business operations. For example, 
recent speeches I have record of are: 11.28.2006--Leading the 21st 
Century: The DNA of a Leader--given to Northern Trust; 3.28.2007--
Leading the 21st Century: The DNA of a Leader--given to Northern Trust; 
10.24.2008--Meeting the Challenge: Leading in a Tough Economy--given to 
Tyco Safety Products.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    I have never testified before Congress.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I am a seasoned business executive with extensive global leadership 
experience. I have successfully negotiated business ventures, 
acquisitions and divestitures, and strategic alliances with leaders in 
industry and with senior members of foreign governments in some 87 
countries for more than 30 years.
    I have lived in Asia twice, Latin America, and Europe twice. I have 
developed successful new businesses in every country in western Europe 
and eastern Europe (before the demise of Communism); the Russian and 
Georgian republics of the former Soviet Union; the Middle East; post-
Apartheid South Africa; and Brazil, Mexico, Hong Kong, Japan, 
Singapore, Taiwan, and Thailand.
    I believe this global leadership experience allows me to bring a 
unique perspective to the role of Deputy Secretary. I have the personal 
attributes and qualities to lead in a fast-changing global economic 
setting; to develop and execute aggressive strategies; to lead 
successful implementation; and to develop the next generation of career 
leaders who provide the on-going continuity as Administrations come and 
go.
    It would be a distinct privilege at this moment in history to add 
value to the economic agenda of the President. Everything I have done 
over the past 47 years has prepared me for this role. I consider it an 
honor to serve. I began my adult life in service to my country as a 
military officer, and I can think of no better way to culminate my 
life's work than to serve once more in a senior capacity that would 
assist our Nation in regaining and sustaining its global leadership.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Proper management and accounting controls are critical. I believe 
my principal roles will be to elevate the operating capabilities of the 
various agencies of the department to deliver increased efficiency, 
motivate the talented human resources within the department to operate 
within a spirit of total transparency, and ensure that operating 
performance meets or exceeds agreed upon measurable outcomes.
    I have led and profitably grown multi-billion dollar global 
consumer products and technology-based businesses with operations in 
over 50 countries. Activities have encompassed strategic planning and 
execution, creating innovative products and services, marketing and 
promotion, manufacturing, trademark licensing, vertical integration, 
high-technology, publishing--and perhaps, most importantly, motivating 
people to reach beyond their grasps.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        1. Motivating agency heads and staff to think boldly, and to 
        plan and execute programs aggressively in the new global 
        economic environment in which we find ourselves.

        2. Building credibility with the global business community. We 
        must reestablish the primacy of the United States as the global 
        leader in terms of innovation, creativity and excellence across 
        the broad economic spectrum.

        3. Ensuring that the Department of commerce serves its purpose 
        as a vital component toward the restoration of the economy. The 
        Department should set the pace for global change in the 
        commercial arena.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Presently, I receive compensation as follows:

    Boards

        Accenture: an annual cash retainer and annual restricted stock 
        units that vest 1 year following the annual grant.

        Brown Capital Management Company: annual cash retainer paid 
        semi-annually.

        Casey Family Programs: annual trustee fee paid monthly in cash.

        Domino's Pizza, Inc.: annual cash retainer, committee and 
        meeting fees and annual nonqualified stock options that vest 1 
        year after the award.
    Speaking Engagements

        From time to time, I speak at business management conferences 
        and lecture at business schools in the United States and 
        Europe--for a fee or honorarium.

    Retirement plan

        I receive a key man pension and a defined benefit plan pension 
        from the Walt Disney Company. The benefits under this pension 
        are shared equally with my former spouse pursuant to a divorce 
        decree dated 19 July 2007.

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Department of Commerce's designated agency ethics official to 
identify potential conflicts of interest. Any potential conflicts of 
interest will be resolved in accordance with the terms of an ethics 
agreement that I have entered into with the Department's designated 
agency ethics official and that has been provided to this Committee. 
This agreement has been reviewed by the Office of Government Ethics. I 
am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
Administration and execution of law or public policy.
    I have not personally engaged in any such activity. Casey Family 
Programs, of which I am a board member, provides expert testimony and 
white papers to Congress on children and foster care. Additionally, I 
serve on boards of corporations that engage in lobbying and legislative 
outreach, but board members do not directly engage in such activities.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Department of Commerce's designated agency ethics official to 
identify potential conflicts of interest. This agreement has been 
reviewed by the Office of Government Ethics. Any potential conflicts of 
interest will be resolved in accordance with the terms of an ethics 
agreement that I have entered into with the Department's designated 
agency ethics official and that has been provided to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I was sued in 2002 because of a delinquent personal loan. The loan 
was paid in full soon thereafter and the case was dismissed with 
prejudice. Cardinal Holdings Ltd. v. Hightower, Case No. 1:02cv1866 
(D.D.C.)
    In September 2006, my wife at the time filed for divorce and a 
settlement decree was signed hi July 2007.
    In addition, in my capacity as an independent director of Northwest 
Airlines, Panamsat Corporation, and the Gillette Company, I have been 
listed as a defendant in cases but have not participated in them in any 
way. Based on a public records search of cases, these include: Cress v. 
Wilson, 06 Civ. 2717 (S.D.N.Y.); Hastings v. Wilson, Civ. No. 05-2566 
(D. Minn.); Karpuik v. Wilson (D. Minn.); Peter Schoenfeld Asset Mgmt. 
LLC v. Shaw, No. 20087NC (Del. Ct. of Chancery ); Berkowvits v. Kilts, 
et al., No. 1087-N (Del. Ct. of Chancery); Kohn v. Kilts, et al., No. 
1092-N (Del. Ct. of Chancery ); and Freedman v. Kilts, et al., No. 
1130-N (Del. Ct. of Chancery ).
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                     resume of dennis f. hightower
    Dennis F. Hightower is a seasoned business executive with extensive 
global general management experience. His distinguished career spans 
the private and public sectors, including more than 30 years of 
experience in global marketing, strategic planning, operations and 
international general management.
    Most recently, Mr. Hightower was Chief Executive Officer of Europe 
Online Networks S.A., a privately held broadband interactive 
entertainment company based in Luxembourg. From 1987 to 1996, Mr. 
Hightower was a Senior Executive of The Walt Disney Company, where he 
led multi-billion dollar enterprises as President of Walt Disney 
Television & Telecommunications and President of Consumer Products, 
Europe/Middle East and Africa.
    Hightower has made a continuing commitment to training future 
business leaders as a former Professor of Management at Harvard 
Business School, where he focused on leadership, building emerging 
markets and global general management. He has also been a guest 
lecturer at business schools throughout the world including IMD in 
Switzerland, INSEAD in France and the London Business School; and at 
the U.S. Military Academy (Bicentennial) and the USMA Preparatory 
School.
    Hightower most recently served on the Boards of Directors of 
Accenture, Domino's Pizza, Lightfleet (a start-up high technology 
company), and privately-held Brown Capital Management. He has formerly 
served as a board member of The Gillette Company, Northwest Airlines, 
PanAmSat Corporation, Phillip-Van Heusen Corporation, The TJX 
Companies, Inc., and as a member of the Price Waterhouse Chairman's 
Advisory Council.
    Previously, Mr. Hightower has demonstrated a willingness to serve 
his country as a decorated Vietnam veteran and as a member of the 
Defense Business Board. Hightower was a Regular Army officer for 8 
years, rising to the rank of Major by age 27. While on active duty he 
was awarded numerous decorations for meritorious achievement and valor.
    Mr. Hightower holds an M.B.A. degree from the Harvard Business 
School and a B.S. degree and honorary doctorate from Howard University. 
He received the Alumni Achievement Award in Business from Howard 
University in 1986, the Alumni Achievement Award from Harvard Business 
School in 1992, and the U.S. Department of Commerce Pioneer Award in 
1996.

    Senator Pryor. Thank you, Mr. Hightower. Thank you for your 
statement.
    I know that Secretary Locke shares your concern about our 
innovation, our creativity, our excellence. I would probably 
add to that our technology commitment. I know in the Senate we 
have tried to focus on things like science parks, innovation 
prizes, nanotechnology research, the technology innovation 
program.
    What are your plans to try to get more innovation, more 
creativity, more excellence out there around the country?
    Mr. Hightower. I think part of the answer to that, Senator, 
is, one, having a deeper understanding than I do today of what 
actually goes on specifically within the Department. Again, 
assuming I am confirmed, then that would be one of the first 
tasks, to begin to thoroughly understand the mission and what 
commonality, what threads run through the operations of the 
Department of Commerce to ultimately get to the mission of 
serving the American business and the economic platform better.
    As my experience would suggest, it does all start with 
leadership because, at the end of the day, what we are talking 
about is how do you get people motivated and inspired to do 
their best. So to the extent to which we have the best people 
in place to run those agencies, that we can come up with a 
unified mission, one that everyone can rally around, I think 
that is the starting point to begin to attempt to both 
understand, put together the correct agenda, and most 
importantly, execute that agenda with the metrics that tell us 
whether we have achieved those noble objectives.
    Senator Pryor. Earlier this year, the Congress set up the 
Broadband Technology Opportunities Program, also called BTOP. 
The idea there is to get broadband in places where it is not 
currently today. I think that a very important piece of this 
puzzle for innovation and investing in the future economy and 
the changing economy of this country is to try to make 
broadband more available to more people and more communities.
    Do you have any comment on that?
    Mr. Hightower. Yes, in fact, I do. My comments are twofold.
    One, I have run such a company in Luxembourg, a satellite 
company that delivered 2-3 megabit streams into personal 
computers with television quality, all interactive. I served 
for 7 years on the board of Pan Am Sat Corporation, who at the 
time had the largest number of birds in the air, about 23 
satellites. And I understand the issues around repointing and 
repositioning to be able to provide coverage.
    And I will certainly get into this more deeply, if 
confirmed, and that is, it becomes more of an issue of how one 
allocates, because we look at the terrestrial platforms that 
many of these satellites bounce off of. It is to me a question 
of: how do we equitably allocate so that rural communities have 
the same access and opportunity as the more developed urban 
centers? So I certainly appreciate the importance and the 
urgency, and I have had some direct experience in trying to do 
that.
    Senator Pryor. Senator Hutchison?
    Senator Hutchison. Thank you, Mr. Chairman.
    I would like to ask you, just as I asked Secretary Locke, 
when he came before the Committee, about opening access for 
American businesses in foreign countries to help our jobs and 
markets. What would be your approach to that issue and how 
could we do even more than we are doing now to open markets for 
the United States' businesses?
    Mr. Hightower. I think, Senator Hutchison, again I would 
refer to and rely on experience having done that over the last 
25 years, particularly in Eastern Europe and the Soviet Union, 
the Middle East, and Europe and also Asia.
    First and foremost is the notion of enforcing the 
agreements that are in effect. We have a number of trade 
agreements where one could question the diligence by which we 
ensure that our companies who make that investment, who are 
trying to create opportunities for the global market are not 
always supported because of the relative lack of enforcement. 
So I think enforcement becomes a very key issue in order to set 
the framework, the proper framework, in order to do that.
    Second, I think that we have got to look at some sort of 
partnership with small companies and large companies. The large 
companies became large because of a certain set of economic 
conditions which may not exist today that existed perhaps 30 or 
40 years ago. So my experience has been that the extent to 
which we can provide strategic alliances where we have the 
larger companies providing certain capacity capability to 
recognize the skills and talents of the smaller companies, the 
``lift as you climb'' approach, then we have the ability to 
close what I call the aspiration gap. There are companies of 
small size who have capacity and capability but who often do 
not have the opportunity to leverage that. Larger companies who 
are globally-based have that capacity and ability.
    So I think, to the extent that we can provide some sort of 
linkage on the ground to allow this issue of what is my 
aspiration as a small company versus what is my current 
capability and how do we close that gap--I think to the extent 
that we can provide those kinds of strategic alliances and 
linkages as the larger companies begin to continue their 
expansion around the world, that again provides the next 
generation of economic opportunity for those companies here in 
the U.S.
    Senator Hutchison. I think that is a very good point, and I 
hope you do pursue that with the Secretary.
    Let me ask you if there are particular parts of the world 
that you think are important for us to have better trade 
relationships and investment opportunities with that you would 
suggest to the Secretary that the Commerce Department focus on.
    Mr. Hightower. My recent experience suggests that it all 
focuses on Asia. If I believe most of the projections that I 
have read and have been a part of providing data for, in the 
next 25 years, over 60 percent of all consumer spending is 
going to occur between China and India. So to the extent that 
we understand that China, with roughly 25 to 26 percent of our 
current debt, has to be more of a spender as opposed to an 
investor, I think this will go a long way. So I think the 
emphasis and the effort directed in that regard will have 
handsome payoff to the extent that we have a focused strategy.
    India likewise, because of their commitment to technology 
and excellence. Because as I have been in India and you look at 
what is happening there in Bangalore, as I mentioned, these 
young people are not coming to the United States anymore to 
study as their fathers might have done at MIT, Cal Tech, 
Rennselaer, and some of the other premier science and 
engineering schools. They are being educated by the Indian 
institutes of technology. So they are reinvesting in their own 
people in those countries.
    When you look at the sale of Jaguar and Range Rover to 
Tata, Tata now will become one of the largest automotive 
manufacturers in the world. So we are obliged to deal not only 
with Tata, we are obliged to deal with India because of the 
resources that the Indian economy is putting behind because 
they want a certain level of economic excellence and economic 
primacy as well. So unless we begin to understand how those two 
countries function, how they think about global economic 
development, we are going to have an issue that is not going to 
have the outcome that we want.
    So I would say one of my early priorities certainly upon 
confirmation would be to look at, one, the trade issues and, 
two, how do we then use the leverage of the classic innovation 
and some of the new technology that we have and can bring to 
bear to change the dynamic that currently exists with those 
countries in particular.
    Senator Hutchison. Mr. Chairman, I know my time is up, and 
the nominee's answers are very good. I would just make one 
point and that is I hope you will also look at Central and 
South America as a way to use trade and investment 
opportunities to help shore up democracies and stability in our 
own hemisphere.
    Mr. Hightower. If I could just add to that, I think Brazil 
represents certainly that challenge. I remember when I was 
running businesses in Brazil back in 1979, 1980, and 1981 based 
in Mexico, the old cruzeiro was adding three zeroes every 
month. We were in 3,000 percent inflation, and I was managing 
businesses for Jack Welch at GE and Jack did not care whether 
the three zeroes were being added. He wanted the results.
    So those countries now have attained a level of stability 
and economic prowess that we cannot ignore, and I agree with 
you certainly that these are the kinds of issues that we are 
going to have to face in Latin America.
    Senator Hutchison. Thank you very much.
    Senator Pryor. Thank you.
    Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Hightower, for 
your willingness to serve and also congratulations for you and 
your fiancee.
    Mr. Hightower. Thank you.
    Senator Begich. Also, to the other nominees, I will not be 
able to stay, but I look forward to having you all three 
confirmed. I think you bring incredible experience and ideas to 
the Commerce Department and the CPSC.
    But just to be parochial for a moment, as a Senator from 
Alaska, I like to remind, as I did Secretary Locke, how the 
Commerce Department--half your budget is NOAA. Half of NOAA is 
Alaska.
    [Laughter.]
    Senator Begich. Not that I want to be parochial.
    Mr. Hightower. I understand, sir.
    [Laughter.]
    Senator Begich. I want to make sure, as I tell folks, that 
the Commerce Secretary and Deputy Secretary are really going to 
be fishermen.
    So I appreciate all your international trade conversation 
because I think that is important, but for Alaska's perspective 
and actually for the country, when you look at the fishing 
industry, which has about 58,000 people employed, we provide 62 
percent of all the natural-caught fish in the country, which is 
international in its business. If you go to McDonald's and get 
a fish sandwich, probably 95 percent of that product is coming 
from Alaska. But because of the international trade issues, we 
also have strong interests in the markets specific of the 
Pacific Rim because of fishing.
    So can you give me just a little comment--and I am going to 
go back to some of your others with regard to technology, 
especially in rural communities--but first on the fishing 
industry or what knowledge--and you can acknowledge if you do 
not have as much. That is fine. I am going to then also invite 
you to Alaska, as I do to every Commerce person. Fishing is 
good now too.
    [Laughter.]
    Senator Begich. But let me ask you, can you give me some 
thoughts on how you see that industry and maybe your role as 
the Deputy Secretary in regard to the fishing industry not only 
from a national perspective, but international?
    Mr. Hightower. I think, one, it is fair to say that I have 
not been briefed on that issue. I can say that as a scuba diver 
of 30 years, that I do appreciate fish because that is one of 
the reasons why you dive, to see the wonderful fish.
    But I do understand the importance of the issue, and I 
think as the Secretary and I begin to define how we will work 
together and the priorities, it is very clear, having spoken 
with Secretary Locke, that fishing, fisheries and fishery 
management are very high on the agenda and the extent to which 
I will have a direct role with NOAA and some of the related 
agencies, you can be assured that we will be collaborative and 
work with you on those issues because we do understand the 
importance of them.
    Senator Begich. Excellent. I would be interested in, 
depending on how that role defines, if you are engaged in the 
fishing industry, we would love to, I am sure--I know 
Washington State--if Maria was here--Senator Cantwell and 
Senator Snowe were here, we would probably want to get you 
around to the different industries because they are very unique 
and they are very American. They produce jobs here and there is 
huge opportunity for value added.
    Let me expand a little bit on your telecommunications in 
rural Alaska. As I like to describe here, we consider it 
extreme rural, because some areas you literally cannot drive 
to. So telecommunications, rural communications is critical for 
not only life safety but also for commerce. Can you expand a 
little bit? I heard you say a little bit about how to get to or 
how to expand into rural communities. Can you give me a little 
more meat on that? I would love to hear some.
    Mr. Hightower. Yes. I think part of the issue--I, again, 
experienced this firsthand as a board member of PanAmSat where 
if the issue had to do with defense and some of the other 
esoteric bands that were bounced off of those satellites, there 
was never an issue of repointing. When it came to other issues, 
they sort of fell by the wayside. I think having experienced 
the frustration of other users or other potential users not 
being able to have the repointing to allow the kind of coverage 
that you just described, I think that gives me a sensitivity, a 
level of understanding which I think I should be able to bring 
to bear in terms of how we then set priorities of what birds 
are in the air, whether it is Intelsat or some of the other 
providers now. And I think that is a collaborative effort 
because we understand the importance of defense and how those 
programs oftentimes take priority because I also sit on the 
Defense Business Board, so I do have an understanding of how 
that works and why it is necessary. But there are also other 
factors, as you described, that are equally as important, and 
we have got to figure out what a practical solution to those 
expanded opportunities are.
    Senator Begich. Excellent. Again, for the same reason, I 
think we have some unique opportunities up there because of 
military as well as Commerce----
    Mr. Hightower. Exactly.
    Senator Begich.--the combination of the two and the rural 
aspect and how we use it for telemedicine and a variety of 
other life safety kind of issues. So we will look forward to 
that.
    I will end on this last question, because my time has 
expired. In trade agreements, if you could name just the top 
three things that you think are important in trade agreements 
from our perspective, what would those be? And I will end there 
and let you just----
    Mr. Hightower. Top three in terms of content or top three 
in terms of how we approach dealing with----
    Senator Begich. How we approach dealing.
    Mr. Hightower. I think we have got to approach the core 
elements of trade agreements on what is best for America. We 
have got to start from a certain premise that says: these are 
the areas that are peculiarly and uniquely important to us and 
we have got to then be willing to stand up and have the courage 
of conviction to fight for what we want. In the absence of 
that, we will find what has already happened in some of the 
Asian countries where the government has taken a role, a more 
aggressive role and has redirected resources to create an 
unfair playing field, one where company margins, if you look at 
the balance sheet, are unrealistically low. Investment 
incentives are unrealistically high. And we are trying to do it 
``the right way,'' and in so doing, we often become a second 
class citizen in that process because we are playing with one 
arm tied behind our backs.
    So I think to me, fundamentally, we have got to understand 
why we are there, what leverage we bring to bear, use some of 
the leverage financially, and other relationships. It requires 
partnerships also. Sometimes we have to call on our other 
partners who have supported us in other areas, other countries 
around the world to say, look, this is really how we have to 
deal with an emerging issue that is an unfair setting and 
correct that.
    Senator Begich. Very good. Thank you very much. Thank you 
for your time and I wish you the best.
    Mr. Hightower. Thank you, sir. Thank you very much.
    Senator Pryor. Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    Mr. Hightower, congratulations. Welcome to the Committee.
    Mr. Hightower. Thank you very much.
    Senator Thune. I also want to welcome the nominees this 
morning for the CPSC and particularly recognize a classmate of 
mine from the House of Representatives, Anne Northrup, and her 
husband, Woody. I can say, having served for a number of years 
with her in the House, there is not anybody who cares more 
about the people that she represents or works harder on behalf 
of the people that she represented when she was a Member of the 
House of Representatives. Not only does she bring great talent 
to this position, but also great passion and a powerful work 
ethic that I think are going to reflect extremely well on the 
CPSC and on the Administration. So, a great selection by the 
President. And I want to welcome Anne and wish you well.
    Mr. Hightower, Senator Begich has talked about the extreme 
rural in Alaska. I guess South Dakota would be near extreme.
    [Laughter.]
    Senator Thune. We are probably not real extreme. But I am 
interested in some of the same issues that he mentioned. One in 
particular is the Broadband Technology Opportunity Program. My 
understanding is the first round of awards is not going to come 
until October, perhaps even later. I would just pose the 
question that given the primary thrust of the stimulus was job 
creation, can anything be done to speed up the timing of some 
of those awards?
    Mr. Hightower. Again, Senator, until confirmation does 
occur, it certainly is not appropriate for me to dig deeply in 
that, but I do have, obviously, a point of view about that, 
which would suggest that the sooner we can do it, the better. 
And the way in which we define sort of the allocation metric is 
going to be an important determinant to ensure that the funds 
do get out to rural communities as expeditiously as possible 
within the context of the policy that I understand is in the 
process of being developed.
    So if I were confirmed to be in that role as the Deputy 
Secretary, it is clear that that will be one of the top 
priorities because that is a clear issue that I know the 
Secretary has already made a commitment to, and as sort of the 
chief operating officer, if you will, of the Department, 
clearly that is going to be on my list.
    Senator Thune. Well, I look forward to working with you on 
that. As I said, part of this is timing and getting as much 
accelerated as we can to get the optimum value of the job 
creation potential that exists with that program.
    What do you see--sort of looking in the crystal ball--as 
perhaps the greatest long-term threat to our economy right now, 
as you project out into the future?
    Mr. Hightower. I think the threat posed has two elements to 
it, at least. The external threat, I believe, is the one that I 
began to describe earlier and that is countries beginning to 
see themselves as on par with us in terms of innovation and 
creativity and creating that entrepreneurial base that drives 
future development and the willingness of countries to change 
and re-allocate their resources much as Japan, Inc. did in the 
electronics industry in the 1960s.
    The second threat I believe is an internal one of malaise. 
To the extent that jobs do not get created, to the extent that 
companies do not recover, then we find ourselves being sort of 
hit by a double whammy. And there is a morale issue that says 
how do you then reconstitute and recreate that manufacturing 
base. How do you deal with outsourcing versus development from 
within? So I think the extent to which we can get our arms and 
our minds around the severity of not doing the right thing to 
get these jobs created, that is perhaps a greater threat than 
even the external.
    Senator Thune. Let me just ask one question with regard to 
an issue that I think is on everybody's mind these days, and 
that is the fiscal situation that we find ourselves in as a 
nation, trillion dollar deficits projected out as far as the 
eye can see.
    The Department of Commerce has 37,000 employees and a $13 
billion budget. I guess I am interested in what your thoughts 
are in terms of, as you take over the day-to-day management of 
that, improving the operations of the management of the 
Department in a way that would save tax dollars and hopefully 
get the Department operating in a way that is less costly and 
maybe help us tackle, at least to some extent, the deficit 
issue that is, I think, really going to plague us in the future 
if we do not get our arms around it.
    Mr. Hightower. I think it would fall into what I would 
consider sort of a classic taking over a new business approach 
where my role, I think, would be to go in and understand sort 
of the race--you know, what is going on right now and 
understanding not only the mission, you know, the things that 
are the key objectives that are currently underway and what the 
outcomes are going to be and the cost of those outcomes, and 
then performing a fairly sophisticated, what we would call an 
overhead value analysis to say are the things that we have set 
about doing the right things and are we putting the right sorts 
of resources behind.
    I would say it would be more of a surgical approach where 
there are elements of those 11 agencies who may need more 
resources, but the tradeoff will be who would then take less 
resources, understanding that the pie is fairly fixed, that 
there is a finite amount that we are going to be working with. 
This is an approach I have taken in every business that I have 
run over the last 25 years. I think I understand how to do 
that, and the key will be making sure I understand where we are 
now in order to know what is the correct, right-sizing because 
is what we are really talking about. And that always has an 
economic fallout, which is we are being more efficient, more 
productive using the taxpayers' dollars in a much more 
efficient manner.
    Senator Thune. Well, I can say I think we look forward to 
working with you on that subject as well.
    Mr. Hightower. Likewise.
    Senator Thune. Mr. Chairman, we have, as you know, many 
important issues in this Committee, such as FAA 
reauthorization, a new multiyear highway bill, issues dealing 
with broadband stimulus funding, as I mentioned earlier, and 
CPSC. There are many important issues to work with you on. So 
we look forward to that.
    Mr. Hightower. I am looking forward as well, upon 
confirmation.
    Senator Thune. Thank you for your willingness to serve.
    I see my time has expired. Thank you, Mr. Chairman.
    Senator Pryor. Thank you, Senator Thune.
    I want to thank you, Mr. Hightower, for being here today. 
Senator Hutchison and I do not have any other questions, but we 
want to thank you for being here today and thank you for your 
participation and all your preparation.
    Mr. Hightower. Thank you very much.
    Senator Hutchison. Thank you very much. You did a very nice 
job.
    Mr. Hightower. Thank you. Mike Montelongo sends his regard 
as well.
    Senator Hutchison. Oh, good. Thank you very much.
    Mr. Hightower. An old friend.
    Senator Hutchison. Yes. He is very good as well. Thank you.
    Mr. Hightower. Thank you very much, Senator. Thank you, 
sir.
    Senator Pryor. Thank you.
    We are going to bring up our second panel now, which is 
Robert Adler and Anne Northup. If you all could swap out the 
seats there. What I would like to do is recognize Mr. Adler 
first for his 5-minute opening and then recognize Ms. Northup 
for hers. So as soon as we get situated, we will be underway.
    Again, welcome, both of you, to the Committee. Mr. Adler, 
if you could go ahead and start.

  STATEMENT OF ROBERT S. ADLER, COMMISSIONER-DESIGNATE, U.S. 
               CONSUMER PRODUCT SAFETY COMMISSION

    Mr. Adler. Thank you very much, Senator Pryor. Good 
morning, Senator Pryor, Ranking Member Hutchison, and members 
of the Senate Commerce, Science, and Transportation Committee.
    I am extremely honored to have been nominated by President 
Obama to serve as a Commissioner at the U.S. Consumer Product 
Safety Commission, an agency that I have been involved with, 
one way or another, for the past 36 years. If confirmed, I look 
forward to working with newly appointed Chairman Inez Tenenbaum 
and the other CPSC Commissioners and I hope soon-to-be 
Commissioner, Anne Northup, to promote product safety for 
American consumers in a vigorous and responsible fashion.
    At this point, I would like to introduce my wife, Terrie 
Gale, and my son, Paul Adler. Terrie has just stepped down 
after 17 years as the Attorney for the police department in 
Chapel Hill, North Carolina, and if you were wondering who 
dealt with the 50,000 screaming fans after we won the NCAA 
championship, you are looking at her. This January, Terrie and 
I will celebrate 35 years of marriage, and I want to thank her 
for her love, support, and friendship over these years.
    My son, Paul, is a third-year graduate student on his way 
to a Ph.D. in modern American history at Georgetown University. 
What amazes me about my son is that as a result of his studies, 
he now knows more about the 1960s and the 1970s than I do, and 
I lived through them.
    Mr. Chairman and Members of the Committee, as I reflect on 
my life and career, I like to think of it as one dedicated to 
public service, which I hope to continue at the CPSC. Going 
back some 40 years, I was one of those early eager volunteers 
in the War on Poverty. In that case, I went to work in a legal 
services program in Pittsburgh where I specialized in consumer 
law reform litigation, which sparked a lifelong commitment on 
my part to promoting and protecting consumer rights.
    Following this job, I served as a Deputy Attorney General 
for the Pennsylvania Justice Department, heading a regional 
office of consumer protection. At the Bureau of Consumer 
Protection, among other things, I fought to stop pyramid sales 
schemes, bad collection practices, odometer rollbacks, and a 
whole variety of business fraud.
    While I was in Pittsburgh, I helped organize a local 
consumer group headed by a professor of electrical engineering 
at Carnegie-Mellon University named David Pittle. And David is 
actually in the audience somewhere. One day out of the blue, 
David informed me that he was soon to be appointed as one of 
the five original Commissioners at the newly established 
Consumer Product Safety Commission. To my delight, he invited 
me to join him as his attorney-adviser, which began my 36-year 
association with the CPSC, which is an agency whose mission I 
strongly cherish and support.
    I actually worked on Commissioner Pittle's staff for 9 
years, and each year that passes confirms for me that he 
represents the very best of what a CPSC Commissioner should be. 
With a Ph.D. in electrical engineering and a solid foundation 
in science, he never fell for rhetorical or simplistic 
solutions. He always insisted on sound facts supported by 
technical excellence when he made decisions. Never once in the 
years I worked for him do I recall him casting a product safety 
vote in a political or partisan manner. Should I be confirmed, 
I hope to operate with the same dedicated, pragmatic, data-
driven, fact-based approach that he did.
    Shortly after this, I joined the Subcommittee on Health and 
the Environment of the House Energy and Commerce Committee 
which was then chaired by Congressman Henry Waxman, and one of 
my major assignments was oversight of the Consumer Product 
Safety Commission. I am sure everyone here knows Congressman 
Waxman's many outstanding accomplishments as a legislator, but 
on a personal note, I want to say he is one of the finest, most 
decent, and gracious bosses I have ever had.
    After my years on the Health Subcommittee, I received and 
accepted an offer to join the faculty at the University of 
North Carolina at Chapel Hill as one of four law professors in 
the business school. After years of late nights spent 
researching, writing, and publishing, I did receive tenure and 
today I am a full professor with the title of Luther Hodges, 
Jr. Scholar in Law and Ethics.
    Mr. Chairman, as I contemplate a return to the CPSC, I am 
well aware that the product safety challenges are not 
necessarily the same as when I left. To pick just one example, 
I note that imported products now present far more serious 
problems than in years past. In fact, as I understand it, 
roughly 85 percent of current CPSC recalls involve imported 
products.
    Nor is the CPSC the same agency that I left. It has gone 
through some very turbulent times over the years and, to my way 
of thinking, regrettably has emerged as a far smaller agency, 
though with the same very large mandate. For example, I note 
that even with the infusion of the new funding in Consumer 
Product Safety Improvement Act, the agency's authorized staff 
level remains more than 40 percent below that of 30 years ago.
    I would like to make one last brief comment about the 
recently enacted CPSIA. I believe that passage of this act 
stands as a monumental achievement in promoting product safety, 
and I want to commend the Congress for enacting it. But I can 
see the challenge of meeting the 40-plus deadlines in the act, 
and I know that has been, and continues to be, an immense and 
daunting challenge. I have little doubt that every staff member 
at the agency will work tirelessly to implement the many 
remaining requirements, and if I am confirmed, I hope to be 
part of that massive effort.
    I certainly look forward to working with all of you and 
your staffs, if I am confirmed. From my perspective, the 
critical element is to maintain a clear, transparent line of 
communication between the agency and the Congress so that both 
sides are confident that American consumers' best interest is 
being served.
    I thank you so much for considering my nomination to be a 
CPSC Commissioner, and if confirmed, I pledge my strongest 
commitment to carrying out my responsibilities in this job. I 
look forward to your questions.
    [The prepared statement and biographical information of Mr. 
Adler follows:]

    Prepared Statement of Robert S. Adler, Commissioner-Designate, 
                U.S. Consumer Product Safety Commission
    Good morning, Mr. Chairman, Ranking Member Hutchison, and members 
of the Senate Commerce, Science, and Transportation Committee.
    I am extremely honored to have been nominated by President Obama to 
serve as a Commissioner at the U.S. Consumer Product Safety Commission 
(CPSC), an agency that I have been involved with in one way or another 
for the past 36 years. If confirmed, I look forward to working with 
newly-appointed Chairman Inez Tenenbaum and the other CPSC 
Commissioners to promote product safety for American consumers in a 
vigorous and responsible fashion.
    I would like to introduce my wife, Terrie Gale, and my son, Paul 
Adler. Terrie has just stepped down after 17 years as the attorney for 
the police department in Chapel Hill, North Carolina. This January, 
Terrie and I will celebrate 35 years of marriage, and I thank her for 
her love, support and friendship over these years.
    My son, Paul, is a third year graduate student on his way to a 
Ph.D. in Modern American History at Georgetown University. What amazes 
me about Paul is that, as a result of his studies, he knows more about 
the 1960s and 1970s than I do--and I lived through them.
    Mr. Chairman and members of the Committee, as I reflect on my life 
and career, I like to think of it as one dedicated to public service--
which I hope to continue at the CPSC. As a young lawyer some 40 years 
ago, I eagerly enlisted in the War on Poverty in a program run by the 
Federal Office of Economic Opportunity as a Reginald Heber Smith 
Community Lawyer, or ``Reggie'' as we were called. In this capacity, I 
worked at a legal services program in Pittsburgh for several years 
specializing in consumer law reform litigation--which sparked a 
lifelong commitment to promoting and protecting consumer rights.
    Following this job, I served as a Deputy Attorney General for the 
Pennsylvania Justice Department heading a regional office of consumer 
protection. At the Bureau of Consumer Protection, among other things, I 
fought to stop pyramid sales schemes, bad collection practices, 
odometer rollbacks, and other varieties of business fraud. Dealing with 
the victims of these abuses only heightened my commitment to 
safeguarding consumers in the marketplace.
    During my years in Pittsburgh, I helped organize a local consumer 
group headed by a Professor of Electrical Engineering at Carnegie-
Mellon University, David Pittle. One day out of the blue, David 
informed me that he was soon to be appointed as one of the five 
original Commissioners at the newly-established Consumer Product Safety 
Commission. To my delight, he invited me to join him as his attorney-
adviser. Thus, began my 36-year association with the Consumer Product 
Safety Commission, an agency whose mission I strongly cherish and 
support.
    I worked on Commissioner Pittle's staff for 9 years, and each year 
that passes confirms for me that David represents the very best of what 
a CPSC Commissioner should be. Given his deep commitment to the 
consumer movement, David always fought to protect and promote consumer 
rights, but he relied on more than sympathy and good intentions. With a 
Ph.D. in electrical engineering and a solid foundation in science, 
David never fell for rhetorical or simplistic solutions. He always 
insisted on sound facts supported by technical excellence when he made 
decisions. Never once in the years I worked for him do I recall him 
casting a product safety vote in a partisan manner. Should I be 
confirmed, I hope to operate with the same dedicated, pragmatic, fact-
based approach that he did.
    After David's departure, I briefly worked for Sam Zagoria, a 
wonderful and witty CPSC Commissioner who left the agency when Ben 
Bradlee, the editor of the Washington Post, asked him to join the paper 
as its Ombudsman. This ended my years working at the CPSC, but did not 
end my involvement with the agency. Shortly after this, I joined the 
Subcommittee on Health and the Environment of the House Energy and 
Commerce Committee chaired by Congressman Henry Waxman, where one of my 
major assignments was oversight of the CPSC. I'm sure everyone here 
knows Congressman Waxman's many outstanding accomplishments as a 
legislator, but on a personal note I want to say that he is one of the 
finest, most decent and gracious bosses I've ever had.
    After several years on the Health Subcommittee, I accepted an offer 
to join the faculty at the University of North Carolina at Chapel Hill 
as one of four law professors in the business school. After several 
years of late nights spent researching, writing and publishing, I 
received tenure, and I am today a full professor with the title of 
Luther Hodges, Jr., Scholar in Law and Ethics.
    In my 20-plus years at Kenan-Flagler, as the business school is now 
known, I have served as Associate Dean heading its undergraduate 
program and later its MBA program. I have taught a variety of 
commercial law courses, the school's mandatory business ethics course, 
and, most recently, a course in negotiation. In addition, for several 
years, I taught a course in business-government relations.
    One of the delights of being a professor for me has been the 
opportunity to reflect on my time at the CPSC and on the Hill working 
on product safety issues. I have written a number of articles on these 
topics, and I think my understanding of the issues has grown as a 
result of my academic research. My commitment to and support for the 
CPSC as a necessary part of protecting consumers in the market has 
certainly deepened over the years.
    As I contemplate a return to the CPSC, I am well aware that the 
product safety challenges are not necessarily the same as when I left. 
To pick just one example, I note that imported products now present far 
more serious problems than in years past. In fact, as I understand it, 
roughly 85 percent of current CPSC recalls involve imported products.
    Nor is the CPSC the same agency that I left. It's gone through some 
turbulent times and regrettably has emerged as a far smaller agency--
though with the same large mandate. In 1981, for example, the CPSC had 
a staff of roughly 900 FTE's. And while I am extremely encouraged by 
the recent hiring of a number of talented new agency staff, I note that 
even with the infusion of new funding in the Consumer Product Safety 
Improvement Act (CPSIA), the agency's authorized staff level remains 
more than 40 percent below that of thirty years ago.
    I would like to make one brief comment about the recently-enacted 
CPSIA. I believe that passage of this Act stands as a monumental 
achievement in promoting product safety, and I can see that the 
challenge of meeting the 40-plus deadlines in the Act has been and 
continues to be immense and daunting. That said, I know that the CPSC 
staff has already met numerous deadlines through their hard work, and I 
have little doubt that every staff member at the agency will work 
tirelessly to implement the many remaining requirements. If I am 
confirmed, I hope to be part of that massive effort.
    I also look forward to working with all of you and your staffs if I 
am confirmed. From my perspective, the critical element is to maintain 
a clear, transparent line of communication between the agency and the 
Congress so that both sides are confident that American consumers' best 
interest is being served.
    I thank you for considering my nomination to be a CPSC 
Commissioner, and, if confirmed, I pledge my strongest commitment to 
carrying out my responsibilities in this job. I am now delighted to 
answer your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Robert Sanford Adler.

        Nickname: Bob.

    2. Position to which nominated: Commissioner, U.S. Consumer Product 
Safety Commission.
    3. Date of Nomination: June 9, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Room 4412 McColl Building, CB# 3490, McColl Building, 
        Kenan-Flagler Business School, University of North Carolina--
        Chapel Hill, Chapel Hill, NC 27599-3490.

    5. Date and Place of Birth: September 27, 1944; Reno, Nevada 
(Washoe County).
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Terrie Jean Gale, Police Attorney, Chapel Hill Police 
        Department, Chapel Hill, North Carolina; children: Paul Kogan 
        Adler (son), Age 27, Graduate student in History, Georgetown 
        University.

    7. List all college and graduate degrees. Provide year and school 
attended.

        J.D., 1969, University of Michigan Law School.

        A.B., 1966, University of Pennsylvania.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        2003-present--Luther Hodges, Jr. Scholar in Law & Ethics 
        (effective 2006), Professor of Legal Studies, Kenan-Flagler 
        Business School.

        2002-2003--Associate Dean, MBA Program, Kenan-Flagler Business 
        School.

        1995-2002--Professor of Legal Studies, Kenan-Flagler Business 
        School.

        1994-1998--Associate Dean, Undergraduate (BSBA) Program, Kenan-
        Flagler Business School, University of North Carolina.

        1987-1995--Associate Professor of Legal Studies, Kenan-Flagler 
        Business School, University of North Carolina (received tenure, 
        1990).

        1985-1987--Counsel to the Subcommittee on Health and the 
        Environment, Committee on Energy and Commerce, U.S. House of 
        Representatives, Washington, D.C.

        1984-1985--Of Counsel, Schmeltzer, Aptaker and Sheppard, 
        Washington, D.C.

        1983-1985--Adjunct Professor, Washington College of Law, 
        American University, Washington, D.C.

        1982-1984--Attorney-advisor to Commissioner Sam Zagoria, U.S. 
        Consumer Product Safety Commission, Washington, D.C.

        1973-1982--Attorney-advisor to Commissioner R. David Piffle, 
        U.S. Consumer Product Safety Commission, Washington, D.C.

        1971-1973--Deputy Attorney General, Director, Southwestern 
        Regional Office, Pennsylvania Bureau of Consumer Protection, 
        Pennsylvania Justice Department, Pittsburgh, PA.

        1969-1971--Director, Consumer Division, Neighborhood Legal 
        Services Association, Pittsburgh, PA.

    I have highlighted above the jobs in which I have had management/
supervisory responsibility (as opposed to strictly academic or 
professional responsibility). Most of the jobs I have held since 1973 
have related in some fashion, either by employment or my scholarship, 
to consumer issues, and specifically to consumer product safety issues.
    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Member, Obama Transition Team and co-author of Report on U.S. 
        Consumer Product Safety Commission, 2008-2009.

        Member, North Carolina Chief Justice's Commission on 
        Professional Responsibility, 2007-2008.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.


------------------------------------------------------------------------
     Name/Location        Position/Nature of Affiliation       Dates
------------------------------------------------------------------------
Bylinski Consulting      Provide negotiation and ethics   From at least
Chapel Hill, NC           training to Navy Advanced Mgt.   2001 to
                          Program at Navy Logistics Base   present; 2-3
                          in Athens, GA                    times a year
                                                           on average
------------------------------------------------------------------------
Institute for Defense    Provide negotiation training to  From 2004 to
 and Business, Chapel     military officials who run       present; once
 Hill, NC                 depots and manufacture arsenal   a year
                          (also, I taught one
                          negotiation course in MBA
                          Program run by IDB)
------------------------------------------------------------------------
Eastman Chemical         Provide two-day negotiation      2003 to
 Company                  training sessions                present; 2-3
Kingsport, TN                                              times a year
------------------------------------------------------------------------
C.B. Fleet, Inc.         Provided a one-day negotiation   January 2008
 Lynchburg, VA            program at company               (one-time
                          headquarters                     event)
------------------------------------------------------------------------
Sherman Associates       Provided a one-day negotiation   January 2007
Minneapolis, MN           program at company               (one-time
                          headquarters                     event)
------------------------------------------------------------------------
N.C. State University    Provided half-day negotiation    Once in 2008
 and Food Systems         program to incoming deans of     and once in
 Leadership Institute,    Schools of Agriculture           2005
 Raleigh, NC
------------------------------------------------------------------------
Hutchison Law Group      Provided one-day negotiation     July 2007 (One-
Raleigh, NC               training course to law firm      time event)
------------------------------------------------------------------------
Wells Fargo Bank         Provided two-day negotiation     From at least
Des Moines, IA            training programs for bank       2001 to 2007
                          officials
------------------------------------------------------------------------
Duke Corporate           Provided evening program on      September 2005
 Education, Thomas        ethics to VNU Corporation for    (One-time
 Center, Durham, NC       Duke Ed Center                   event)
------------------------------------------------------------------------
McDonald's Corporation,  Provided ethics training for     From at least
 Oak Brook, IL            senior company officials         2000 to 2005
------------------------------------------------------------------------
Program on Public Life,  Provided a lecture on ethics to  Once in 2007 &
 Center for the Study     Conference of Southern           once in 2008
 of the American South,   Legislators
 University of North
 Carolina, Chapel Hill,
 NC
------------------------------------------------------------------------
Public Health            Provided negotiation training    2003-2005 (no
 Leadership Institute,    program to public health         work done
 Gillings School of       officials                        since 2005)
 Public Health,
 University of North
 Carolina, Chapel Hill,
 NC
------------------------------------------------------------------------
CMR Institute, Roanoke,  Reviewed a textbook on ethics    Once in 2004
 VA                       in medical device field          and once in
                                                           2007
------------------------------------------------------------------------
American College of      Teach a half-day program on      2005 to
 Obstetricians &          negotiation skills               present; once
 Gynecologists                                             a year
 Leadership Institute,
 NC Institute for
 Public Health,
 Carrboro, NC
------------------------------------------------------------------------
Consumers Union          Member, Board of Directors. CU   1989 to 2009
Yonkers, NY               is the publisher of Consumer     (resigned, 5/
                          Reports.                         2009)
------------------------------------------------------------------------

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Member, Board of Directors of Consumers Union, publisher of 
        Consumer Reports magazine, 1989-05/2009. No membership 
        restrictions.

        Member, North Carolina Bar, 1989-present. No membership 
        restrictions.

        Member, District of Columbia Bar (inactive), 1976-present. No 
        membership restrictions.

        Member, Pennsylvania Bar (inactive), 1969-present. No 
        membership restrictions.

        Member, Academy of Legal Studies in Business, 1987-present. No 
        membership restrictions.

        Member and occasional Chair of various university committees 
        and academic organizations affiliated with University of North 
        Carolina-Chapel Hill. No membership restrictions.

        Member, Chapel Hill Kehillah Synagogue, 2003. Membership 
        limited to Jewish faith or spouse (or partner) of Jewish member 
        of congregation.

        Member, Judea Reform Synagogue, 1989-2003. Membership limited 
        to Jewish faith.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Barack Obama, 2008--$825.00

        John Edwards, 2007-2008--$595.00

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Faculty Appreciation Award for Distinguished MBA Teaching 
        (2005-2009).

        Recipient of Dean's Teaching Bonus (2005-2006) (2006-2007).

        Gerald Barrett Faculty Award (excellence in teaching and 
        service in the UNC Kenan-Flagler MBA Program) 2004.

        Best Article Award, CPR Institute for Dispute Resolution, for 
        article in Harvard Negotiation Law Review [``When David Meets 
        Goliath: Dealing With Power Differentials in Negotiations, 5 
        Harv. Neg. L. Rev. (Summer 2000) pp. 1-112 (co-authored with 
        Elliot Silverstein)].

        President, The University of North Carolina at Chapel Hill, 
        Academy of Distinguished Teaching Scholars, 2003-2007 
        (association of faculty who have won university-wide teaching 
        awards).

        Order of the Grail-Valkyries, 1999 (UNC Student and Faculty 
        Honorary Society).

        Order of the Golden Fleece, 1997 (UNC Student and Faculty 
        Honorary Society).

        Tanner Award for Excellence in Undergraduate Teaching 
        (university-wide teaching award), 1996.

        O'Herron Scholar, (excellence in teaching and research) 1996.

        Elected to Board of Directors, Consumers Union, publishers of 
        Consumer Reports (1989-2009) (resigned 5/2009).

        McColl Award for Teaching, Research and Service Excellence, 
        1994. (UNC Business school award).

        UNC Business School Undergraduate Program Distinguished 
        Teaching Award, 1990.

        Federal Executive Board, Outstanding Achievement, 1973.

        Reginald Heber Smith Fellow, 1969-1971.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

    (a) Refereed Articles:

        ``Mastering the Art of Negotiating With Liars,'' Sloan 
        Management Review, Vol. 48, No. 4 (Summer 2007) pp. 69-74.

        ``Flawed Thinking: Addressing Decision Biases in Negotiation,'' 
        Ohio State Journal on Dispute Resolution, Vol. 20, No. 3 (2005) 
        pp. 683-774.

        ``When David Meets Goliath: Dealing With Power Differentials in 
        Negotiations,'' Harvard Negotiation Law Review, (co-authored 
        with Elliot Silverstein) Vol. 5 (Summer 2000) pp. 1-112.

        ``Here's Smoking At You, Kid: Has Tobacco Product Placement in 
        the Movies Really Stopped?'' University of Montana Law Review, 
        Vol. 60 (2) (Summer 1999) pp. 243-284.

        ``Emotions in Negotiation: How to Handle Fear and Anger,'' (co-
        authored with Ben Rosen and Elliot Silverstein) The Negotiation 
        Journal Vol. 14 (2) (April 1998) pp. 161-179.

        ``The Preemption Pentad: Federal Preemption of Products 
        Liability Claims After Medtronic v. Lohr,'' (co-authored with 
        Rob Leflar) University of Tennessee Law Review Vol. 64 (Spring 
        1997) pp. 691-748.

        ``Encouraging Employers To Abandon Their ``No Comment'' 
        Policies Regarding Job References: A Reform Proposal,'' (co-
        authored with Ellen Peirce) Washington & Lee Law Review, Vol. 
        50, No. 4 (1996) pp. 1381-1469.

        ``Addressing Product Misuse at the Consumer Product Safety 
        Commission: Redesigning People Versus Redesigning Products,'' 
        University of Virginia Journal of Law & Politics Vol. XI, No. 1 
        (Winter 1995) pp. 79-127, reprinted in Charles H. Koch, Jr., 
        Fundamentals of Administrative Practice and Procedure (3rd ed.)

        ``Preemption and Medical Devices: The Courts Run Amok,'' (co-
        authored with Richard Mann) University of Missouri Law Review 
        Vol. 59 (Fall 1994) pp. 895-945.

        ``Good Faith: A New Look At An Old Doctrine,'' (co-authored 
        with Richard A. Mann) Akron Law Review Vol. 28 (Summer 1994) 
        pp. 31-52.

        ``The Last Best Argument for Eliminating Reliance From Express 
        Warranties: `Real World' Consumers Don't Read Warranties,'' U. 
        of So. Carolina Law Review, Vol. 45 (Spring 1994) pp. 429-475.

        ``Avoiding Misuse of New Information Technologies,'' (co-
        authored with Paul Bloom and George Milne) Journal of 
        Marketing, Vol. 58 (January 1994) pp. 98-110.

        ``The Legal, Ethical and Social Implications of the `Reasonable 
        Woman' Standard in Sexual Harassment Cases,'' (co-authored with 
        Ellen Peirce) Fordham Law Review, Vol. 361, No. 4 (March 1993) 
        pp. 773-827, reprinted in Ethics in the Workplace, E. 
        Ottensmeyer and G. McCarthy (1996) pp. 211-235.

        ``Contemporary Ethical Issues in Labor-Management Relations,'' 
        Journal of Business Ethics (co-authored with William Bigoness), 
        Vol. 11 (1992) pp. 351-360.

        ``Cooperative Learning Groups in Undergraduate and Graduate 
        Contexts: Different Strokes for Different Folks,'' Journal of 
        Legal Studies Education (co-authored with Ed Neal), Vol. 9, No. 
        3, (Fall 1991) pp. 427-435.

        ``Stalking the Rogue Physician: An Analysis of the Health Care 
        Quality Improvement Act,'' American Business Law Journal, Vol. 
        28, No. 4, (1991) pp. 683-741.

        ``Shaping Up Federal Agencies: A Basic Training Program for 
        Regulators,'' The University of Virginia Journal of Law & 
        Politics, Vol. VI, No. 2 (co-authored with Stephen Klitzman & 
        Richard Mann) (1990) pp. 343-371.

        ``From `Model Agency' to Basket Case: Can the Consumer Product 
        Safety Commission Be Redeemed?'' Administrative Law Review, 
        Vol. 41, (1989) pp. 61-129.

        ``The 1976 Medical Device Amendments: A Step in the Right 
        Direction Needs Another Step in the Right Direction,'' Food 
        Drug Cosmetic Law Journal, Vol. 43, No. 3. pages 511-532 
        (1988). Revised and updated as ``Legislation Needed to Improve 
        the Medical Devices Law'' in The Medical Device Industry: 
        Science, Technology, and Regulation in a Competitive 
        Environment, pp. 531-549 (1990).

        ``Product Recalls: A Remedy in Need of Repair,'' Case Western 
        Law Review, Vol. 34, No. 4 (co-authored with Teresa M. 
        Schwartz) (1983-84) pp. 401-464.

        ``Cajolery or Command: Are Education Campaigns an Adequate 
        Substitute for Regulation?'' Yale Journal on Regulation, Vol. 
        1, No. 2 (1984) (co-authored with R. David Pittle) pp. 159-193.

        ``Commentary on Product Liability: An Interaction of Law and 
        Technology,'' Duquesne Law Review, Vol. 12 (1974) (co-authored 
        with R. David Pittle) pp. 487-495.

    (b) Chapters in Books:

        ``Product Safety: The Consumer Product Safety Commission,'' in 
        Changing America: Blueprints for the New Administration (co-
        authored with R. David Pittle) pp. 540-553 (1993).

        ``A Framework for Identifying the Legal and Political Risks of 
        Using New Information Technologies to Support Marketing 
        Programs,'' (co-authored with Paul N. Bloom & George Milne), 
        Monograph for Marketing Science Institute, Report No. 92-102, 
        February 1992, reprinted as ``Identifying the Legal and Ethical 
        Risks and Costs of Using New Information Technologies To 
        Support Marketing Programs,'' in The Marketing Information 
        Revolution, Harvard Business School Press, 1994, pp. 289-305 
        (1994).

        ``Psycholegal Aspects of Organizational Behavior: Assessing and 
        Controlling Risk'' in Handbook of Psychology and Law, eds. 
        Dorothy K. Kagehiro & William S. Laufer, pp. 523-541 (co-
        authored with Alan J. Tomkins & Bart Victor)(1992).

        ``Product Safety: the Consumer Product Safety Commission'' in 
        America's Transition: Blueprints for the 1990s, (co-authored 
        with R. David Piffle) 268-86 (1989).

    (c) Professional Publications:

        ``Thrust and Parry: The Art of Tough Negotiating,'' (co-
        authored with Ben Rosen and Elliot Silverstein) Training & 
        Development, Vol. 50, No. 3 (March 1996) 42-48.

        ``New Leadership at the Consumer Product Safety Commission: 
        Will It Make A Difference?'' TRIAL, Vol. 30, No. 11 (November 
        1994) 63-67.

        ``The CPSC at 20 Is Still Immature,'' TRIAL, Vol. 28, No. 11 
        (November 1992) pp. 30-34.

        ``New CPSC Act: A Disappointment,'' TRIAL, Vol. 27, No. 11 
        (November, 1991) pp. 18-25.

        ``Manufacturers Blind CPSC to Product Hazards,'' TRIAL, Vol. 
        26, No. 10 (October, 1990) pp. 20-24.

        ``Toy Safety: No Kidding Around,'' TRIAL, Vol. 25, No. 11, 
        pages 44-47 (1989).

        ``Of Ketchup, Ozone, and Airline Delays: A Regulatory Legacy,'' 
        Legal Times (April 11, 1988) pp. 18-20; reprinted as 
        ``Rethinking Reagan's Deregulation Drive,'' Miami Legal Review 
        (May 2, 1988) pp. 9-10; and reprinted as ``Reagan's 
        Deregulation Efforts Have Done More Harm Than Good,'' Manhattan 
        Lawyer, (April 19-25, 1988) pp. 30-31.

        ``Will CPSC Halt U.S. Export of Hazardous Items? Legal Times 
        (April 16, 1984) pp. 113. ``Does CPSC's Past Bode Ill for 
        Future of Regulatory Negotiations?'' Legal Times (June 20, 
        1983)(co-authored with R. David Pittle) pp.10-11.

    (d) Book Reviews:

        ``Innovation, Safety, and Costs: A Delicate Balance,'' Review 
        of Managing the Medical Arms Race: Innovation and Public Policy 
        in the Medical Device Industry, (University of California 
        Press) in Health Affairs, Vol. 12, No. 3 (Fall 1993) pp. 271-
        273.

        Review of The Product Liability Handbook: Prevention, Risk, 
        Consequence and Forensics of Product Failure, ed. Sam Brown 
        (Van Nostrand Reinhold 1991), Products Liability Law Journal, 
        Volume 3, No. 3 (May 1992) pp. 212-218.

        Review of R. Mayer, The Consumer Movement: Guardians of the 
        Marketplace (Twayne 1989) and D. Vogel, Fluctuating Fortunes: 
        The Political Power of Business (Basic Books 1989), Journal of 
        Consumer Policy, Volume 14 (1991) pp. 243-248.
    (e) Other Publications:

        ``Time to Strengthen Consumer Protection,'' Christian Science 
        Monitor (May 8, 1989)(coauthored with R. David Pittle) p. 18.

        Lawsuits Without Lawyers, monograph on lawsuits in small claims 
        courts (1973) (coauthored with Carol Knutson, Larry Slesinger, 
        and David Worstell) pp. 1-49.

    (f) Speeches and Presentations:

        ``Consumer Product Safety Commission: Reflections from the 
        Obama Transition Team'' to Conference of International Consumer 
        Product Health and Safety Officials (ICPHSO), Orlando, Florida 
        (February 25, 2009).

        ``One Million ATV Injuries Later. . . . Will the End of the 
        Consent Decree Bring More Consumer Litigation? The Government 
        Perspective'' Nationwide Teleconference by Telephone, December 
        2 and December 4, 1998.

        ``A Strategic Plan for ICPHSO,'' at conference of International 
        Consumer Product Health and Safety Officials, Orlando, Florida 
        (February 26-27, 1998).

        ``The Future of Product Safety and Product Liability,'' at 
        conference of International Consumer Product Health and Safety 
        Officials, Key West, Florida (February 28, 1997).

        ``Product Safety versus Product Liability,'' at conference of 
        International Consumer of Consumer Product Health and Safety 
        Officials (February 29, 1996).

        ``Remarks on CPSC Long-Range Plan,'' testimony before Chairman 
        and Commissioners of the U.S. Consumer Product Safety 
        Commission, Washington, D.C. (June 18, 1992).

        ``Regulation, Deregulation, and Reregulation,'' presented at 
        American Business Law Association Conference (August 17, 1990), 
        Toronto, Canada (jointly presented with Richard A. Mann).

        ``The Role of Federal Safety Standards in Product Liability 
        Litigation, presented at Conference on ``Avoiding Product 
        Liability Suits,'' Union College (July 12, 1990).

        ``Needed: A College for Regulators,'' presented at Southeastern 
        Regional Business Law Association Conference (Fall, 1988).

        ``Federal Deregulation and State Reregulation,'' presented to 
        the American Bar Association Committees on Consumer Product 
        Regulation and State Administrative Law of the Administrative 
        Law Section and the Section of Urban, State and Local 
        Government Law (August 11, 1987).

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I wish to serve as a Commissioner because of my long professional 
and personal commitment to consumer issues and to the CPSC 
specifically. I can think of few more critical causes than reducing 
consumer-related injuries, illness, and death. I believe that my 
background demonstrates an ongoing commitment to consumer product 
safety issues and to consumer protection generally. After law school, I 
worked as the Chief of the Consumer Division of a legal services 
program in Allegheny County, PA. Thereafter, I served as a Deputy 
Attorney General in charge of a regional office of the Bureau of 
Consumer Protection for the PA Justice Department.
    Subsequent to this consumer protection experience, I have spent the 
better part of the past 36 years involved in the CPSC in one form or 
another. I served as an attorney-adviser to two CPSC Commissioners (R. 
David Pittle, from 1973-1982 and Sam Zagoria from 1982-1984). I 
subsequently served as Counsel to the Subcommittee on Health and the 
Environment of the House Energy and Commerce Committee doing oversight 
of the CPSC. After that, I became a professor at the University of 
North Carolina where I have written numerous articles on consumer 
product safety issues. And from October 2008-January 2009, I served as 
a member of the Obama Transition Team on which I coauthored the 
Transition Team Report on the Consumer Product Safety Commission.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Under the governing act of the agency, the Consumer Product Safety 
Act, the Chair has the primary responsibility for managing the agency. 
Commissioners, however, share equally in setting agency policies and 
have a broad right to monitor the implementation of those policies. 
Given this shared responsibility, I commit myself to monitoring the 
management and accounting activities of the CPSC in a conscientious 
manner to the extent that the governing statute of the agency gives me 
the authority and responsibility to do so.
    My management experience began when Iran a regional office of the 
Pennsylvania Justice Department in Pittsburgh where I had a staff of 
roughly 7 investigators and administrative personnel. At the Kenan-
Flagler Business School, as an Associate Dean for the BSBA Program, I 
ran the undergraduate business program which included 4 professional 
staff and roughly 600 undergraduate students. Later, as Associate Dean 
of the MBA Program, I ran the school's MBA Program, which included 
roughly 10 professional staff and 600-plus MBA students.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe that the first big challenge facing the CPSC is 
implementing the multitude of new requirements contained in the 
recently-enacted Consumer Product Safety Improvement Act. This will be 
particularly challenging in light of the limited staff resources 
available to the agency.
    A second challenge is to make the CPSC, a very small agency, as 
effective as it can be in protecting consumers. Being small is not 
always a disadvantage if the agency can demonstrate a truly nimble and 
thoughtful approach to product safety. I would work to use the digital 
revolution to expand the agency's outreach and effectiveness both with 
consumers and industry.
    A third challenge is restoring morale within the agency among the 
dedicated CPSC staff. Recent government-wide surveys reveal that CPSC 
staff love the mission of the agency, but do not feel that it is a good 
place to work. Strong steps should be taken to reinvigorate the staff.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Retirement Accounts: Virtually all of my retirement accounts are in 
broad based mutual funds with no individual company holdings. The only 
other large holding I have is a money market account in U.S. 
Treasuries.
    Ongoing Business Dealings: My ongoing relationships with clients 
and customers have mainly been through the Kenan-Flagler Business 
School's Executive Development Center which provides executive and 
leadership programs to businesses and trade associations. I plan to 
terminate all work with the Executive Development Center if I am 
confirmed.
    My other relationships outside of the Executive Development Center 
lie in providing negotiation and ethics training sessions to several 
groups, mainly the U.S. Navy, various public health groups, and Eastman 
Chemical Company, a manufacturer of plastic products for industrial 
use. I plan to terminate all educational training sessions with these 
groups if I am confirmed.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the CPSC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Commission's 
designated agency ethics official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the CPSC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Commission's 
designated agency ethics official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
Administration and execution of law or public policy.
    I have done no advocacy on issues of public policy beyond my 
regular research and teaching activities as a professor with the 
following two exceptions: (1) I served on the Obama Transition Team 
from October 2008-January 2009, co-authoring the report on the Consumer 
Product Safety Commission, and (2) in Fall 1999, I joined with several 
professors of law across the country in filing an Amicus Curiae brief 
in the case of Geier v. American Honda Motor Co., 1999 WL 966514, in 
support of the Petitioners. Our brief argued that the state common law 
claim of the petitioners should not be preempted by a regulation issued 
by the National Highway Traffic Safety Administration.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the CPSC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Commission's 
designated agency ethics official and that has been provided to this 
Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    When I served as a Deputy Attorney General in the Bureau of 
Consumer Protection in the Pennsylvania Justice Department, I 
investigated an individual for fraud in 1972 or 1973. At one point, he 
wrote a letter to the Bar Association that accused me of trying to 
intimidate him during a negotiation for a consent decree (which he 
never signed). As I recall, I disputed this complaint, pointing out 
that the individual's attorney sat through the entire negotiation and 
disagreed with his client's characterization of events. The Bar 
Association dismissed the charge against me. Whether this was 
considered a formal complaint, I cannot recall. When I last checked 
with the Bar Association many years ago, I was told that they have no 
record of any complaint listed against me. I cannot recall the name of 
the complainant.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Yes. I filed a lawsuit in 1973 or 1974 in Allegheny County, PA (or 
in the district court for the western district of Pa.) as the plaintiff 
in a case under the Fair Credit Reporting Act against a company that 
had illegally run a credit check on me while I was investigating them 
for possible consumer fraud violations. We settled the case before 
trial, with the company paying me roughly $3,000. Despite my best 
efforts, I cannot find my records of the case. I recently spoke to the 
attorney who handled my case. He has changed law firms several times 
over the years, and he cannot recall any of the details of the case 
either.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                     resume of robert sanford adler
Education
        J.D., University of Michigan Law School, 1969.

        A.B., University of Pennsylvania, 1966, cum laude.
Honors, Awards, Special Recognition
        Faculty Appreciation Award for Distinguished MBA Teaching, 
        (2005-2006) (2006-2007) (2008-2009).

        Recipient of Dean's Teaching Bonus, (2005-2006) (2006-2007).

        Gerald Barrett Faculty Award (excellence in teaching and 
        service in the Kenan-Flagler MBA Program), 2004.

        Best Article Award, CPR Institute for Dispute Resolution, for 
        article in Harvard Negotiation Law Review, 2001.

        President, The University of North Carolina at Chapel Hill 
        Academy of Distinguished Teaching Scholars, 2003-2007.

        Order of the Grail-Valkyries, 1999.

        Order of the Golden Fleece, 1997.

        Tanner Award for Excellence in Undergraduate Teaching 
        (university-wide teaching award), 1996.

        O'Herron Scholar, (excellence in teaching and research) 1996.

        Elected to Board of Directors, Consumers Union, publishers of 
        Consumer Reports (6th term; first elected, 1989).

        McColl Award for Teaching, Research and Service Excellence, 
        1994.

        Undergraduate Program Distinguished Teaching Award, 1990.

        Federal Executive Board, Outstanding Achievement, 1973.

        Reginald Heber Smith Fellow.
Employment
        2003-present, Professor of Legal Studies, Kenan-Flagler 
        Business School.

        2002-2003, Associate Dean, MBA Program, Kenan-Flagler Business 
        School.

        1995-2002, Professor of Legal Studies, Kenan-Flagler Business 
        School.

        1994-1998, Associate Dean, Undergraduate (BSBA) Program, Kenan-
        Flagler Business School, University of North Carolina, Chapel 
        Hill, North Carolina.

        1987-1995, Associate Professor of Legal Studies, Kenan-Flagler 
        Business School, University of North Carolina, Chapel Hill, 
        North Carolina (received tenure, 1990).

        1985-1987, Counsel to the Subcommittee on Health and the 
        Environment Committee on Energy and Commerce, U.S. House of 
        Representatives, Washington, D.C.

        1984-1985, Of Counsel, Schmeltzer, Aptaker and Sheppard, 
        Washington, D.C.

        1983-1985, Adjunct Professor, Washington College of Law, 
        American University, Washington, D.C.

        1982-1984, Attorney-advisor to Commissioner Sam Zagoria, U.S. 
        Consumer Product Safety Commission, Washington, D.C.

        1973-1982, Attorney-advisor to Commissioner R. David Pittle, 
        U.S. Consumer Product Safety Commission, Washington, D.C.

        1971-1973, Deputy Attorney General, Director, Southwestern 
        Regional Office, Pennsylvania Bureau of Consumer Protection, 
        Pennsylvania Justice Department, Pittsburgh, PA.

        1969-1971, Director, Consumer Division, Neighborhood Legal 
        Services Association, Pittsburgh, PA.
Publications
    (a) Refereed Articles:

        ``Mastering the Art of Negotiating With Liars,'' Sloan 
        Management Review, Vol. 48, No. 4 (Summer 2007) pp. 69-74.

        ``Flawed Thinking. Addressing Decision Biases in Negotiation,'' 
        Ohio State Journal on Dispute Resolution, Vol. 20, No. 3 (2005) 
        pp. 683-774.

        ``When David Meets Goliath: Dealing With Power Differentials in 
        Negotiations,'' Harvard Negotiation Law Review, (co-authored 
        with Elliot Silverstein) Vol. 5 (Summer 2000) pp. 1-112.

        ``Here's Smoking At You, Kid: Has Tobacco Product Placement in 
        the Movies Really Stopped?'' University of Montana Law Review, 
        Vol. 60 (2) (Summer 1999) pp. 243-284.

        ``Emotions in Negotiation: How to Handle Fear and Anger,'' (co-
        authored with Ben Rosen and Elliot Silverstein) The Negotiation 
        Journal Vol. 14 (2) (April 1998) pp. 161-179.

        ``The Preemption Pentad: Federal Preemption of Products 
        Liability Claims After Medtronic v. Lohr,'' (co-authored with 
        Rob Leflar) University of Tennessee Law Review Vol. 64 (Spring 
        1997) pp. 691-748.

        ``Encouraging Employers To Abandon Their ``No Comment'' 
        Policies Regarding Job References: A Reform Proposal,'' (co-
        authored with Ellen Peirce) Washington & Lee Law Review, Vol. 
        50, No. 4 (1996) pp. 1381-1469.

        ``Addressing Product Misuse at the Consumer Product Safety 
        Commission: Redesigning People Versus Redesigning Products,'' 
        University of Virginia Journal of Law & Politics Vol. XI, No. 1 
        (Winter 1995) pp. 79-127, reprinted in Charles H. Koch, Jr., 
        Fundamentals of Administrative Practice and Procedure (3rd 
        ed.).

        ``Preemption and Medical Devices: The Courts Run Amok,'' (co-
        authored with Richard Mann) University of Missouri Law Review 
        Vol. 59 (Fall 1994) pp. 895-945.

        ``Good Faith: A New Look At An Old Doctrine,'' (co-authored 
        with Richard A. Mann) Akron Law Review Vol. 28 (Summer 1994) 
        pp. 31-52.

        ``The Last Best Argument for Eliminating Reliance From Express 
        Warranties: `Real World' Consumers Don't Read Warranties,'' U. 
        of So. Carolina Law Review, Vol. 45 (Spring 1994) pp. 429-475.

        ``Avoiding Misuse of New Information Technologies,'' (co-
        authored with Paul Bloom and George Milne) Journal of 
        Marketing, Vol. 58 (January 1994) pp. 98-110.

        ``The Legal, Ethical and Social Implications of the `Reasonable 
        Woman' Standard in Sexual Harassment Cases,'' (co-authored with 
        Ellen Peirce) Fordham Law Review, Vol. 361, No. 4 (March 1993) 
        pp. 773-827, reprinted in Ethics in the Workplace, E. 
        Ottensmeyer and G. McCarthy (1996) pp. 211-235.

        ``Contemporary Ethical Issues in Labor-Management Relations,'' 
        Journal of Business Ethics (co-authored with William Bigoness), 
        Vol. 11 (1992) pp. 351-360.

        ``Cooperative Learning Groups in Undergraduate and Graduate 
        Contexts: Different Strokes for Different Folks,'' Journal of 
        Legal Studies Education (co-authored with Ed Neal), Vol. 9, No. 
        3, (Fall 1991) pp. 427-435.

        ``Stalking the Rogue Physician: An Analysis of the Health Care 
        Quality Improvement Act,'' American Business Law Journal, Vol. 
        28, No. 4, (1991) pp. 683-741.

        ``Shaping Up Federal Agencies: A Basic Training Program for 
        Regulators,'' The University of Virginia Journal of Law & 
        Politics, Vol. VI, No. 2 (co-authored with Stephen Klitzman & 
        Richard Mann) (1990) pp. 343-371.

        ``From `Model Agency' to Basket Case: Can the Consumer Product 
        Safety Commission Be Redeemed?'' Administrative Law Review, 
        Vol. 41, (1989) pp. 61-129.

        ``The 1976 Medical Device Amendments: A Step in the Right 
        Direction Needs Another Step in the Right Direction,'' Food 
        Drug Cosmetic Law Journal, Vol. 43, No. 3. pages 511-532 
        (1988). Revised and updated as ``Legislation Needed to Improve 
        the Medical Devices Law'' in The Medical Device Industry: 
        Science, Technology, and Regulation in a Competitive 
        Environment, pp. 531-549 (1990).

        ``Product Recalls: A Remedy in Need of Repair,'' Case Western 
        Law Review, Vol. 34, No. 4 (co-authored with Teresa M. 
        Schwartz) (1983-84) pp. 401-464.

        ``Cajolery or Command: Are Education Campaigns an Adequate 
        Substitute for Regulation?'' Yale Journal on Regulation, Vol. 
        1, No. 2 (1984) (co-authored with R. David Pittle) pp. 159-193.

        ``Commentary on Product Liability: An Interaction of Law and 
        Technology,'' Duquesne Law Review, Vol. 12 (1974) (co-authored 
        with R. David Piffle) pp. 487-495.

    (b) Chapters in Books:

        ``Product Safety: The Consumer Product Safety Commission,'' in 
        Changing America: Blueprints for the New Administration (co-
        authored with R. David Pittle) pp. 540-553 (1993).

        ``A Framework for Identifying the Legal and Political Risks of 
        Using New Information Technologies to Support Marketing 
        Programs,'' (co-authored with Paul N. Bloom & George Milne), 
        Monograph for Marketing Science Institute, Report No. 92-102, 
        February 1992, reprinted as ``Identifying the Legal and Ethical 
        Risks and Costs of Using New Information Technologies To 
        Support Marketing Programs,'' in The Marketing Information 
        Revolution, Harvard Business School Press, 1994, pp. 289-305 
        (1994).

        ``Psycholegal Aspects of Organizational Behavior: Assessing and 
        Controlling Risk'' in Handbook of Psychology and Law, eds. 
        Dorothy K. Kagehiro & William S. Laufer, pp. 523-541 (co-
        authored with Alan J. Tomkins & Bart Victor) (1992).

        ``Product Safety: the Consumer Product Safety Commission'' in 
        America's Transition: Blueprints for the 1990s, (co-authored 
        with R. David Pittle) 268-86 (1989).

    (c) Professional Publications:

        ``Thrust and Parry: The Art of Tough Negotiating,'' (co-
        authored with Ben Rosen and Elliot Silverstein) Training & 
        Development, Vol. 50, No. 3 (March 1996) 42-48.

        ``New Leadership at the Consumer Product Safety Commission: 
        Will It Make A Difference?'' TRIAL, Vol. 30, No. 11 (November 
        1994) 63-67.

        ``The CPSC at 20 Is Still Immature,'' TRIAL, Vol. 28, No. 11 
        (November 1992) pp. 30-34.

        ``New CPSC Act: A Disappointment,'' TRIAL, Vol. 27, No. 11 
        (November, 1991) pp. 18-25.

        ``Manufacturers Blind CPSC to Product Hazards,'' TRIAL, Vol. 
        26, No. 10 (October, 1990) pp. 20-24.

        ``Toy Safety: No Kidding Around,'' TRIAL, Vol. 25, No. 11, 
        pages 44-47 (1989).

        ``Of Ketchup, Ozone, and Airline Delays: A Regulatory Legacy,'' 
        Legal Times (April 11, 1988) pp. 18-20; reprinted as 
        ``Rethinking Reagan's Deregulation Drive,'' Miami Legal Review 
        (May 2, 1988) pp. 9-10; and reprinted as ``Reagan's 
        Deregulation Efforts Have Done More Harm Than Good,'' Manhattan 
        Lawyer, (April 19-25, 1988) pp. 30-31.

        ``Will CPSC Halt U.S. Export of Hazardous Items? Legal Times 
        (April 16, 1984) pp. 11-13.

        ``Does CPSC's Past Bode Ill for Future of Regulatory 
        Negotiations?'' Legal Times (June 20, 1983) (co-authored with 
        R. David Pittle) pp.10-11.

    (d) Book Reviews:

        ``Innovation, Safety, and Costs: A Delicate Balance,'' Review 
        of Managing the Medical Arms Race: Innovation and Public Policy 
        in the Medical Device Industry, (University of California 
        Press) in Health Affairs, Vol. 12, No. 3 (Fall 1993) pp. 271-
        273.

        Review of The Product Liability Handbook: Prevention, Risk, 
        Consequence and Forensics of Product Failure, ed. Sam Brown 
        (Van Nostrand Reinhold 1991), Products Liability Law Journal, 
        Volume 3, No. 3 (May 1992) pp. 212-218.

        Review of R. Mayer, The Consumer Movement: Guardians of the 
        Marketplace (Twayne 1989) and D. Vogel, Fluctuating Fortunes: 
        The Political Power of Business (Basic Books 1989), Journal of 
        Consumer Policy, Volume 14 (1991) pp. 243-248.

    (e) Other Publications:

        ``Time to Strengthen Consumer Protection,'' Christian Science 
        Monitor (May 8, 1989) (coauthored with R. David Pittle) p. 18.

        Lawsuits Without Lawyers, monograph on lawsuits in small claims 
        courts (1973) (coauthored with Carol Knutson, Larry Slesinger, 
        and David Worstell) pp. 1-49.
Presentations
        ``Consumer Product Safety Commission: Reflections from the 
        Obama Transition Team'' to conference of International Consumer 
        Product Health and Safety Officials, Orlando, Florida (February 
        25, 2009).

        ``The Ethics of Wal-Mart,'' to UNC Humanities Program (June 15, 
        2006).

        ``A Critical Look at `The Corporation,' by Joel Bakan,'' to 
        Parr Center for Ethics (April 26, 2006).

        ``Negotiation Issues and Gender,'' to CWIB (February 22, 2006).

        ``Ethical Issues of States Offering Tax and Other Incentives to 
        Attract Business,'' to North Carolina Institute for 
        Constitutional Law (December 8, 2005).

        ``Negotiation in the U.S. and Internationally,'' to Humphrey 
        Fellows (November 16, 2006).

        ``Enron and Ethics,'' to Kenan-Flagler faculty, staff and 
        students (February 20, 2002).

        ``Business Ethics for Lawyers, at Annual Legal Learning 
        Festival sponsored by UNC Law School, Friday Center (February 
        9, 2002).

        ``Pedagogical Skills in Business Ethics,'' to ITESM Faculty, 
        Monterrey, Mexico (October 27, 2000).

        ``Negotiation Skills,'' to North Carolina Association of Black 
        Lawyers, Wilmington, NC (June 23, 2000).

        ``Ethics and Leadership,'' to UNC-CH Graduate Student 
        Leadership Course (March 28, 2000).

        ``Ethics and Leadership,'' to North Carolina Leadership Forum 
        (February 3, 2000).

        ``Business Ethics for Lawyers,'' at Annual Learning Festival 
        sponsored by UNC Law School, Friday Center (February 12, 1999).

        ``One Million ATV Injuries Later . . . Will the End of the 
        Consent Decree Bring More Consumer Litigation? The Government 
        Perspective'' Nationwide Teleconference by Telephone, December 
        2 and December 4, 1998.

        ``A Strategic Plan for ICPHSO,'' at conference of International 
        Consumer Product Health and Safety Officials, Orlando, Florida 
        (February 26-27, 1998).

        ``The Future of Product Safety and Product Liability,'' at 
        conference of International Consumer Product Health and Safety 
        Officials, Key West, Florida (February 28, 1997).

        ``Product Safety Versus Product Liability,'' at conference of 
        International Consumer of Consumer Product Health and Safety 
        Officials (February 29, 1996).

        ``Business Ethics,'' at Festifall Conference by UNC Law School 
        (February 2, 1996).

        ``Medical Devices and Preemption: The Courts Run Amok,'' at 
        Academy of Legal Studies in Business, Dallas Texas (August 12, 
        1994) (co-authored with Richard Mann).

        ``Good Faith: Let's Be Objective About It,'' presented at 
        Academy of Legal Studies in Business, Boulder, CO. (August 23, 
        1993) (jointly presented with Richard Mann).

        ``Forum on the `Litigation Explosion,' '' presented at joint 
        session of Wake Forest Law School and Business School, Winston-
        Salem, NC (September 16, 1992).

        ``The Legal, Ethical and Social Implications of `The Reasonable 
        Woman' Standard in Sexual Harassment Cases,'' presented at 
        Academy of Legal Studies in Business, Charleston, S.C. (August 
        21, 1992) (jointly presented with Ellen Peirce).

        ``Remarks on CPSC Long-Range Plan,'' testimony before Chairman 
        and Commissioners of the U.S. Consumer Product Safety 
        Commission, Washington, D.C. (June 18, 1992).

        ``Regulation, Deregulation, and Reregulation,'' presented at 
        American Business Law Association Conference (August 17, 1990), 
        Toronto, Canada (jointly presented with Richard A. Mann).

        ``The Role of Federal Safety Standards in Product Liability 
        Litigation, presented at Conference on ``Avoiding Product 
        Liability Suits,'' Union College (July 12, 1990).

        ``Stalking the Rogue Physician: An Analysis of the Health Care 
        Quality Improvement Act of 1986 and its Implementation,'' 
        presented at American Business Law Association Conference 
        (Summer, 1989).

        ``Challenges in Teaching Business Ethics to First Year MBA 
        candidates,'' presented at American Business Law Association 
        Conference (Summer, 1989).

        ``Needed: A College for Regulators,'' presented at Southeastern 
        Regional Business Law Association Conference (Fall, 1988).

        ``Federal Deregulation and State Reregulation,'' presented to 
        the American Bar Association Committees on Consumer Product 
        Regulation and State Administrative Law of the Administrative 
        Law Section and the Section of Urban, State and Local 
        Government Law (August 11, 1987).

        ``Medical Malpractice: Current Developments,'' presented to the 
        Graduate School of Business Administration, Boston University 
        (November, 1987).

        ``Congressional Perspectives on Pending Medical Device 
        Legislation,'' presented to the National Electrical 
        Manufacturers Association (September 19, 1987).
Editor or Reviewer
        Elected to Editorial Board, Food and Drug Law Journal, 1999.

        Staff Editor, American Business Law Journal, 1990-1993.

        Reviewer, American Business Law Journal, 1989-90.
Teaching
        Undergraduate: Introduction to Business Law, BA 140; Commercial 
        Paper and Sales, BA 141.

        MBA: Negotiation, BA 253; Ethical Aspects of Management, BA 
        293; Business-Government Relations, BA 299; Strategy Course, BA 
        295.

        Management Education: Taught numerous Executive Education 
        courses with evaluations that generally range above 4.70 out of 
        5.0; Co-developed and ran Leadership Program for Water 
        Industry.
Course Development
        Developed Negotiation Course, 1995.

        Coordinator, MBA Business Ethics Course, 1991-2000.

        Helped design and develop Business Ethics course for MBA and 
        Executive MBA Programs, 1988-90.

        Designed and taught Business-Government Relations MBA course, 
        1990-2004.

        Developed regulatory materials for Strategy Course, 1994.
Professional Activities
        Member of North Carolina Bar, 1989-present.

        Member of Washington, D.C. Bar, 1976-present (inactive).

        Member of Pennsylvania Bar, 1969-present (inactive).

        Academy of Legal Studies in Business, 1987-present.

        Member, Business Ethics Section of ALSB, 1989-present.
University and Business School Service
        President, Academy of Distinguished Teaching Scholars, 2003-
        present.

        Chair, Committee on Student Conduct, 2006-present.

        Chair, Faculty Advisory Committee, 2007-present.

        Member, Board of Advisors, Parr Ethics Center, 2006-present.

        Member, Chancellor's Committee on Reaccreditation for SACS, 
        2004-2006.

        Chair, KFBS Faculty Advisory Committee (FAC), 2006.

        Member, Faculty Advisory Committee, 2004.

        Member, Promotion and Tenure Committee, 2004-present.

        Member, MAC Advisory Committee, 2002-2005.

        Chair, Committee to Review Gene Nichols for Reappointment as 
        Dean, UNC Law School, 2003.

        Chair, Committee on Student Conduct, 2000-2001.

        Member, Committee to Review Risa Palm for reappointment as 
        Dean, College of Arts and Science, 2001.

        Member, Facilities Use Review Group, 2000.

        Member, Executive Committee of Faculty Council, 1999.

        Member, UNC Task force on Student Evaluation of Teaching, 1999.

        Associate Dean, Undergraduate Program, 1994-1998.

        Chair, Kenan-Flagler Committee on Diversity, 1993, 1994, 1995 
        and 1997.

        Chair, UNC Committee on Student Conduct, 1993-94.

        Member, Dean Search Committee, 1997.

        Member, Tanner Teaching Awards, Committee, 1997.

        Member, Chancellor's Task Force on Intellectual Climate at UNC, 
        1996-1997.

        Member, Kenan-Flagler Distance Learning Committee, 1996.

        Member, Kenan-Flagler Reorganization Task Force, 1994.

        Member and Chair of numerous UNC University Hearings Boards, 
        1987-present.

        Member, Board of Directors of Student Legal Services, 1990-
        2008.

        Coordinator, Diversity Sessions, Orientation Week for Incoming 
        MBA Students, 1989-1993.
National and Community Service
        Member, Board of Directors, Consumers Union, 1989-present.

        Member, Chief Justice's Commission on Professionalism, 2007-
        2008.

        Board of Directors, International Consumer Product Health and 
        Safety Organization, 1997.

        Evaluator, BBA Program, University of Iowa, 1995.

        Member, Committee of the Institute of Medicine, National 
        Academy of Science to Study FDA Advisory Committees, 1991-93.

        Member, Committee of the Institute of Medicine, National 
        Academy of Science to Study the Operations of the Nuclear 
        Regulatory Commission, 1994-1995.

        Chair, Committee to Review the Operations of the North Carolina 
        Wildlife Federation, 1992-93.
Personal
        Born September 27, 1944
        Married, one child
Address
        [Not available to the public].

        Kenan-Flagler Business School
        University of North Carolina
        CB# 3490, Carroll Hall
        Chapel Hill, NC 27599-3490

    Senator Pryor. Ms. Northup?

STATEMENT OF HON. ANNE M. NORTHUP, COMMISSIONER-DESIGNATE, U.S. 
               CONSUMER PRODUCT SAFETY COMMISSION

    Ms. Northup. Good morning, Mr. Chairman, Ranking Member 
Hutchison, and members of the Senate Commerce, Science, and 
Transportation Committee. I deeply appreciate the opportunity 
to appear before you today, especially this week with all the 
important matters competing for your attention.
    I am so honored to have been nominated by President Barack 
Obama to serve as a Commissioner of the United States Consumer 
Product Safety Commission. I thank the President for the 
opportunity to serve. If confirmed by the Senate, I will do my 
best to see that the Consumer Product Safety Commission 
effectively and efficiently protects the well-being of our 
children and families and enforces the laws for which it has 
responsibility.
    I want to introduce to you my husband, Woody Northup, who 
is with me today. He and I have been married for 40 years. We 
met on our first day of college, he as a student at Notre Dame 
and I as a freshman at St. Mary's College, which is across the 
street.
    Our lives have been a special adventure. We were blessed 
with six wonderful children, two of whom are adopted. Woody 
started his own business with only seven employees, moving into 
a building with a dirt floor. We had some very lean years. Two 
of our children are cancer survivors, and one very sadly died 
suddenly of a heart attack 3 years ago. I want to thank my 
loving husband for being my dearest friend and best adviser 
throughout my life and my career. I am not sure that this is 
what he pictured when we were married in 1969.
    I grew up in Louisville, Kentucky, the second of 11 
children, 10 girls and 1 boy. You can see why we all thought it 
was a woman's world. My parents were happy, hard-working, 
organized, and made raising 11 children look easy. We were all 
encouraged to study hard, participate in athletics, volunteer 
at an early age, and live a meaningful life. We took different 
paths. I was the only one even remotely involved in politics. 
One of my sisters, Mary T. Meagher Plant, is being inducted 
into the Olympic Hall of Fame next week in Chicago as a three-
time Olympian and a 20-year World Record holder in swimming.
    If I am confirmed as a Commissioner, I want to assure the 
Committee that I will independently and faithfully protect the 
American families from unsafe products, enforce the laws that 
the Commission must enforce, ensure transparency to all 
concerned and do my part to build a collaborative environment 
with those at the Commission.
    First, I would like to address my record of independence. 
The Commission is comprised of two Commissioners from each 
party and a Chair from the party of the President. However, I 
am sure that you expect the Commissioners to rise above their 
party designations and act as a team to protect the American 
people. I believe that I have a record of independence and 
wanted to share a few examples.
    In the Kentucky State Legislature, I introduced the first 
law that limited the age when children could buy tobacco 
products. When I was elected in 1987 to the legislature, in 
Kentucky, if you could walk, you could legally enter a store 
and buy a pack of cigarettes at any age. Republicans and 
Democrats alike in our legislature supported the tobacco 
industry because of our tobacco farmers. I quietly hammered 
away at the health issues and held my ground and influenced 
both the legislature and the Executive Branch to begin 
addressing these health issues. When I was first elected to 
Congress, Louisville was still the home of the world 
headquarters of Brown and Williamson and had a Philip Morris 
plant that employed 4,000 employees. But that did not stop me. 
Throughout my career in Congress, I chose not to accept 
contributions from the tobacco companies because I believed 
that their products were inherently unsafe.
    In Congress, I felt that banks should not also be our real 
estate agents, believing that it could lead to unwise loans to 
families, jeopardizing their financial well-being in order to 
realize short-term gains in commissions. Although the banking 
community had been one of my most supportive industries, from 
that time forward the industry supported my opponents. I, by 
the way, was the author of the amendment that stopped that from 
going forward.
    The pharmaceutical companies had been one of my largest 
contributors until I became concerned about the discrepancy 
between the price American families paid for prescriptions and 
the price paid in other developed countries for exactly the 
same medicine. Thus, I supported allowing American families and 
industry the right to purchase drugs in the international 
marketplace. My independence cost me the support of that 
industry also.
    My life's record of public service has been one of tackling 
tough and complicated issues, looking for solutions that are 
innovative and fair to all concerned. If I am confirmed, I will 
be joining the Commission at a very exciting and challenging 
time. I look forward to being a part of the solution and making 
a positive contribution to those challenges.
    Let me, since I know my time is running out, in closing say 
that I would like to return to the beginning of my testimony. I 
served in the Kentucky Legislature for 9 years and then in 
Congress for 10 years, and in all those years, I felt that my 
degree in economics and my professional work was only half of 
what I brought to each challenge. The other part was being the 
mother of six children.
    When our children were young, they only received toys twice 
a year, on their birthdays and on Christmas, and even that was 
a tremendous financial challenge. I worried about what my 
children needed and how I was going to pay for it. It never 
occurred to me that I should also worry about the safety of 
that toy. I had never heard of the Consumer Product Safety 
Commission, but I had faith in the American system of 
protection.
    Families need to have faith in the system again. They have 
to be able to count on us. If I am confirmed, I will do 
everything possible to think of the families I am responsible 
for and to protect them as my own.
    Thank you and I look forward to answering your questions.
    [The prepared statement and biographical information of Ms. 
Northup follows:]

  Prepared Statement of Hon. Anne M. Northup, Commissioner-Designate, 
                U.S. Consumer Product Safety Commission
    Good afternoon, Mr. Chairman, Ranking Member Hutchison, and members 
of the Senate Commerce, Science, and Transportation Committee. I deeply 
appreciate the opportunity to appear before you today, especially this 
week with all of the important matters competing for your attention.
    I am honored to have been nominated by President Barack Obama to 
serve as a Commissioner of the United States Consumer Product Safety 
Commission. I thank the President for the opportunity to serve. If 
confirmed by the Senate, I will do my best to see that the Consumer 
Product Safety Commission effectively and efficiently protects the well 
being of our children and families and enforces the laws for which it 
has responsibility.
    I want to introduce to you my husband, Woody. He and I have been 
married for forty years. We met on our first day of college, he as a 
student at Notre Dame and I as a freshman at St. Mary's College which 
is across the street.
    Our lives have been a special adventure: we were blessed with six 
wonderful children, two of them adopted; Woody started his own business 
with only 7 employees, moving into a building with a dirt floor. We had 
some very lean years. Two of our children are cancer survivors, and one 
very sadly died suddenly of a heart attack 3 years ago. I want to thank 
my loving husband for being my dearest friend and best adviser 
throughout my life and my career. I am not sure this is what he 
pictured when we were married in 1969.
    I grew up in Louisville, Kentucky, the second of eleven children, 
ten girls and one boy. You can see why we all thought it was a 
``women's world''. My parents were happy, hard working, organized, and 
made raising eleven children look easy and fun. We were all encouraged 
to study hard, participate in athletics, volunteer at an early age and 
live a meaningful life. We took different paths; I was the only one 
even remotely involved in politics. One of my sisters, Mary T. Meagher, 
is being inducted into the Olympic Hall of Fame next week in Chicago as 
a three-time Olympian and a twenty-year World Record holder in 
swimming.
    If I am confirmed as a Commissioner, I want to assure the Committee 
that I will serve independently and faithfully to protect American 
families from unsafe products, enforce the laws that the Commission 
must enforce, ensure transparency to all concerned and do my part to 
build a collaborative environment with those at the Commission.
    First, I would like to address my record of independence. The 
Commission is comprised of two Commissioners from each party and the 
Chair from the party of the President. However, I am sure you expect 
Commissioners to rise above their party designation and act as a team 
to protect the American people. I believe that I have a record of 
independence and wanted to share a few examples:

  <bullet> In the Kentucky State Legislature, I introduced the first 
        law that limited the age when children could buy tobacco 
        products. When I was elected in 1987, in Kentucky, if you could 
        walk, you could legally enter a store and buy a pack of 
        cigarettes at any age. Republicans and Democrats alike in our 
        Legislature supported the tobacco industry because of our 
        tobacco farmers. I quietly hammered away at the health issues 
        and held my ground and influenced both the legislature and the 
        Executive Branch to begin addressing these health issues. When 
        I was first elected to Congress, Louisville was still home to 
        the world headquarters of Brown and Williamson and had a Philip 
        Morris plant that employed 4000 employees. Throughout my career 
        in Congress, I chose not to accept contributions from the 
        tobacco companies because I believe that their products are 
        inherently unsafe.

  <bullet> In Congress, I felt that banks should not also be our real 
        estate agents, believing that it could lead to unwise loans to 
        families, jeopardizing their financial well being in order to 
        realize short-term gains in commissions. Although the banking 
        community had been one of my most supportive industries, from 
        that time forward, the industry supported my opponents.

  <bullet> The pharmaceutical companies had been one of my largest 
        contributors until I became concerned about the discrepancy 
        between the price American families paid for prescriptions and 
        the price paid in other developed countries for the same 
        medicine. Thus, I supported allowing American families and 
        industry the right to purchase drugs in the international 
        marketplace. My independence cost me the support of that 
        industry.

    My life's record of public service has been one of tackling tough 
and complicated issues, looking for solutions that are innovative and 
fair to all concerned. If I am confirmed, I will be joining the 
Commission at a very exciting and challenging time. I look forward to 
being a part of the solution and making a positive contribution toward 
meeting those challenges.
    The position for which the President has nominated me was created 
in the 2008 Consumer Product Safety Improvement Act. This legislation 
created new, sweeping responsibilities for the Consumer Product Safety 
Commission. Its implementation will require new rules, new standards, 
new testing laboratories, new ways to certify imports and new 
enforcement actions.
    If I am confirmed, I will be joining the Commission under the 
guidance of the new Chairwoman, Inez Tenenbaum. I want to thank 
Chairman Tenenbaum for graciously reaching out to me and congratulating 
me on my nomination, all the way from Singapore where she is attending 
product safety meetings. I would do all in my power to be a valuable 
team member. She is already setting in motion a collaborative effort to 
address the current challenges and I would hope to support her efforts 
and contribute to meeting these challenges.
    Chairman Tenenbaum testified that one of her highest priorities 
would be to work closely with the Committee, keeping it informed of 
progress to meet statutory deadlines. I understand how important that 
is. As a former Member of Congress, I remember how completely 
frustrating it was to need an answer from an Agency and not be able to 
get it. I understand, Mr. Chairman and Ranking Member Hutchison, that 
you begin to hear from your colleagues if agencies do not respond, fail 
to meet deadlines or have constituents that feel that their issues and 
views are not even heard. If I am confirmed, I will bring that 
firsthand knowledge and respect for this Committee's perspective to my 
service.
    Previously, as a member of the Kentucky State Legislature, I had an 
opportunity to address the challenges of implementing major reforms. In 
1990, the Kentucky Legislature passed a sweeping reform of their 
education system, the Kentucky Education Reform Act (KERA). It 
completely revamped funding, the curriculum, teacher training, 
governance, applied new innovative statewide student testing, and a 
rewards and sanctions system to hold schools and school districts 
accountable. For many years it was help up as a national standard.
    But, as this Committee well knows, new sweeping laws are tough to 
implement. The Governor and the legislative leadership appointed three 
legislative members to a new public-private partnership, the 
Partnership for Education Reform, to facilitate the implementation of 
the new law. As an appointee of the Speaker of the House (who was not a 
Republican), I had an opportunity to work on the day-to-day issues to 
meet the deadlines, address the criticisms (people affected by change 
often resist change but sometimes unforeseen problems arisethe key is 
to know the difference), stretch the funding to meet the mandates, 
develop training, measure progress with respect to time and 
effectiveness, communicate with the public and answer questions from my 
fellow members of the Legislature who wondered what was taking so long.
    I believe the Consumer Product Safety Improvement Act is meeting 
the same challenges. It needs leaders who are determined to implement 
it fairly, as it was intended to be applied, address the problems, 
listen to those it affects, find creative, affordable and timely 
solutions and ensure that this law does exactly what the Congress 
intended: provide better protection for American families. If I am 
confirmed I will use my talents and experience to live up to your 
expectations for the Consumer Product Safety Commission.
    Today, more than two-thirds of all consumer products are imported. 
That is an enormous difference from 1973 when the CPSC was created and 
began protecting American families and children. The Consumer Product 
Safety Improvement Act provides new resources and authority to ensure 
that imported products meet American safety standards. Currently two-
thirds of all product recalls are imports, so there is good reason for 
the Commission to efficiently and effectively address the question of 
imports.
    If I am confirmed, I will look for innovative ways to meet this 
enormous challenge of imports, making every dollar we spend a good 
investment for safety. Today, emerging technologies create new and 
different opportunities to test, check, track and protect the American 
public. If the Commission builds on cooperative efforts with other 
countries, expanding the use of independent third party laboratories 
for testing and better technology to track what comes in through our 
ports, we can do more with the resources you have given the Commission.
    In closing, I would like to return to the beginning of my 
testimony. I have served in the Kentucky Legislature for 9 years and 
then in Congress for 10 years and in all those years I felt that my 
degree in Economics and my professional work was only half of what I 
brought to each challenge. The other part was being the mother of six 
children. When our children were young, they only received toys twice a 
year: on their birthdays and Christmas and even that was a financial 
challenge. I worried about what my children needed and how I was going 
to pay for it. It never occurred to me that I should also worry about 
the safety of the toy. I had never heard of the Consumer Product Safety 
Commission, but I had faith in the American system of protection.
    Families need to have faith in the system again. They have to be 
able to count on us. If I am confirmed, I will do everything possible 
to think of the families I am responsible to protect as my own.
    Thank you and I look forward to answering any questions that you 
may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Anne Clifford Meagher (maiden name).

        Anne Meagher Northup (married name) 1969-present.

    2. Position to which nominated: Commissioner, Consumer Product 
Safety Commission.
    3. Date of Nomination: August 3, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

    5. Date and Place of Birth: January 22, 1948; Louisville, KY.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Robert Wood Northup, CEO, Radio Sound, Inc.; children: 
        Robert David Northup, 37 years old; Katherine McCrystal Northup 
        Smith, 35 years old; Joshua James Northup, deceased; Kevin Wood 
        Northup, 32 years old; Erin Murnane Northup, 30 years old; Mark 
        Meagher Northup, 27 years old.

    7. List all college and graduate degrees. Provide year and school 
attended.

        St. Mary's College, BA Economics and Business, 1970.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        High School Mathematics Teacher, 1969-1971.

        Ford Motor Company DSO Dept., 1972-1974.

        State Representative; District 32, 1987-1996.

        Member of Congress; Kentucky-3, 1997-2006.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        CARES Commission, Department of Veterans Hospital, Local 
        Advisory Panel.

        Louisville Arena Task Force.

        Ohio River Bridges, Design Selection Committee.

        Member, U.S. Helsinki Commission.

        House Reading Caucus, Founder and Co-Chair.

        Congressional Coalition on Adoption, Board Member.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: None.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Member, Women's Club of Louisville (all women's organization) 
        1993-present.

        Forum Club, Naples, Florida; 2003-present. Served on the 
        Program Committee 2008-2009.

        Member, Queen's Daughters (Catholic women's organization that 
        benefits Catholic Charities and infant adoption programs--all 
        women membership) 1990-present.

        Member, Metropolitan Republican Women's Club--(all women 
        members) 1992-present.

        The United States Association of Former Members of Congress--
        2007-present.

        Member, Holy Spirit Catholic Church--1986-present.

        Member, Capitol Hill Preservation Society (2008-present).

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

        State Representative, 1987-1996 (no debts).

        Member of Congress 1997-2006 (no debts).

        Primary Campaign for Governor 2007 (Closed the campaign 
        committee with an unpaid loan of $681,000 to me personally 
        which just became a personal loss.)

        Candidate for Congress 2008--no debt.

    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

    Anne Northup:

        Contributed to:

                Northup for Congress: $4,600--2008.

                McConnell for Senate: $4,600--2008.

                Northup for Congress: $2,000--1996.

                Northup for Congress: $2,000--1998.

                Northup for Congress: $2,000--2000.

                Northup for Congress: $2,000--2002.

                Northup for Congress: $4,000--2004.

                Northup for Congress: $4,200--2006.

                Fletcher for Governor: $1,000--2003.

                Northup-Hoover 2007: $1,000--2007.

                Northup-Hoover 2007 (loan): $500,000--2007.

                Northup-Hoover 2007 (loan): $100,000--2007.

                Northup-Hoover 2007(loan): $100,000--2007.

                Candidate Debt Assumption: $681,958.14, Repayment of 
                loan: $18,041--2008.

    R. Wood Northup

        Contributed to:

                Northup for Congress: $2,000--1996.

                Northup for Congress: $2,000--1998.

                Northup for Congress: $2,000--2000.

                Northup for Congress: $2,000--2002.

                Northup for Congress: $4,000--2004.

                Northup for Congress: $4,200--2006.

                Northup for Congress: $4,600--2008.

                Bush for President: $1,000--1999.

                Republican Party of Kentucky: $1,500--2000.

                Alice Forgy Kerr for Congress: $2,000--2003.

                Geoff Davis for Congress: $1,000--2003.

                Lazio Inc. $1,000--2000.

                Bush-Cheney '04 (Primary) $2,000.

                Republican Party of Kentucky: $500--2001.

                Republican Party of Kentucky: $500--2002.

                Schmidt for Congress Committee: $250.

                Republican Party of KY: $500--2004.

                Bob Franks for U.S. Senate: $1,000--2000.

                McConnell Senate Committee $2,000--2002.

                McConnell Senate Committee $4,600--2008.

                Louisville and Jefferson County Republican Party: 
                $5,000--2002.

                Rebecca Jackson for County Judge Executive: $500--1998.

                Northup-Hoover: $1,000--2007.

                Ernie Fletcher for Governor: $1,000--2003.

                Shellie Knopf for Circuit Court Clerk: $1,000--2007.

                David Osborne for State Representative: $1,000--2008.

                Downard for Mayor: $1,000--2006.

                John May for Property Valuation Administrator: $1,000--
                2006.

                Bob DeWeese for State Representative: $500--2008.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Honorary Degree St. Mary's College, Notre Dame, Indiana; Degree 
        of Doctor of Laws, Honoris Causa.

        I am attaching a link to a column written about that address: 
        http://www.patrickkillough.com/education/belles.html

        Community Service Recognition Award Louisville Defender 
        Newspaper (African American Weekly newspaper in Louisville).

        Adam Smith Award--BIPAC.

        Legislator of the Year NOISE (National Organization to Insure a 
        Sound-controlled Environment).

        Silver Anchor Award--Friends of the Waterfront.

        Congressional Partnership Award--National Association of 
        Development Organizations.

        John Thompson Foundation Outstanding Achievement Award.

        Citizen of the Year Award--Optimist Club of Louisville.

        Literacy Leadership Award--Kentucky Reading Association.

        Legislative Achievement in Economic Development--Southern 
        Economic Development Council.

        Defender of Religious Freedom--Zeta Beta Tau Fraternity.

        Rolapp Award--American Horse Council.

        Community Healthcare Champion Award--National Association of 
        Community Health Centers, Inc.

        First Gethsemane Baptist Church Leading Ladies Award.

        Public Policy Advocate of the Year--National Association of 
        Women Business Owners.

        Advocate for the Education of Blind and Visually Impaired 
        Students--American Printing House for the Blind.

        Legislator of the Year--The Environmental Industry Association.

        Outstanding Freshman Member of Congress--National Industries 
        for the Blind.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    During my 9 years in the State Legislature and 10 years in the U.S. 
Congress, I wrote many columns for newspapers and newsletters and spoke 
to many groups about relevant legislation and issues important at that 
moment. However, I have not written anything that would relate to the 
issues before the Consumer Product Safety Commission.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        March 6, 1997, House Transportation and Infrastructure 
        Committee, The Kentucky and Indiana Bridge Project.

        November 19,1992, House Ways and Means Committee, Tobacco 
        Control and in favor of tobacco excise taxes.

        March 28, 2001, House Committee on Education and the Workforce, 
        No Child Left Behind.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position.
    My experience as a former Member of Congress gives me a unique 
perspective for the CPSC. I understand the expectations of Members of 
Congress that the letter and the spirit of legislation must be 
administered efficiently and effectively. The constituents of elected 
officials expect to get the answers they need and a fair and 
responsible application of the current law. While it is important that 
the private sector not wait interminable lengths of time for 
bureaucratic answers, it is also important that the laws on the books 
be interpreted fairly and completely.
    When there are problems with either the meaning of the legislation 
or the application of the law, Members of Congress need to be apprised 
of what these problems may be and given a chance to respond and 
clarify. I believe I can help build a stronger relationship between the 
Congress and the Consumer Product Safety Commission as opposed to the 
``separate orbit'' type of relationship that sometimes exists between 
agencies and the Congress.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I believe proper management and financial controls are important. I 
will do my part and help the Chairwoman of the Consumer Product Safety 
Commission to ensure all proper controls are in place.
    As Committee Members know so well, serving in Congress requires 
multitasking, compliance with strict financial, ethical and campaign 
laws and timelines.
    I am proud of my record as an effective Member of Congress, 
recognized by my peers and my constituents as a leader who listened, 
understood, tackled and resolved challenges in Washington and for my 
district. This was done simultaneously with overseeing a challenging 
campaign every 2 years (three plus million dollars each) as one of the 
most targeted Members of Congress in each election cycle. By committing 
myself to personal hard work, organizing, delegating, prioritizing, 
team building and setting a high standard, I was able to manage these 
responsibilities efficiently and effectively.
    I believe I can bring the same level of leadership, management, 
team building and hard work to the CPSC.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The Consumer Product Safety Commission (CPSC) has enormous 
responsibilities to protect American families including oversight of 
15,000 products. The priorities will be set by Chairwoman Tenenbaum but 
these are the top three challenges as I see them:

        1. The Consumer Product Safety Improvement Act gives the CPSC 
        new responsibilities. Implementing these improvements 
        effectively and efficiently will be an enormous challenge that 
        the CPSC must meet.

        2. Imports make up two thirds of consumer products today. The 
        CPSC must develop better and more efficient ways to ensure 
        these products meet our safety standards. The challenges of the 
        CPSIA, imports and the increasing speed with which new products 
        emerge in the marketplace financially and technically strain 
        the resources of the CPSC. That means it is especially 
        important to look for technically feasible ways to meets the 
        Commission's responsibilities more efficiently.

        3. Several of the CPSC's current investigations are 
        particularly important today and need prioritizing, none more 
        prominent than the issue of Chinese Drywall. The widespread use 
        of this product, the severity of the health consequences, and 
        the fact that the remedy is cost prohibitive for most families 
        make this burning issue a priority' for the Commission.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    The only retirement account I have is my Federal TSP account.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    During the nomination process, I have consulted the Office of 
Government Ethics and the Consumer Product Safety Commission's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Commission's designated ethics official and that 
agreement has been provided to this Committee. I am not aware of any 
other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    During the nomination process, I have consulted the Office of 
Government Ethics and the Consumer Product Safety Commission's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Commission's designated ethics official and that 
agreement has been provided to this Committee. I am not aware of any 
other potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
Administration and execution of law or public policy.
    I served as a Member of Congress: 1996-2006.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    During the nomination process, I have consulted the Office of 
Government Ethics and the Consumer Product Safety Commission's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Commission's designated ethics official and that 
agreement has been provided to this Committee. I am not aware of any 
other potential conflicts of interest.
    Should I be confirmed, I would continue to consult the ethics 
official at the CPSC on any matters of concern and take their 
recommendations to avoid any conflict of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I served on a non-profit Board that was sued by the ACLU.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees?
    Yes. As a former Member of Congress, I understand the importance of 
the Executive Branch complying with statutory deadlines.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    Yes. I believe that honest and transparent public service, and 
leadership that reflects that priority, are important. Congress 
deserves to be well informed. I would do everything possible to insure 
that the business of the CPSC is open and available to Congress.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    Yes. Again, as a former Member of Congress, I understand how 
important responding to requests from Congress is, and how difficult 
the business of committees becomes, when there are delays in making 
information or testimony, available.
                                 ______
                                 
                     resume of anne meagher northup
    Anne Meagher Northup served the Third Congressional District of 
Kentucky, representing the Louisville district in the U.S. House of 
Representatives as a Republican from 1997-2006. Before her tenure in 
Congress, Northup served in the Kentucky House of Representatives for 9 
years, from 1987-1996.
    Soon after taking office in 1997, Northup was appointed to the 
House Appropriations Committee, the Committee that considers all 
Federal spending bills. She sat on the Labor, Health and Human 
Services, and Education; Transportation, Treasury, HUD and Independent 
Agencies; and Military Quality of Life and Veterans Affairs 
Subcommittees.
    Throughout her tenure in Congress, Northup was recognized for her 
straightforward, honest style in taking on tough issues. She is a pro-
trade, pro-economic expansion Republican focused on issues that create 
a better environment for competition, growth, and worldwide commerce. 
She is a proponent of permanent tax relief for all American taxpayers, 
expanding affordable health insurance, cutting red-tape and making sure 
government programs are measured based on results.
    Congresswoman Northup is the recipient of numerous legislative 
awards. In 2003, she received the prestigious ``Adam Smith Award,'' 
which is presented annually to one Federal elected official who 
exhibits an exemplary commitment to economic freedom.
    Congresswoman Northup has been an aggressive advocate for education 
reform. In March 1998, she founded the House Reading Caucus, a 
bipartisan caucus that raises awareness about the growing number of 
children who are failing to learn to read. She introduced legislation 
commissioning the National Reading Panel, the findings of which were 
incorporated into the ``Reading First Initiative'' of the 2001 No Child 
Left Behind education law.
    Additionally, Congresswoman Northup was a member of the 
Congressional Coalition on Adoption and was an instrumental proponent 
of legislation promoting adoption. As co-chair of the coalition in 
2002, Northup traveled to China to work on eliminating the growing 
bureaucratic obstacles between the United States and China that were 
threatening to reduce the number of Chinese orphans available to 
American families for adoption. In 2003, Northup introduced legislation 
that resulted in extended paperwork deadlines for families adopting 
children from China who were impacted by delays due to the SARS 
epidemic. Northup and her husband are the parents of two adopted 
children.
    In February 2005, Northup was elected by a committee of her 
Republican House colleagues to chair the GOP's Retirement Security 
Public Affairs Team. As Chairman of the group, Northup was front and 
center in the effort to strengthen Social Security for younger 
generations of American workers.
    Congresswoman Northup has been highlighted by the national press 
for her pragmatic approach to public policy and her ability to 
effectively communicate the priorities of Congress. She has appeared on 
such shows as Meet the Press, Fox News Sunday, CBS Evening News with 
Dan Rather, Larry King Live, CNN & Co., The News Hour with Jim Lehrer 
and Hardball with Chris Matthews and Lou Dobbs.
    Congresswoman Northup graduated from Saint Mary's College in 1970 
with a Bachelor of Arts degree in Economics and Business. She has 
served for years on community boards, is a recipient of numerous civic 
awards, and is an active community volunteer. She is a member of Holy 
Spirit Catholic Church, and has been married to ``Woody'' Northup, a 
small business owner, for over 37 years. Together, the Northups have 
six children.
Legislative Appointments
        Member, U.S. Helsinki Commission

        Member, Speaker's Prescription Drug Action Team

        Member, Free Trade Working Group

        Member, World Trade Organization Congressional Advisory Group

        Chairwoman, Speaker's Task Force on Education

        Member, Speaker's Drug Free Task Force
Congressional Caucus/Task Force/advisory Board Memberships
        House Reading Caucus, Founder and Co-Chair

        Congressional Coalition on Adoption

        Education Caucus

        Republican Israel Caucus

        Missing and Exploited Children Caucus

        African Trade and Investment Caucus

        Medical Malpractice Crisis Task Force
Awards
        Community Service Recognition Award--Louisville Defender 
        Newspaper

        Adam Smith Award--BIPAC

        Legislator of the Year--NOISE (National Organization to Insure 
        a Sound-controlled Environment)

        Silver Anchor Award--Friends of the Waterfront

        Hero of the Taxpayer--Americans for Tax Reform

        Super Friend of Seniors--60 Plus Association

        Guardian of Seniors' Rights Award

        Congressional Partnership Award--National Association of 
        Development Organizations

        John Thompson Foundation Outstanding Achievement Award

        Citizen of the Year Award--Optimist Club of Louisville

        Literacy Leadership Award--Kentucky Reading Association

        Legislative Achievement in Economic Development--Southern 
        Economic Development Council

        Small Business Advocate--Small Business Survival Committee

        Defender of Religious Freedom--Zeta Beta Tau Fraternity

        Rolapp Award--American Horse Council

        Housing Hero Award--National Association of Home Builders

        Retail Champion--National Retail Federation

        Bulldog Award--Watchdogs of the Treasury

        Friend of the Farm Bureau--American Farm Bureau Federation

        Jefferson Award--Citizens for a Sound Economy

        Senior Legislative Achievement Award--The Seniors Coalition

        Guardian of Small Business Award--National Federation of 
        Independent Business

        Spirit of Enterprise Award--U.S. Chamber of Commerce

        Community Healthcare Champion Award--National Association of 
        Community Health Centers, Inc.

        First Gethsemane Baptist Church Leading Ladies Award

        Legislator of the Year--Association of Equipment Distributors

        Congressional Award--Susan B. Anthony

        Public Policy Advocate of the Year--National Association of 
        Women Business Owners

        Legislator of the Year--National Beer Wholesalers Association

        Advocate for the Education of Blind and Visually Impaired 
        Students--American Printing House for the Blind

        Legislator of the Year--The Environmental Industry Association

        Outstanding Freshman Member of Congress--National Industries 
        for the Blind

    Senator Pryor. Thank you.
    Ms. Northup, let me start with you, if I can pick up on 
your last point about being a mother and having children and 
buying various products. In your view, how can the CPSC improve 
their outreach, their information dissemination to people like 
that who were in your shoes a few years ago? How could they 
improve the ability to get the word out when there is a 
dangerous product out there?
    Ms. Northup. Well, Senator, if I am approved and confirmed, 
I would really look forward to working with the Chairman, who 
has talked about the database and the importance of expanding 
both the information in the database and making it far more 
available and transparent to those purchasing any consumer 
product. I think that is enormously important, and I think that 
that needs to be a priority. I know that the Committee has 
appropriated an additional sum, a considerable--it is about a 
78 percent increase in appropriation last year. And much of 
this problem could be addressed with that money.
    Senator Pryor. Thank you.
    Mr. Adler, do you have any thoughts on how the Commission 
can get the word out?
    Mr. Adler. Actually, I think Ms. Northup hit that right on 
the head. One of the terrific features of the Consumer Product 
Safety Improvement Act, from my perspective, is the 
establishment of this consumer product safety data base. I 
think that is using the resources of information technology to 
substitute for large numbers of staff at the agency. One of the 
thoughts I have always had is if we do not have a large staff, 
we have got to use large brains. And it does seem to me these 
new information technologies really give us a chance to contact 
the public in very targeted ways when the hazard is something 
that applies specifically to particular consumers.
    I also know that Chairman Inez Tenenbaum has made this a 
priority of hers, and it is my understanding that she is doing 
her best to hire some really outstanding officials within the 
agency to promote education and information.
    Senator Pryor. I think that is right. One of the things 
that I would encourage you all to think through as you go on to 
the Commission is I think that information technology is great. 
I mean, it really is amazing, and I think like you said, it is 
really a multiplier of resources that can get more information 
out.
    But we still have people in this country who are poor or 
elderly or rural that just do not have that technology access 
for one reason or another. So I would encourage you to think 
about using technology in new ways, and I think that is great, 
but also thinking about maybe more traditional and other ways 
to reach out to folks.
    The other question I had is I know that in the CPSIA, we 
threw a lot of responsibility at the Commission all at once, 
and I recognize that, and the Committee does, and the House and 
Senate do as well. When you go on the Commission, hopefully in 
the next few days, how will you work on prioritizing all the 
various things that you have to do because if you look at it 
all at one time, it is almost overwhelming? But how should you 
go about prioritizing that? Mr. Adler?
    Mr. Adler. That is a wonderful question. I think the first 
priority has to be paying attention to Congress, which is the 
enactment of the Consumer Product Safety Improvement Act and 
making sure that the agency has organized itself to manage the 
implementation of the act. That would be priority number one 
for me.
    Another major priority I would feel is that we have got to 
do something to restore the morale at the agency. It has 
dipped, as they would say in North Carolina, ``lower than a 
snake's belly.'' I think if you do not have a motivated work 
force, you do not have an efficient agency.
    In terms of other priorities, these are important things 
for the agency, and one of the things the agency has to do--and 
I think it has got to be done on a collegial basis--is for the 
Commissioners to sit down and look at the projects that the 
agency has pending and go through and make sure that those that 
have the highest rate of injury, the most severe injury, are 
the ones that are addressed first. This is a general annual 
exercise that the agency does, and I look forward to doing 
that.
    Senator Pryor. Did you have any comment on that?
    Ms. Northup. No. I think, first of all, I will say that I 
was not able to include it in my remarks, but the Chairman did 
reach out to me as soon as I was proposed by the President. She 
has a remarkable record and tackled enormous challenges in 
South Carolina. I think that she will probably be setting some 
of the agenda, and should I join as one of the Commissioners, I 
would look forward to being a part of that team and help assume 
some of that responsibility.
    The law is very holistic. It includes, first of all, making 
sure that products do not get on the market that are unsafe. 
Second, it requires reporting immediately if they are unsafe so 
that the public can be informed, and then it has this component 
of trying to have a much better outreach to be able to inform 
consumers when they need to be informed.
    So I realize that you need all of those things to go 
forward, and I would do everything I could to assume as much 
responsibility as I could to see that happen.
    Senator Pryor. Thank you.
    Senator Hutchison?
    Senator Hutchison. Thank you, Mr. Chairman.
    I have met with both of you and appreciate having the 
meetings because I would bow to Chairman Pryor as really the 
leader in the bill that was passed, and there are some very 
good parts to it. I know that Chairman Tenenbaum is working to 
start implementing those.
    I would like to ask both of you, starting with Mr. Adler, 
if you will commit to us to follow up in areas where you think 
we need to look at corrections or add flexibility to the 
Commission to be able to fulfill the spirit and intent of the 
law, which I think all of us agree is correct. Mr. Adler?
    Mr. Adler. Absolutely, Senator. I know there are some 
provisions that concern you and that concern other Members of 
the Senate. They raised them when we went to do our courtesy 
visits. These are issues honestly that I have thought about a 
lot. I have studied them. I have tried to do as much reading as 
I can. I have certainly talked to the staff who were involved 
in drafting these provisions.
    One of the things, if I am confirmed, that I hope the 
Commission does is to sit down, address some of these 
particularly important issues, talk to the staff, go over them 
at great length, first make sure that if there are any 
challenges that can be dealt with administratively, that we do 
that, and if there are changes that need to be made, then I 
think that we ought to approach the Senate and the House and in 
a very open, transparent fashion, work together to try to come 
up with measured and appropriate responses to these challenges.
    Senator Hutchison. Thank you.
    Ms. Northup?
    Ms. Northup. Well, I think much of the same, however, I 
would like to incorporate in mine.
    But let me also say that in every meeting I have had, the 
sense that there needs to be flexibility and the sense that 
there needs to be sound science was echoed on both sides of the 
aisle by Senators that were all on this Committee.
    So I would look forward, should I be confirmed, to the 
Commissioners looking at the law and using the law to the 
greatest extent as possible to see that the flexibility is 
applied, as we vote on the rules. And if there are obstacles, 
if we see that there is a common sense problem that the 
flexibility is not there, then I think that--I mean, Chairman 
Tenenbaum talked about these same issues when she came before 
the Committee, that there would be a common approach that she 
would present that back to this Committee.
    But I think that what we do not know--what I do not know, 
until I get the technical expertise that is available at the 
Committee, is whether the flexibility that is written in there, 
the accessibility clause, the absorbability clause, the 
exception for electronics is far-reaching enough or not. It 
would be premature for me to say whether or not I think that is 
in the law as it is.
    Senator Hutchison. The CPSC has used stays of enforcement 
to provide more time for businesses to comply with the law and 
also to provide exemptions that were maybe not originally 
envisioned. One example of the stay is for youth ATVs and other 
motorized vehicles with certain parts containing lead. These 
products need the lead to run safely--it is a part of their 
structure. So that has been used. However, the stays are for 
specific products not categories and are generally temporary 
and not binding on State Attorneys General who are now 
authorized to sue.
    So my question is, how would you approach an issue like 
that, and do you think the stays are sufficient to address 
concerns like the competing issues of stability for safety 
versus this lead content that was really mostly geared toward 
what children might eat and ingest? So let me just ask how you 
would approach that, both of you.
    Ms. Northup. Well, the current stay is till 2011. So there 
is some time to look at whether there is the flexibility and 
where the Commission is going to go. Should I be confirmed, I 
am eager to see what exactly the status of that and what the 
staff and the professional staff can tell us.
    I will say that the law does say that if any Attorney 
General--it does not preclude Attorneys General from taking 
action. I realize that, but it does require I think at least a 
30-day notice that was included in the conference bill that 
passed, which would give the Commission some time then to 
really accelerate their actions on that and perhaps come back 
to the Committee. So there would have to be notifications from 
the Attorney General that would give a chance for the CPSC to 
decide whether or not they want to go even further or what they 
want to do.
    Mr. Adler. That is a very tough question, Senator. I will 
try not to speak too long about it. But I am not a big fan of 
stays. If I had been at the Commission, I suspect I would have 
voted for the stay, but it is a fairly imperfect instrument, it 
seems to me, for the reason you mentioned, also for the reason 
that nobody is going to say to Wal-Mart that you are stayed 
from dealing with your suppliers and Wal-Mart could simply 
insist that its suppliers buy back a bunch of violative 
product.
    My other problem with the stay is that it is almost too 
permissive and at times it is too stringent. I think it is too 
stringent on a company that in good faith is trying to live up 
to the law because, even if the stay says we are not going to 
require you to test and to certify, if I were a virtuous 
company, how would I know whether I was in compliance unless I 
tested it? And so the actual practical effect might not be as 
large as we might have hoped.
    It might also be too permissive from my perspective because 
I could imagine a less than virtuous company saying we do not 
have to test. Great. Let us just ship all these goods and hope 
we do not get caught, in which case they might not just be 
shipping goods that have maybe 700 parts-per-million of lead, 
but they might have 10,000 parts-per-million of lead, and that 
gets into the marketplace.
    So I find that to be an imperfect instrument. It may have 
been the best option that the Commission had at that point, but 
what I would hope, if I am confirmed, is to get to the agency, 
sit down with the lawyers in the agency, the compliance staff, 
and fellow Commissioners and see if there is not some 
alternative approach. And it might well be that instead of a 
stay, we might be coming to the Congress for some additional 
modest amount of discretion.
    Senator Hutchison. Well, I think that this particular youth 
ATV issue is one where perhaps there is going to need to be 
some new flexibility because I think that there could be 
problems on both sides. Either you do not have the ability to 
stay, in which case it just cannot work, or on the other hand, 
an Attorney General might sue even though the Consumer Product 
Safety Commission has not come to a conclusion and has not been 
able to do all of its work. So that is the issue that will hit 
your desk, and I hope that you will be able to debate and come 
up with a conclusion that is common sense and also fair and 
protects a business that is trying to do the right thing, which 
is a safe vehicle, and give it the capability to do that.
    So thank you very much.
    Senator Pryor. Senator Wicker?

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman. Let me just 
associate myself with the sentiments of Senator Hutchison with 
regard to the last line of questioning.
    Also, our guests today should know that on the Commerce 
Committee there is a great deal of interest in the Commerce 
Department and in the CPSC among Members of the Committee. We 
are going in a number of different directions as we try to wind 
up our work for the August recess, and so I hope our guests 
please understand that there is a great deal of interest in 
this subject matter today.
    I wanted to stick around in particular to endorse the 
candidacy of Anne Northup, but I support both of these 
nominees. I am glad we are moving closer to a five-member CPSC, 
and I feel good about the candidacy of both individuals.
    Let me just say with regard to Anne Northup, I came to the 
House of Representatives in January 1995. She came in January 
1997. We were both fortunate enough in our freshman terms to be 
put on the Appropriations Committee, and literally for all the 
time Anne was in the Congress, we sat shoulder to shoulder in a 
very crowded Subcommittee room on Labor, HHS, and Education. So 
I know her well.
    I commend to this Committee, Anne Northup, based on her 
keen intellect, based on her work ethic, and as she listed the 
issues today, it was like going down memory lane, with so many 
of the instances when I learned that, indeed, Anne Northup is 
fearless. Indeed, she calls it as she sees it, whether you like 
it or not. Whether you agree with it, I think most people come 
away with the sense that it is based on sound reasoning, hard 
work, and intellect.
    On the issue of tobacco, banks versus realtors, taking on 
the pharmaceutical industry based on the cost of prescription 
drugs to Americans, ergonomics, it was an impressive education 
for this boy from Mississippi to have the benefit of Anne 
Northup's expertise and intellect. So I say that in support of 
her candidacy.
    And I think perhaps she and Mr. Adler will not always 
agree, but I think that they will always appreciate each 
other's genuineness.
    I am so glad that both witnesses today stressed basing 
decisions on sound science. I think Mr. Adler said data-driven 
and not rhetorical or simplistic solutions. I just would hope 
that both of the nominees will remember that when they deal 
with tough issues. There are so many issues where it sounds 
good at first blush.
    I have had to go round and round with regulators, for 
example, on the issue of furniture flammability. I for one 
think we can prevent fire deaths in the United States without 
subjecting our consumers to harsh and toxic chemicals, without 
subjecting our environment to substances that would harm the 
environment and in the name of preventing one danger, cause 
other greater dangers. So I am glad to hear both nominees agree 
to that and stress that.
    One question. We have a real problem in Mississippi and in 
a number of other states among homeowners on the issue of 
Chinese drywall. So I hope you will base your decisions on 
sound science. At the same time, I hope there is a way you can 
hurry and we can get the sound science quickly----
    [Laughter.]
    Senator Wicker.--and go beyond putting something on the 
website. We need answers on this issue. It is out there. So I 
would just hope that any information available could be gotten 
to consumers, beyond website posting, quickly. So I guess I am 
just echoing what Senator Pryor has said about getting the 
message out.
    If you would like to comment about Chinese drywall, I would 
be happy to hear that.
    Ms. Northup. Well, I just say that, first of all, it is an 
enormous problem. There is some of the problem in Kentucky, not 
at the level that it is in Mississippi or Florida and some of 
the other states. It is enormous for a number of reasons. It is 
not just widespread. You can throw a pacifier out. You cannot 
throw your home out. The cost of fixing this problem would 
overwhelm the average family.
    Let me just say I think that is I what I bring to this 
Committee today in asking for your approval, is that I know how 
completely frustrating it is to be a Member of Congress and 
have an agency that you are waiting on to deal with an issue 
that is so pressing to your constituents and to have this 
feeling that it is some black hole. You know, you call and it 
is like, well, we will back to you with the time schedule. And 
months can go by.
    I do believe that in 20 years, we will have completely 
figured out what the problem is with Chinese drywall, but if 
you are a family with a second-grader going off sick to school 
every day, you cannot wait until science--you need science to 
give you a time table, a reasonable approach to how you are 
going to deal with this, maybe come back to the Congress and 
tell them sort of the extent of the dangers, what the chemicals 
are, the physical dangers so that you are in a better position 
to take reasonable action. But I completely agree. This is a 
terrible problem.
    Mr. Adler. Just a brief comment. I did speak to Chairman 
Tenenbaum the day after she was confirmed, and she one of her 
very highest priorities was Chinese drywall. I know she has 
been pushing the CPSC staff very, very hard. She has been 
working diligently with the EPA and with State health 
departments. We really very much appreciate--or the agency very 
much appreciates the additional resources that the Congress has 
supplied to do this work.
    I share the same sense of urgency, and I hope, if I am 
confirmed, to join Ms. Tenenbaum in pushing and pushing as hard 
as we can to see if there is some regulatory options that might 
be addressed to help these homeowners.
    Senator Wicker. Thank you very much.
    Senator Pryor. Thank you.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Thank you very much as well for being willing to serve, to 
both of you, and congratulations on your nominations. I care a 
lot about this agency, and I think some of it came from my work 
as a prosecutor for 8 years. As you know from the work you are 
about to do and work you have done in your life, sometimes 
these people like the ones Senator Wicker was referring to with 
the drywall problem and you, Ms. Northup, so articulately 
answered in terms of your own passion for this--they have no 
one else except an agency that sometimes can seem like a big 
bureaucracy, but it is what they have. And we had so many cases 
where it would be victims of crimes, someone that just happened 
to be at the wrong place at the wrong time, and the only person 
they had to help them was maybe one prosecutor who stood 
between them and their faith in the system that things could 
get done.
    And that is why I have such a passion for this consumer 
work and have gotten involved in it from the beginning, 
including the Consumer Product Safety Act that we talked about, 
I know, today. That came out of a case for me in Minnesota 
where a little 4-year-old boy swallowed a charm that his mom 
got with a pair of tennis shoes. She did not ask for that 
charm. It came free. He was playing with it. He swallowed it 
and he died. And he died not from choking on it. He did not die 
because it blocked his airways. He died over a period of time 
as the days went on, as the lead in that charm went into his 
bloodstream. And when that charm was tested, it was 99 percent 
lead. And that is why I got so interested in this consumer 
product issue.
    And then we met the parents of kids that had eaten some of 
those spongy toys and ended up going into a coma because they 
actually accidentally had the date rape drug in them. And 
talking to that mom about how here she is and does not know 
what is wrong with her little baby and goes to the hospital. 
They do not know what is wrong. The kid comes out about it in a 
day, and she for weeks tried to figure it out on the Internet 
not knowing if he would suffer from permanent damage. These are 
real families. So I really appreciate your willingness to serve 
this agency.
    I guess my first question--I see Commissioner Nord out 
there--is that we are going from two Commissioners now to a bit 
more. So there is a lot of change in the agency. And I just 
would ask both of you what your approach will be in terms of 
helping to run an agency that has had a lot of work and 
undergone a lot of change. Mr. Adler?
    Mr. Adler. Thank you very much, Senator. I just wanted to 
add one word to what you were saying about the risks to 
children. That has always been a major concern and priority at 
the Consumer Product Safety Commission and I think properly so. 
Kids are not decision-makers. Kids are involuntary risk-takers. 
Kids are the most valuable, precious asset that we have, and we 
simply cannot do enough to try to protect kids, especially when 
it comes to hazards of product safety.
    I very much look forward, if I am confirmed, to going to 
work at the agency. It will be interesting to see how the 
agency with five Commissioners operates. It has always seem to 
be that the agency has functioned best when it has functioned 
in a nonpartisan, problem-solving way. In my experience at the 
agency, you get shifting coalitions among Commissioners. When a 
particular issue comes up, different Commissioners look at it 
differently, but I have never seen and I hope never to see any 
element of partisanship injected into the decisionmaking with 
respect to product safety, and I certainly hope to be part of 
that.
    There are so many issues that face the agency right now. I 
could probably talk your ear off for the next hour about the 
things I would like to work on, but as I say, one of the most 
important things I think the agency must do, in part to get 
back the confidence and trust of the Congress toward the 
agency, is to demonstrate that we are capable of implementing 
and meeting the deadlines in the Consumer Product Safety 
Improvement Act.
    Senator Klobuchar. Thank you.
    Ms. Northup?
    Ms. Northup. Well, I think again should I join the 
Commission, there would be five members, and I think that there 
is always a benefit to bringing new eyes to problems. I also 
think that you will have really robust debates and 
conversations. I have always felt like public policy is best 
when you put every idea and every perspective on the table and 
have the balance that brings the insights. None of us alone can 
come up with the best answers and to see what approaches can be 
taken.
    I said earlier it is a holistic bill, the Improvement Act. 
It starts with keeping unsafe products off the market. Then it 
requires new reporting responsibilities and decisions. There is 
not the lag that there used to be. And then the remedies are 
there, including much more outreach to families.
    I agree. I do not think that we should see this as two 
against three. Usually my experience in Congress was that there 
were sort of forming and reforming of thinking and how people 
aligned themselves. But good balance and good thought to look 
for reasonable solutions and depend on sound science and to 
remind ourselves that you have the ATV people that have all 
these products that are built and they are off the market and 
all the people that are left in limbo because the Consumer 
Product Safety Commission cannot finalize or cannot make a 
rule. We have got to deal with that and put all of those 
thoughts and deal with them quickly.
    Senator Klobuchar. Thank you, Ms. Northup, and I am glad 
you brought that up. I know that some of my colleagues asked 
about ATVs, and when you said that there is inventory on the 
shelves, maybe you knew that the people that make those ATVs 
are in Minnesota.
    [Laughter.]
    Ms. Northup. I did not.
    Senator Klobuchar [presiding]. That was a really smart 
move. Polaris and Arctic Cat are the two major domestic 
manufacturers, and they also make snowmobiles. This has been a 
major issue in our State. We have one staff member that I think 
he is going to start selling ATVs he learned so much about it. 
Clearly, many of us here did not envision that the law would be 
interpreted in that way.
    And I would just share the thoughts of my colleagues that 
we hope that this will get resolved. The stay is somewhat 
helpful. At least they can put, arguably, some of the inventory 
that they have showed me--I was just up there 3 weeks ago. I 
was up in Thief River Falls--you are welcome to visit--at the 
factory and saw some of the changes they have made. But I 
really think that we need to look into this because just as 
electronics had gotten an exemption here, the same kind of 
arguments can be made. And maybe we can do it practically with 
implementation or maybe there will be need for some additional 
legislation.
    Along those lines, I also hope you will work with the 
Handmade Toy Alliance, which is a group of smaller toy 
manufacturers who have concerns as well. And again, the 
original group is based in Minnesota. So I have been dealing a 
lot with these implementation issues and have an appreciation 
for what you will be working on.
    And I really thank you for your commitment to balance 
because there was a huge need for this legislation. We all know 
that. There were all these products coming in and there was not 
really the updated tools. I think the Wall Street Journal 
called it the most sweeping consumer legislation in 16 years. 
But at the same time, there needs to be balance.
    And I am now chairing this hearing. So now you have really 
got to watch out, but I turn it over to my colleague, Senator 
Hutchison.
    Senator Hutchison. I have already asked my questions. So 
Madam Chairman, I am finished.
    Senator Klobuchar. OK. Very good.
    Well, I just wanted to thank both of you. I will give you 
some in writing so we do not have to go on here with some of 
the issues with the Virginia Graeme Pool Safety Act, something 
very important. Again, we had a tragedy in our State, and the 
family and I worked on this very hard. It was a bill that had 
been kicking around for years, and we were able to get it done. 
Commissioner Nord and I just did an event to educate people 
about the fact that this law is out there, and we have actually 
done some great things in our State because of this tragedy. I 
know there are some implementation issues, but it was 
incredibly important to get that bill passed to get that done.
    So I am really excited that we are going to have this full 
rostrum of Commissioners and am looking forward to working with 
both of you.
    With that, would you like to say anything else?
    Ms. Northup. No. Just thank you so much for your time, and 
we are looking forward to the action of the Committee. I hope I 
will have an opportunity to work with you if I am confirmed.
    Senator Klobuchar. Very good.
    Mr. Adler. I just wanted to thank you and your staff and 
the terrific staff on the Senate Commerce Committee on both 
sides for taking the time to meet with us and the courtesy that 
you have shown to us. And we look forward to working with you 
when we get the agency, if we get to the agency.
    Senator Klobuchar. Well, OK, very good. I like how you have 
that respect for Congress. That is very important.
    [Laughter.]
    Senator Klobuchar. But I think things are looking good.
    With that, the hearing is adjourned.
    [Whereupon, at 11:36 a.m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                          Dennis F. Hightower
    Question 1. The Consumer Price Index (CPI) measures changes in 
consumer expenditures over time to gauge inflation. However, it does 
not account for geographic differences in the costs of goods, services, 
and other basic needs. As you know, the cost of living in some areas of 
the country is significantly higher than in other areas. Do you agree 
that there are important differences in consumer expenditures across 
distinct geographic areas and that differences in the cost of living 
are not fully accounted for in the CPI?
    Answer. I am certainly aware that different areas of the country 
are more expensive to live and to do business in than others, and there 
is little question that this is an important consideration. As to the 
specifics of the Consumer Price Index, that is a product of the Bureau 
of Labor Statistics at the Department of Labor, and thus I defer to the 
Department of Labor on the strengths and weaknesses of that measure.

    Question 2. What benefits might the Federal Government obtain from 
having an official government statistic, published regularly, that 
measures geographic variation in consumer expenditures and cost of 
living?
    Answer. Generally, I am in favor of official statistics that can 
both lead to better policy decisions, as well as help American 
businesses best understand their customers and the economic 
environment. That said, there is a great deal for me to learn still 
about what the Department currently produces and what specific value 
would come from new measures. This is an area I look forward to 
exploring, should I be confirmed.

    Question 3. The Bureau of Economic Analysis has published research 
that analyzes variations in consumer expenditures and the cost of 
living across geographic areas and has created a statistic called the 
Regional Price Parity. Similar statistics have been created in other 
countries. Are you familiar with this research and the Regional Price 
Parity? How could such a statistic be utilized by your agency and 
Congress?
    Answer. I am not yet familiar with the Regional Price Parity 
research at BEA, nor how the Department's statistics compare with those 
of other countries. As a manager, however, I believe in making 
decisions based on good data, and so to the extent the Department can 
better serve the government, the Congress and American business with 
more precise statistics, that is something I would support.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Dennis F. Hightower
    Question 1. Mr. Hightower, as an international business executive 
and head of an online media firm, you know the importance of broadband 
and have seen firsthand what other countries are doing to promote their 
Internet infrastructure.
    Yet in the last 10 years, the U.S. has gone from being a world 
leader in Internet penetration to being 15th or worse, depending upon 
what statistics you read. This year, the American Recovery and 
Reinvestment Act provided over seven billion dollars to the Department 
of Commerce and Department of Agriculture to help bring broadband to 
rural America.
    The stimulus funds available for broadband also come at a time when 
the Nation could potentially take significant ``leap frog'' steps to 
overcoming the digital divide. Federal funding alone, however, will not 
be enough. In addition to the Broadband Technology Opportunities 
Program (BTOP), what policies should the Department of Commerce promote 
to bridge the digital divide in America? How can the Department of 
Commerce leverage the stimulus package's investment in broadband to 
help promote new business opportunities for entrepreneurs living in 
areas that will soon have affordable broadband?
    Answer. To connect every American with broadband Internet service, 
we must increase broadband availability and broadband subscribership. 
The BTOP program is soliciting grant applications in support of both of 
these critical areas. In addition, if confirmed, I will work with the 
staff at the National Telecommunications and Information Administration 
to learn as much as we can from the BTOP Program. Those lessons learned 
would be shared with other agencies within the Department of Commerce. 
I believe we should also promote those lessons learned with the private 
sector, and entrepreneurs who are making innovative technologies more 
readily accessible to the marketplace. If confirmed, I would explore 
options to close the digital divide. In general, there should be a 
strong focus on developing appropriate policies that can best achieve 
the goal of extending affordable broadband to all Americans and 
creating an environment that rewards innovation, investment, and 
competition.
    Stimulus monies can bring broadband infrastructure to rural and 
urban areas. With this capability, the economy can benefit from faster 
information flow, improved productivity, and sharpened competitiveness. 
The effects are multiplied: farmers can receive quicker online weather 
reports, manage their shipments and receive orders more quickly. 
Critical institutions such as schools, libraries, and recreation 
centers that receive broadband can serve as anchor institutions for 
their surrounding communities-including small entrepreneurs. 
Affordability coupled with availability can only make the effects even 
more robust.

    Question 2. The Commerce Department houses a diverse collection of 
agencies and divisions. It does everything from supporting scientific 
research and the commercialization of new technologies to expanding 
American exports and promoting minority-owned businesses. How do you 
plan to help Secretary Locke harness these important Commerce 
Department initiatives into a coherent strategic vision to promote 
innovation and create jobs across the country?
    Answer. Secretary Locke and I share a vision of the Department of 
Commerce not as a collection of 12 agencies and bureaus and more than 
50,000 employees but as one Department, singularly equipped to help 
American businesses grow and to create jobs.
    When this Committee and the Congress enacted the America COMPETES 
act, you began with the premise that innovation through basic 
scientific research--and the ideas it produces--is the bedrock of 
competitiveness. The Department also houses its own idea factories, 
whether it is exploring the frontiers of nanotechnology at the National 
Institute of Standards and Technology (NIST), exploring the ocean at 
the National Oceanographic and Atmospheric Administration or designing 
spectrum policy at the National Telecommunications and Information 
Administration (NTIA). The Department also helps Americans protect the 
ideas they generate at the Patent and Trademark Office (PTO).
    But even the best ideas are only catalysts. Businesses need to 
commercialize those ideas into real products they can sell. If 
confirmed, I will make sure the Department stands ready to assist them 
through NIST's Manufacturing Extension Partnership helping small- and 
medium-sized manufacturers work smarter, through the Economic 
Development Administration helping communities attract businesses and 
through the Minority Business Development Administration helping 
minority-owned firms thrive.
    Once a business sends a product to market, it needs a level playing 
field on which to compete. The Department helps promote competitiveness 
through its International Trade Administration, promoting exports and 
ensuring fair competition, and through the Bureau of Industry and 
Security, ensuring an effective export control and promoting continued 
U.S. strategic technology leadership.
    Finally, after innovation, commercialization, and competition, 
comes measurement. A business needs to see how it stacks up, 
economically or environmentally. The Department, too, has measurement 
as a pillar of its operations whether it's the Economics and Statistics 
Administration providing economic analyses and the Census or the NOAA 
keeping an eye on our environmental sustainability.
    Secretary Locke and I view the Department, not just as a collection 
of agencies, but as a Department organized around the pillars of 
developing and maintaining a successful business--innovation, 
commercialization, competition and measurement. If confirmed, my 
challenge will be to help the Secretary and the Department's employees 
deliver those key services as effectively as possible.

    Question 3. The U.S. has had huge trade deficits for years. In 
today's economic climate, American companies face many hurdles to 
selling their products overseas. Unfair trade practices and complex 
technical regulations in foreign countries can also make exporting a 
real challenge, especially for small businesses. How will the Commerce 
Department help companies in New Mexico reach their full potential for 
exporting their products?
    Answer. The Department of Commerce's International Trade 
Administration (ITA) plays an important role in creating and sustaining 
high-paying jobs through export assistance, especially for small- and 
medium-sized businesses, and market access and advocacy support to 
ensure fair trade. ITA's efforts are focused on increasing the number 
of American exporters and increasing the number of export markets for 
American firms.
    ITA's U.S. & Foreign Commercial Service (US&FCS) has a global 
network of trade professionals in 109 U.S. locations, including Santa 
Fe, New Mexico, and in U.S. Embassies and Consulates in 77 countries. 
US&FCS staff will continue to work with U.S. companies, providing 
counseling and advocacy, market research, trade events, and 
identification of potential international buyers or partners. Commerce 
staff guides companies through every step of the export process, from 
shipping and logistics, to understanding foreign regulations, to 
finding solutions when they encounter trade barriers overseas. If 
confirmed, I look forward to working with Congress and the 
Administration to ensure these critical programs are providing maximum 
benefit to U.S. companies including those in New Mexico.

    Question 4. New Mexico is a beautiful place with terrific tourist 
destinations like historic Santa Fe, the Taos Pueblo world heritage 
site, and natural wonders like White Sands National Monument. Yet 
international tourism is suffering due to current world economic 
conditions. How will the Office of Travel and Tourism Industries (OTTI) 
at Commerce promote tourism in this current economic climate?
    Answer. The Department's efforts are focused on opening up new key 
markets for international visitors to the United States, such as 
visitors from China and countries in South America, and working closely 
with industry representatives in support of bringing such visitors to 
the United States. For example, the Department has a cooperative 
agreement with the U.S. Travel Association for a ``one-stop shop'' 
travel and tourism industry website aimed at international visitors in 
the top 5 markets. Through the Tourism Policy Council, the Department 
communicates industry concerns to all Federal agencies whose policies 
affect the travel and tourism industry. The Secretary has stated that 
he will communicate the importance and value of travel, including 
corporate travel, to the U.S. economy.

    Question 4a. How can the Commerce Department help businesses such 
as those in New Mexico that rely on tourism?
    Answer. The Department is working to ensure that all of the United 
States remains attractive to international visitors. The Department is 
continuing its work with other agencies to facilitate travel to the 
United States, while taking into account the demands of national 
security.
    In addition, Commerce is actively engaged with the Western States 
Tourism Policy Council to address rural community needs for travel and 
tourism. If confirmed, I look forward to working with you and other 
interested members to ensure Commerce's tourism programs bring maximum 
benefit to the U.S. tourism industry.

    Question 5. The New Mexico Manufacturing Extension Partnership 
(MEP) in Albuquerque provides helpful assistance to small companies 
throughout my state. How can the Commerce Department, through NIST and 
other agencies, do more to support small businesses and the 
manufacturing sector?
    Answer. In addition to the work that the New Mexico MEP is doing in 
your state to support the manufacturing sector, the Department of 
Commerce is looking at a single point of contact for businesses to 
access the Department's programs and services for businesses and 
entrepreneurs. In June, the Secretary announced his goal to unveil by 
the end of the summer a ``One-Stop Shop'' in the Detroit area, making 
more accessible the services offered by Commerce's Patent and Trademark 
Office, Minority Business Development Administration, Economic 
Development Administration, National Institute of Standards and 
Technology, and International Trade Administration, among others. The 
Department is going to pilot this idea in Detroit with a goal toward 
implementing this approach nationwide--bringing a new way of delivering 
services to the businesses and entrepreneurs in New Mexico. This 
program will play a critical role in bringing the Federal Government to 
``Main Street'' in an effective, business-friendly way--making the 
Federal Government a true partner in helping to revitalize communities.
    It is my understanding that Commerce has been very focused on the 
manufacturing sector and its challenges in this economy, from getting 
key input and advice from the Manufacturing Council to helping 
manufacturers diversify into new and growing technologies.

    Question 6. How can the Department of Commerce better promote 
entrepreneurship in minority communities through the Minority Business 
Development Agency (MBDA) and other initiatives?
    Answer. MBDA's mission is to foster the establishment and growth of 
minority-owned businesses of all sizes. Through its nationwide network 
of 48 minority business centers, MBDA is promoting entrepreneurship 
with minority communities and Native Americans through business 
advisory services and training programs. If confirmed, I will work with 
Secretary Locke and the new MBDA Director, David Hinson, to examine new 
and innovative ways to promote business growth and entrepreneurship in 
minority communities and tribal lands. I will welcome any input you and 
your colleagues may have and look forward to launching new initiatives 
toward this end if I am confirmed.

    Question 6a. How can the Commerce Department promote 
entrepreneurship and business opportunities on tribal lands?
    Answer. It is my understanding that one of MBDA's key cooperative 
grant programs is the Native American Business Enterprise Center 
(NABEC). These centers are operated by tribal entities, non-profit 
organizations and tribal colleges/universities. Through these centers, 
MBDA works with Native American entrepreneurs who wish to grow their 
businesses in size, scale and capacity. These firms are then better 
positioned to create jobs, impact local economies and expand into 
national and global markets. Last program year, MBDA assisted more than 
470 Native American clients with more than $93 million in contracts and 
$54 million in financial transactions.
    If confirmed, I look forward to exploring other ways to promote 
entrepreneurship and business opportunities on tribal lands.

    Question 7. The Native American Business Enterprise Centers play an 
important role in promoting entrepreneurship in tribal areas. The local 
NABEC office in my home state, in partnership with the American Indian 
Chamber of Commerce of New Mexico, works to promote both a favorable 
business climate and business growth in Indian Country through services 
such as business planning, bookkeeping, and government procurement 
assistance.
    My office has recently learned of challenges these centers face due 
to local grant matching requirements. I hope that you will promote a 
flexible approach to local grant requirements for Commerce Department 
programs that helps maximize their potential while still ensuring 
accountability and transparency. Would you support a flexible approach 
for grant requirements for programs such as NABEC by allowing, for 
example, ``sweat equity'' and volunteer efforts to be considered as in-
kind contributions?
    Answer. The NABEC grant opportunity requires a non-Federal match of 
at least 10 percent. The other two MBDA grant programs require a 20 
percent match. MBDA is sensitive to the needs of the Native American 
community and for that reason requires a lower non-Federal cost share.
    MBDA already supports a flexible approach for the non-Federal match 
allowing four means, or any combination thereof, to satisfy the cost 
sharing requirements. The four means include: (1) client fees; (2) 
grantee cash contributions; (3) grantee in-kind contributions; and (4) 
third-party contributions.
    An example of a grantee in-kind contribution would be if the ABC 
Chamber applied for one of MBDA's grants and offered their accountant's 
services for the project for 10 hours per week. The value of the pro-
rated salary per year attributable to project activities may be listed 
as an in-kind contribution. Other examples include the value of 
computers, office space and volunteer work attributable to the project.
                                 ______
                                 
Response to Written Question Submitted by Hon. Kay Bailey Hutchison to 
                          Dennis F. Hightower
    Question. This Committee and its members have long enjoyed a close 
and productive working relationship with agencies under our 
jurisdiction. We often rely on the technical and legal expertise of 
agency staff when we are developing or reviewing proposed legislation. 
Can all members of the Committee, and their staff on their behalf, 
count on this cooperative relationship continuing with the Department 
of Commerce?
    Answer. Yes. I fully recognize the importance of working closely 
with all Members of the Committee and I will ensure the Department 
continues that tradition if I am confirmed.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Robert S. Adler
    Question 1. The Commerce Committee considers protecting consumers 
one of its highest priorities. As Commissioner, what will you do to 
make sure that the CPSC protects the public from unsafe consumer 
products?
    Answer. The mission of the Consumer Product Safety Commission is to 
protect consumers from unreasonable risks associated with consumer 
products. I will consider this mandate to control my every action and 
every vote at the agency if I am confirmed.

    Question 2. The CPSC is an independent Federal agency. Are you 
comfortable speaking out against the Administration's budget and 
policies if you think those decisions are not in the best interest of 
protecting consumers?
    Answer. Yes. Independent agencies are independent for a purpose. 
They are supposed to address issues according to their mandates, not 
according to political concerns or considerations. That said, if 
confirmed, I would look forward to maintaining a dialogue with the 
Administration and with Congress on critical issues that they consider 
important.

    Question 3. The CPSC is in the midst of implementing the Consumer 
Product Safety Improvement Act of 2008 (CPSIA). There are a number of 
rulemakings under consideration and new requirements that have 
significantly expanded the authority of the Commission. Will you commit 
to working through implementation of this law in a commonsense manner 
that recognizes the flexibility of the act?
    Answer. Yes. I consider myself to be a non-ideological pragmatic 
problem solver. I believe that regulation works best when it comports 
with common sense, so I will wholeheartedly embrace such an approach if 
I am confirmed.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Robert S. Adler
    Question 1. As you know, almost all of the children's toys sold in 
the United States are made in foreign countries such as China. The 
infamous ``summer of recalls'' reminded us of the importance of 
ensuring the safety of all these imported products.
    I would appreciate hearing both nominees' views on ensuring product 
safety in an era of global supply chains. What proactive measure should 
the CPSC take to prevent unsafe, foreign-made products from being sold 
in the United States?
    Answer. First, given the CPSC's limited resources, it can never 
adequately police imports solely by itself. It must use its partnership 
with the U.S. Customs and Border Patrol to maintain a meaningful 
presence in the import marketplace. The CPSC should nurture this 
relationship which has been strengthened recently and alert Customs 
when it obtains information about new, emerging hazards. Second, the 
CPSC should continue to work with foreign governments wherever possible 
to educate them about our product safety laws and requirements. I 
commend Chairman Tenenbaum on her current trip to Asia to meet with 
fellow regulators and key stakeholders. If we maintain good relations 
with these governments and the regulatory bodies they establish, we can 
use their enforcement resources to amplify our safety message.

    Question 1a. How should CPSC work with manufacturers, U.S. Customs 
and Border Patrol, and foreign governments to protect American children 
and consumers from unsafe imported products?
    Answer. I would hope that the CPSC would seek to use strong, open 
relationships with all of these parties to try to promote safety in the 
development, manufacturing and marketing of consumer products before 
they are made, rather than seek recalls after a problem manifests 
itself. Incorporating product safety into a product's design is always 
superior to addressing problems once an injury or death has occurred. 
One of the most effective things the CPSC can do is to educate all 
parties about the nature of consumer product risks and to alert them to 
spread this message throughout their organizations.

    Question 1b. Since passage of the landmark CPSIA legislation, does 
the CPSC now have the resources and authority it needs to protect our 
children from harmful and tainted products imported from foreign 
countries?
    Answer. In all honesty, I don't know. I am certain that the added 
resources and authority are extremely helpful, though the agency does 
remain a smaller entity than it was thirty years ago. Since I am not at 
the CPSC, it is difficult to say whether any more resources or 
authority is needed.

    Question 2. Product recalls are one of the main tools CPSC uses to 
protect consumers. The CPSC website does provide helpful information 
about recent recalls. However, as a consumer, it is not always easy to 
know if you have a product at home that has been recalled for safety 
reasons. Moreover, not all Americans have access to the Internet. What 
are your thoughts for improving the effectiveness and response rate for 
product recalls?
    Answer. The new consumer safety database established in the CPSIA 
should provide considerable help if it is implemented in a user-
friendly manner with easy accessibility and clear paths to follow to 
obtain information. If I am confirmed, I will make implementing such a 
database a priority of mine. Clearly not everyone has a computer or 
Internet access, but if it is developed carefully, informal information 
networks often help carry the message even when it is not received 
directly. I believe this is the foundation of CPSC's Neighborhood 
Safety Network. Beyond the Internet, the agency should always use every 
available means at its disposal, including newspaper stories, TV, 
radio, and posters where appropriate, to carry its safety message.

    Question 2a. In addition to using existing tools such as the new 
consumer safety data base, what more can CPSC do to ensure that harmful 
products are promptly removed from store shelves and American 
households?
    Answer. In my opinion, the agency should rely on every 
communication and persuasion tool--emerging or traditional--it has 
available to transmit safety messages. Effective communication 
typically requires numerous messages sent through different channels to 
gain proper attention and to reinforce the importance of the safety 
messages.

    Question 3. Given that CPSC has fewer than 500 employees and the 
agency is charged with ensuring the safety of over 15,000 types of 
consumer products, I would like to know your thoughts on how CPSC can 
leverage its resources. For example, how will you work with state 
attorneys general to help ensure compliance with consumer product 
safety rules?
    Answer. In my past experience at the CPSC, there was always a 
strong inter-governmental relationship between the CPSC and the state 
attorneys general. I hope that such a relationship can be revived. As a 
former Deputy Attorney General in the Pennsylvania Attorney General's 
office, I participated in publicizing and enforcing CPSC recalls to 
great effect. One approach that I might recommend if I am confirmed is 
for the CPSC to host some regional conferences of state AG's to raise 
awareness about product safety issues and to obtain the expertise of 
the AG's on these issues.

    Question 4. Congress gave CPSC the authority interpret the Consumer 
Product Safety Improvement Act (CPSIA) to interpret the law's 
requirements in a common sense way to allow the agency to exempt 
certain from lead content rules. I do not believe motorcycles, for 
example, should fall under the same lead ban that applies to children's 
toys. As CPSC commissioner, will you support a flexible, common sense 
approach to interpreting the law that ensures a high level of consumer 
safety?
    Answer. Yes. You have my commitment that, if I am confirmed, I will 
approach all issues that come before me in a common sense fashion.

    Question 4a. Will you address the issue raised by constituents in 
my state of motorcycles inappropriately falling under the same lead ban 
as children's toys?
    Answer. Yes. If confirmed, I look forward to looking at this and 
other issues related to the lead content rules. I will approach these 
issues in a completely commonsensical way.

    Question 5. CPSC and other regulatory agencies rely on consensus 
standards developed by accredited standards development organizations. 
The U.S. Code of Federal Regulations currently includes 6,000 
references to such standards, including many in critical areas 
involving health and safety.
    Although CPSC technical experts participate in standards 
development activities relevant to consumer safety, CPSC has often been 
more reluctant than other agencies to reference existing voluntary 
safety standards as mandatory requirements.
    Last year, Congress directed CPSC to reference several such 
standards, which are updated more regularly than consumer rules, in 
order to ensure a higher level of children's safety. Congress also 
instructed CPSC to reference updated versions of these standards 
shortly after they are revised. How will you encourage CPSC staff to 
continue to participate in standards development organizations that are 
relevant to protecting consumer safety?
    Answer. I fully support having CPSC staff participate in standards 
development by voluntary groups. I believe it promotes a full 
understanding among the parties of critical issues and often produces 
effective safety improvements at lower costs than mandatory 
regulations. I was disappointed recently to see that the agency 
apparently felt compelled to withdraw from some ongoing voluntary 
standards development work because of higher priority demands of 
implementing the CPSIA. If confirmed, I hope to talk to the staff to 
see whether such a step was necessary and to push for continuing 
development in such work.

    Question 5a. Would you consider referencing the resulting standards 
in consumer safety rules when they are consistent with the Commission's 
regulatory objectives?
    Answer. Yes.

    Question 5b. How will you ensure that CPSC rules stay current with 
emerging consumer safety threats?
    Answer. Periodic review by CPSC of safety rules, whether they be 
mandatory or consensus standards, is necessary to stay current with 
emerging consumer threats. Also, when rules are thoughtfully developed 
in performance terms, they set useful safety parameters but leave 
compliance to manufacturers, thus permitting new technologies without 
the constant necessity of revising agency rules.
                                 ______
                                 
    Response to Written Question Submitted by Hon. David Vitter to 
                            Robert S. Adler
    Question. I thank both nominees for meeting with me prior to their 
consideration by the Committee. Also, I want to thank them for the good 
discussions we had on three important topics: the need to find a quick 
and fair resolution to the growing problem of tainted drywall from 
China, to work at the CPSC and with other Federal agencies to address 
the overall problem of products imported from China that are unsafe, 
and to ensure that the process leading to final regulations regarding 
phthalates will be based on sound science.
    On the last topic, I also want to ask that the nominees, if they 
are confirmed, carefully review the proposed Statement of Policy on the 
testing procedures for products subject to the interim ban on high-
molecular-weight phthalates. This policy under consideration would 
require testing of components that are inaccessible by children. This 
testing standard is different than what the Consumer Products Safety 
Improvement Act included for components with certain levels of lead 
that are inaccessible. I hope that the commission will carefully weigh 
the benefits and costs of the extra testing requirements, while 
continuing to ensure both safety of children and fairness to 
manufacturers with sound science as the backing for testing during the 
interim period and after the final regulations.
    Answer. If confirmed, I would be happy to review the Statement of 
Policy at issue and to consult with the other Commissioners and CPSC 
staff about it.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Hon. Anne M. Northup
    Question 1. The Commerce Committee considers protecting consumers 
one of its highest priorities. As Commissioner, what will you do to 
make sure that the CPSC protects the public from unsafe consumer 
products?
    Answer. If I am confirmed, I will work to assure that the mission 
of the agency to protect consumers from unreasonable risk of injury 
from consumer products is carried out aggressively and appropriately. I 
am especially committed to working on behalf of our most vulnerable 
consumers--children and the elderly.

    Question 2. The CPSC is an independent Federal agency. Are you 
comfortable speaking out against the Administration's budget and 
policies if you think those decisions are not in the best interest of 
protecting consumers?
    Answer. The CPSIA requires that the CPSC submit its proposed budget 
to Congress when it submits it to OMB. Therefore, the Congress will 
have the benefit of the agency's views independent from those of OMB. 
If I am confirmed, I will continue the same independence that was my 
hallmark as a Member of Congress for 10 years. I will continue to 
exercise independent judgment as a member of the CPSC.

    Question 3. The CPSC is in the midst of implementing the Consumer 
Product Safety Improvement Act of 2008 (CPSIA). There are a number of 
rulemakings under consideration and new requirements that have 
significantly expanded the authority of the Commission. Will you commit 
to working through implementation of this law in a commonsense manner 
that recognizes the flexibility of the act?
    Answer. Yes. As a Member of Congress, I have consistently sought 
common sense solutions to problems. I intend to continue that approach 
if confirmed as a Commissioner for the CPSC.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Hon. Anne M. Northup
    Question 1. As you know, almost all of the children's toys sold in 
the United States are made in foreign countries such as China. The 
infamous ``summer of recalls'' reminded us of the importance of 
ensuring the safety of all these imported products.
    I would appreciate hearing both panelists' views on ensuring 
product safety in an era of global supply chains. What proactive 
measure should the CPSC take to prevent unsafe, foreign-made products 
from being sold in the United States? How should CPSC work with 
manufacturers, U.S. Customs and Border Patrol, and foreign governments 
to protect American children and consumers from unsafe imported 
products? Since passage of the landmark CPSIA legislation, does the 
CPSC now have the resources and authority it needs to protect our 
children from harmful and tainted products imported from foreign 
countries?
    Answer. Since all current expertise at the CPSC is not currently 
available to me, it is premature for me to make specific 
recommendations about what actions the CPSC should take concerning 
foreign-made products being sold in the United States. However, I 
believe that consumers wouldbenefit greatly from increased coordination 
among manufacturers, U.S. Customs and Border Patrol (CBP), foreign 
governments and the CPSC. Should I be confirmed, I would work to expand 
the CPSC's port surveillance system, and ensure open communication with 
foreign governments and manufacturers about the U.S. consumer product 
safety laws, specifically CPSIA. I am aware of efforts to strengthen 
the working efficiencies between CPSC and the CBP and would support 
those efforts. I would work to ensure that the dollars appropriated to 
CPSC would be used to accomplish the maximum protection for our 
children. By taking advantage of the fast changing technologies that 
are currently more widely available for tracking inventories, I would 
hope that more could be accomplished at a lower cost.

    Question 2. Product recalls are one of the main tools CPSC uses to 
protect consumers. The CPSC website does provide helpful information 
about recent recalls. However, as a consumer, it is not always easy to 
know if you have a product at home that has been recalled for safety 
reasons. Moreover, not all Americans have access to the Internet. What 
are your thoughts for improving the effectiveness and response rate for 
product recalls? In addition to using existing tools such as the new 
consumer safety data base, what more can CPSC do to ensure that harmful 
products are promptly removed from store shelves and American 
households?
    Answer. Should I be confirmed, I look forward to working to improve 
the process for disseminating information about product recalls. As a 
mother of six children, I know how important it is for parents, and for 
all consumers, to have accurate information about the safety of the 
products they use. I intend to closely review information the agency 
already has that explains how the recalls are executed and how their 
effectiveness is determined. Using that as a benchmark, I will want to 
explore how the new consumer safety database can enhance access to 
recall information as well as engage the public more in its 
availability. We must also recognize that not all consumers have access 
to the Internet, so I will work to ensure that those consumers have 
better access to recall information as well. The goal of keeping 
recalled products from harming consumers is of critical importance to 
me.

    Question 3. Given that CPSC has fewer than 500 employees and the 
agency is charged with ensuring the safety of over 15,000 types of 
consumer products, I would like to know your thoughts on how CPSC can 
leverage its resources. For example, how will you work with state 
attorneys general to help ensure compliance with consumer product 
safety rules?
    Answer. I want the agency to foster beneficial partnerships with 
state attorneys general, as well as relevant state agencies, to achieve 
our common goal of consumer protection. That will expand the impact and 
effectiveness of the work at the CPSC. This is especially important in 
light of the authority for state attorneys general to bring civil 
action for appropriate injunctive relief under the provisions of the 
CPSIA. A cooperative approach between Federal and state authorities 
would result in the optimal use of resources to protect American 
consumers. Should I be confirmed, I look forward to discussions with 
Chairman Tenenbaum and the other Commissioners how best to work with 
state attorneys general on enforcement.

    Question 4. Congress gave CPSC the authority interpret the Consumer 
Product Safety Improvement Act (CPSIA) to interpret the law's 
requirements in a common sense way to allow the agency to exempt 
certain from lead content rules. I do not believe motorcycles, for 
example, should fall under the same lead ban that applies to children's 
toys. As CPSC commissioner, will you support a flexible, common sense 
approach to interpreting the law that ensures a high level of consumer 
safety? Will you address the issue raised by constituents in my state 
of motorcycles inappropriately falling under the same lead ban as 
children's toys?
    Answer. If confirmed, I am committed to regulating in a common 
sense manner that maximizes protection to consumers and minimizes 
burdens on those regulated to the extent that the law allows such 
flexibility. In addition, I will request a briefing to determine the 
status of the motorcycle issue, to determine what avenues of relief are 
available, and work with you to determine how the issue can best be 
addressed.

    Question 5. CPSC and other regulatory agencies rely on consensus 
standards developed by accredited standards development organizations. 
The U.S. Code of Federal Regulations currently includes 6,000 
references to such standards, including many in critical areas 
involving health and safety.
    Although CPSC technical experts participate in standards 
development activities relevant to consumer safety, CPSC has often been 
more reluctant than other agencies to reference existing voluntary 
safety standards as mandatory requirements.
    Last year, Congress directed CPSC to reference several such 
standards, which are updated more regularly than consumer rules, in 
order to ensure a higher level of children's safety. Congress also 
instructed CPSC to reference updated versions of these standards 
shortly after they are revised. How will you encourage CPSC staff to 
continue to participate in standards development organizations that are 
relevant to protecting consumer safety? Would you consider referencing 
the resulting standards in consumer safety rules when they are 
consistent with the Commission's regulatory objectives? How will you 
ensure that CPSC rules stay current with emerging consumer safety 
threats?
    Answer. I understand that an important part of the CPSC staff work 
is to participate in and support the development of voluntary consensus 
standards. I believe that such standards are an essential element in 
ensuring the safety of consumer products. While I understand that the 
ongoing staff work on consensus standards has been diminished to focus 
resources on the implementation of the CPSIA, with additional resources 
now coming to the agency, this important work can resume. I will work 
to support active participation by CPSC staff in consensus standards 
work as the agency develops its ongoing work plans and budget for the 
upcoming years.
    I understand that the Consumer Product Safety Improvement Act 
recognizes the role that consensus standards play in ensuring the 
safety of consumer products by prohibiting mandatory rulemaking when a 
voluntary consensus standard adequately addresses the risk of injury. 
However, it is also my understanding that the CPSIA gives the agency 
some additional flexibility to determine that products which do not 
meet voluntary standards will be determined to be hazardous. This is an 
important clarification and could be especially important in an import 
context.
    Identifying emerging product hazards is probably one of the most 
difficult problems facing the Commission. While I am not yet an expert 
on the resources the agency currently has to identify new product 
hazards, this is an area where I believe adequate resources must be 
devoted. In particular, the recently acquired new agency laboratory 
facility will be helpful in carrying out this role. In addition, I 
believe that the agency should leverage its resources by reaching out 
to other Federal agencies and resources at the state and local level to 
make sure that it is informed of research and data that touch on its 
safety mission.
                                 ______
                                 
    Response to Written Question Submitted by Hon. David Vitter to 
                          Hon. Anne M. Northup
    Question. I thank both nominees for meeting with me prior to their 
consideration by the Committee. Also, I want to thank them for the good 
discussions we had on three important topics: the need to find a quick 
and fair resolution to the growing problem of tainted drywall from 
China, to work at the CPSC and with other Federal agencies to address 
the overall problem of products imported from China that are unsafe, 
and to ensure that the process leading to final regulations regarding 
phthalates will be based on sound science.
    On the last topic, I also want to ask that the nominees, if they 
are confirmed, carefully review the proposed Statement of Policy on the 
testing procedures for products subject to the interim ban on high-
molecular-weight phthalates. This policy under consideration would 
require testing of components that are inaccessible by children. This 
testing standard is different than what the Consumer Products Safety 
Improvement Act included for components with certain levels of lead 
that are inaccessible. I hope that the commission will carefully weigh 
the benefits and costs of the extra testing requirements, while 
continuing to ensure both safety of children and fairness to 
manufacturers with sound science as the backing for testing during the 
interim period and after the final regulations.
    Answer. I believe that the decisions of the Commission must always 
be based on sound science. If confirmed as a Commissioner, I would 
always take this approach, to the extent allowed by law.
    With respect to phthalates specifically, I understand that there 
are a number of unanswered questions, not only with respect to 
phthalates, but also with respect to substitutes for which there is 
little information about health effects. I understand that the CPSC is 
assembling a Chronic Hazard Advisory Panel that is required to complete 
its investigation within 180 days and that the Commission will then 
make a final determination. If I am confirmed, I will work to ensure 
that the Panel is impartial in its makeup and completes its work on 
schedule.

                                  <all>

</pre></body></html>
